<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                         TUESDAY, MARCH 2, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, and Byrd.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        DR. CHARLES E. McQUEARY, UNDER SECRETARY, SCIENCE AND 
            TECHNOLOGY DIRECTORATE
        LIEUTENANT GENERAL FRANK LIBUTTI, UNDER SECRETARY, INFORMATION 
            ANALYSIS AND INFRASTRUCTURE PROTECTION

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The meeting will please come to order.
    We appreciate very much the attendance of our witnesses at 
today's hearing. We continue our review, today, of the fiscal 
year 2005 budget request for the Department of Homeland 
Security, with specific consideration being given to the 
programs and activities of the Science and Technology 
Directorate, and the Information Analysis and Infrastructure 
Protection Directorate.
    I am pleased to welcome the Under Secretary for Science and 
Technology, Dr. Charles E. McQueary, and the Under Secretary 
for Information Analysis and Infrastructure Protection, 
Lieutenant General Frank Libutti.
    The President is requesting $1.04 billion for Science and 
Technology, and $865 million for Information Analysis and 
Infrastructure Protection.
    We appreciate the witnesses submitting their statements in 
advance. They will be printed in the hearing record and we 
invite you to make any remarks that you think would be helpful 
to the Committee's understanding of the budget request. But 
before proceeding, I want to yield to my distinguished friend 
and colleague, Senator Robert C. Byrd, for any opening 
statement that he may wish to make.
    Senator Byrd. Thank you, Mr. Chairman.
    Welcome, Mr. Under Secretary McQueary and Mr. Under 
Secretary Libutti.
    Oh, by the way, Happy Birthday. Happy Birthday.
    Dr. McQueary. Thank you.

                     HOW IAIP FUNDS ARE BEING SPENT

    Senator Byrd. Over 1 year ago, the Information Analysis and 
Infrastructure Protection Directorate was established to 
enhance the sharing of threat information amongst all levels of 
Government and the private sector, to assess vulnerabilities of 
our critical infrastructure sectors, and to provide resources 
to protect them. However, it has been quite difficult for this 
subcommittee to receive information on what your budget is 
being spent on, or how the funding is being awarded.
    I understand that our staffs had a constructive meeting 
yesterday, and I hope that this cooperation will continue. Not 
only do we hope it, but we expect it to continue.

                   CRITICAL INFRASTRUCTURE PROTECTION

    When it comes to protecting this Nation's critical 
infrastructure, the Administration tells us that the private 
sector is taking care of it. Yet, there is no mandate on the 
private sector to make investments in security. Their 
involvement is voluntary. There are no benchmarks for Congress 
to use in assessing the private sector's role in critical 
infrastructure protection.
    And so that is why, today, I am sending a letter asking the 
General Accounting Office, which is an arm of the Congress, to 
provide this subcommittee with an assessment of private sector 
investments to improve the security of our critical 
infrastructure such as chemical plants and ports since 
September 11, 2001.

                          INFORMATION ANALYSIS

    Regarding information analysis, it is a mystery to me why 
this Administration, which celebrated the creation of this new 
department as a great success, has gone to great lengths to 
splinter its functions in the area of intelligence.
    The President created the Terrorist Threat Integration 
Center, but gave primary responsibility to the CIA. He followed 
up this decision by establishing the Terrorist Screening Center 
within the FBI, creating further confusion about this 
Department's role in intelligence sharing.
    Experts who follow this situation are concerned. The 
Advisory Panel to Assess Domestic Response Capabilities for 
Terrorism Involving Weapons of Mass Destruction, better known 
as the Gilmore Commission, concluded in December that the IAIP 
directorate ``does not have significant analytical power'' to 
do what it takes, to analyze and disseminate intelligence 
information.

                             IAIP STAFFING

    In the area of staffing, the IAIP directorate is barely 
keeping its head above water. After a year in existence, IAIP 
is struggling to meet its staffing goals. My understanding is 
that very few of the authorized intelligence analysts are on 
board.

                     SCIENCE AND TECHNOLOGY BUDGET

    Let me turn now to Science and Technology. The Science and 
Technology Directorate's budget is the eighth largest R&D 
budget in the Federal Government. The budget request for fiscal 
year 2005 is just over $1 billion. There is concern whether 
this budget is sufficient to address the various threats that 
we face, such as a biological, chemical or radiological attack.
    Last year this subcommittee received hundreds of requests 
from members for research and technology projects at major 
universities. Rather than earmark projects, the subcommittee 
significantly increased the university account and allowed the 
department to select projects through a competitive process. 
Unfortunately, the President responded to this approach by 
proposing to substantially reducing funding for this purpose 
next year.
    I look forward to hearing from our witnesses on why this 
cut is appropriate.
    Mr. Chairman, I beg you to pardon my tardiness and I thank 
you for allowing me to proceed with my opening statement.
    Senator Cochran. Dr. McQueary, we have a copy of your 
statement and we invite you to make any comments and remarks 
about the budget request which you think would be helpful to 
our understanding of the request that you're making.
    You may proceed.

                 STATEMENT OF DR. CHARLES E. MC QUEARY

    Dr. McQueary. Thank you, Chairman Cochran. And Senator 
Byrd.
    It's been several months since I have appeared before you 
and I welcome the opportunity to do so again.
    It is a pleasure to be here today and have a chance to talk 
about the research and development activities of the Department 
of Homeland Security's Science and Technology Directorate.
    The Nation's advantage in science and technology is key to 
securing the homeland. The most important mission for the 
Science and Technology Directorate is to support the efforts of 
the dedicated men and women who protect and secure our 
homeland.

                     HIGHLIGHTS OF ACCOMPLISHMENTS

    When I first reported to you about activities last year, we 
had just begun our work. The Directorate has accomplished much 
since its inception last March. And I would like to give you a 
few brief highlights, and several others are included in the 
written testimony that I have submitted.
    First, we have deployed monitoring systems that operate 
continuously to detect biological pathogens in approximately 30 
cities in the United States. We have also set up test beds to 
provide accurate radiation and nuclear warnings at air and 
marine cargo points, ports in cooperation with the Port 
Authority of New York and New Jersey. We have established the 
first series of interoperability guidelines for the Nation's 
wireless emergency communications network.
    In another effort, we have greatly reduced the time it 
takes to develop national standards for technologies to protect 
the homeland.
    Our new standards for radiation detection equipment will 
help put needed technologies into the hands of first responders 
quickly. And, our Homeland Security Advance Research Project 
Agency, or HSARPA, has started extensive research for next 
generation biological and chemical, as well as radiological and 
nuclear detectors.
    We have awarded the first round of 100 Homeland Security 
fellowships and scholarships to build U.S. leadership in 
science and technology. And we have also established the first 
university-based Homeland Security Center of Excellence to 
address both the targets and means of terrorism. And, we have 
become active contributors in numerous inter-agency working 
groups throughout the Federal Government.
    In accomplishing this, we have doubled the staff of this 
directorate with some of the country's brightest and most 
dedicated people. We started the Directorate on March 1, last 
year, with 87 people and 53 of those were transferred in bulk 
from the Environmental Measurements Laboratory in Manhattan, 
New York. So the basic staff was quite small for carrying the 
program that we had responsibility for forward. Today, we are 
at about 210 people, which is exactly where we had hoped to be 
on our plan of adding staff to the organization.
    However, as we all know, the threats to our homeland remain 
diverse and daunting. We must constantly monitor current and 
emerging threats, and assess our vulnerabilities to them. And 
we must develop new and improved capabilities to counter them, 
and be prepared to respond to and recover from a potential 
attack.

           PRIORITIZATION OF RESEARCH AND DEVELOPMENT EFFORTS

    The Science and Technology Directorate has prioritized its 
research and development efforts based on the directives and 
recommendations of many sources, including the Homeland 
Security Act of 2002, President Bush's National Strategy and 
nine Homeland Security Presidential Directives as well as the 
report of the National Academies of Science on making the 
Nation safer, and reports from the Gilmore, Bremer, and Hart-
Rudman Committees.
    We have identified and integrated the information in these 
sources for review and evaluation by our scientific staff, and 
it provides the basis for determining the Research and 
Development needed to meet our mission.
    We recognize that many organizations are contributing to 
the Homeland Security's Science and Technology base. Congress 
recognized this as well and the Homeland Security Act of 2002 
directed the Under Secretary of Science and Technology to 
coordinate the Federal Government's civilian efforts to 
identify and develop countermeasures to current and emerging 
threats. We take this responsibility very seriously.
    We began this coordination process by evaluating and 
producing a report on the Department of Homeland Security 
research and development activities underway that were not 
under the direct cognizance of the Under Secretary for Science 
and Technology. Where appropriate, Science and Technology will 
absorb these research and development functions in this fiscal 
year.
    We are now initiating the effort needed to coordinate 
Homeland Security research and development across the entire 
United States Government. Discussions are ongoing with the 
Federal departments and agencies, as well as the Office of 
Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council to ensure the best 
possible coordination.

                         FISCAL YEAR 2005 PLANS

    At this time, I would like to briefly describe our fiscal 
year 2005 plans. We have an overall budget request of $1.04 
billion, which you identified, which is an increase of $126.5 
million or about 14 percent over fiscal year 2004. With these 
funds Science and Technology will continue to make progress in 
securing the homeland.
    For example, under President Bush's new biological-
surveillance initiative, which accounts for most of the 
increase in funding, additional capability will be implemented 
quickly in the top-threat urban areas to provide more than 
twice the current capability.
    We will continue to provide the science and technology 
capabilities and enduring partnerships needed to develop 
methods and tools to test and assess threats and 
vulnerabilities to protect our critical infrastructure and 
enhance information exchange.
    We will continue to work in cyber security both through 
partnerships and by creating low-cost and high impact solutions 
to identified cyber security challenges. And of course, this is 
done in concert with my good friend, General Libutti.
    We will wrap-up our work in counter-MANPADS to improve 
technology to protect commercial aircraft from the man-portable 
air defense systems or the shoulder-fired missiles, which 
present a vulnerability to our commercial aircraft industry.
    We will award contracts in fiscal year 2005 for integrating 
commercial prototype equipment on selected commercial aircraft 
and conduct test evaluation including a live-fire range test.
    In conclusion, this year the scientists and engineers in 
the Science and Technology Directorate have accomplished more 
than I could have expected. I am proud to have shared some of 
these success stories with you today. We have appended a more 
comprehensive summary of the accomplishments to date for the 
record.

                           PREPARED STATEMENT

    Yet, we also recognize that there is much more to do and we 
will be working just as hard in fiscal year 2005. I look 
forward to working with you, with my colleagues in other 
Federal agencies, and with private industry and academia to 
continue this work and improve our ability to protect our 
homeland and our way of life.
    This concludes my prepared statement, and I will be 
prepared to answer questions at the appropriate time.
    [The statement follows:]

             Prepared Statement of Dr. Charles E. McQueary

                              INTRODUCTION
    Good morning. Chairman Cochran, Senator Byrd, and distinguished 
Members of the subcommittee, it is a pleasure to be with you today to 
discuss the research and development activities of the Department of 
Homeland Security's Science and Technology Directorate.
    The Nation's advantage in science and technology is key to securing 
the homeland. The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting-edge technologies and new 
capabilities so that the dedicated men and women who serve to protect 
and secure our homeland can perform their jobs more effectively and 
efficiently--these men and women are my customers.
    When I last reported to you about our activities, we had just 
started our work. Since its inception less than a year ago, the Science 
and Technology Directorate has:
  --deployed continuously operating biological pathogen detection 
        systems to approximately 30 United States cities;
  --set up testbeds for radiation and nuclear warnings at air and 
        marine cargo ports in cooperation with the Port Authority of 
        New York and New Jersey;
  --established the first series of interoperability guidelines for the 
        Nation's wireless emergency communications network;
  --established the first national standards guidelines for radiation 
        detection equipment;
  --awarded the first Homeland Security Fellowships and Scholarships;
  --established the first Homeland Security University Center of 
        Excellence;
  --transferred the Plum Island Animal Disease Center from the 
        Department of Agriculture to the Science and Technology 
        Directorate;
  --engaged private industry in bringing innovative and effective 
        solutions to homeland security problems through the interagency 
        Technical Support Working Group and issuance of HSARPA's first 
        two Broad Agency Announcements and a Small Business Innovative 
        Research Program solicitation;
  --initiated a development and demonstration program to assess the 
        technical and economic viability of adapting military 
        countermeasures to the threat of man portable anti-aircraft 
        missiles for commercial aircraft;
  --collaborated with and assisted other components of the Department 
        to enhance their abilities to meet their missions and become 
        active contributors in interagency working groups--all while 
        staffing this Directorate with some of this country's brightest 
        and most dedicated people.
    I continue to be energized by and proud of the scientists, 
engineers, managers, and support staff in the Science and Technology 
Directorate. We have accomplished a great deal in a short amount of 
time and are positioning the Directorate to make continuing 
contributions to the homeland security mission of the Department.
    However, the threats to our homeland remain diverse and daunting. 
We must constantly monitor current and emerging threats and assess our 
vulnerabilities to them, develop new and improved capabilities to 
counter them, and mitigate the effects of terrorist attacks should they 
occur. The Science and Technology Directorate must also enhance the 
conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities such as maritime search and 
rescue.

            SCIENCE AND TECHNOLOGY DIRECTORATE ORGANIZATION
    Because our Department is relatively new, I'd like to describe the 
way we are structured. We have four key offices in the Science & 
Technology Directorate, each of which has an important role in 
implementing the Directorate's RDT&E activities. Individuals with 
strong credentials have been appointed to head each office and we 
continue to strategically add highly skilled technical, professional 
and support staff. These offices are: Plans, Programs and Budgets; 
Research and Development; Homeland Security Advanced Research Projects 
Agency; and Systems Engineering and Development. In addition, we have 
created the Office of Weapons of Mass Destruction Operations and 
Incident Management to offer scientific advice and support.
    Crosscutting the four key offices, the Science and Technology 
Directorate is implementing its activities through focused portfolios 
that address biological, chemical, high explosives, radiological and 
nuclear, and cyber threats; support the research and development needs 
of the operational units of the Department; support the development of 
standards; develop an enduring R&D capability for homeland security; 
and receive valuable input from private industry and academia as well 
as national and Federal laboratories. I will talk about the offices 
first and then about the portfolios.
Office of Plans, Programs and Budgets
    The Office of Plans, Programs and Budgets operates under the 
supervision of Dr. Penrose Albright. He has organized this office into 
the portfolios I just mentioned, each of which is focused on a 
particular discipline or activity; taken together, these portfolios 
span the Directorate's mission space. As I will cover the portfolios in 
detail later in this testimony, I will limit myself here to a summary 
explanation. The staff of each portfolio is charged with being expert 
in their particular area; with understanding the activities and 
capabilities extant in Federal agencies and across the broad research 
and development community; and with developing a strategic plan for 
their particular portfolio, to include near-, mid-, and long-range 
research and development activities. In addition, we have staff that is 
charged with understanding the threat from a technical perspective, 
with integrating the various portfolios into a coherent overall plan, 
and with developing the corresponding budget and monitoring its 
financial execution.
    Finally, the Office of Plans, Programs and Budget is responsible 
for executing the Directorate's implementation responsibilities for the 
SAFETY (Support Anti-Terrorism by Fostering Effective Technologies) 
Act.
Office of Research and Development
    We are fortunate to have Dr. Maureen McCarthy as our Director of 
Science and Technology's Office of Research and Development (ORD). Dr. 
McCarthy has served as Chief Scientist for the National Nuclear 
Security Administration and the Department of Energy (DOE) and was 
previously DOE's senior representative to the Homeland Security 
Transition Planning Office. She will lead the office as it strives to 
provide the Nation with an enduring capability in research, 
development, demonstration, testing and evaluation of technologies to 
protect the homeland. This office also plans to provide stewardship to 
the scientific community and to preserve and broaden the leadership of 
the United States in science and technology.
    Activities within ORD address the resources that can be brought to 
bear to better secure the homeland through the participation of 
universities, national laboratories, Federal laboratories and research 
centers. Directors have been appointed to lead efforts in each of these 
areas and staff is being added rapidly.
Homeland Security Advanced Research Projects Agency
    Dr. David Bolka joined us in September 2003 as director of the 
Homeland Security Advanced Research Projects Agency, known as HSARPA. 
Dr. Bolka made significant contributions in advancing technical and 
scientific projects in his prior work with Lucent Technologies and Bell 
Laboratories, following a notable career in the United States Navy.
    HSARPA is the external research-funding arm of the Science and 
Technology Directorate. It has at its disposal the full range of 
contracting vehicles and the authority under the Homeland Security Act 
to engage businesses, federally funded research and development 
centers, universities and other government partners in an effort to 
gather and develop viable concepts for advanced technologies to protect 
the homeland.
    HSARPA's mission, as stated in the Homeland Security Act of 2002, 
is to support basic and applied homeland security research to promote 
revolutionary changes in technologies that would promote homeland 
security; advance the development, testing and evaluation, and 
deployment of homeland security technologies; and accelerate the 
prototyping and deployment of technologies that would address homeland 
security vulnerabilities. Its customers are State and local first 
responders, and Federal agencies that are allied with homeland security 
such as the United States Coast Guard, United States Secret Service, 
the U.S. Citizenship and Immigration Services, the Federal Emergency 
Management Agency and others.
    About 60 percent of the Science and Technology Directorate's 
appropriation in fiscal year 2004 will be executed directly through the 
private sector with HSARPA managing about half of that. At least 5 to 
10 percent of HSARPA's funds are dedicated for revolutionary, long-
range research for breakthrough technologies and systems.
Office of Systems Engineering and Development
    Mr. John Kubricky joined us in early October 2003 as our Director 
of the Office of Systems Engineering and Development (SE&D). He is 
tasked with leading the implementation and transition of large-scale or 
pilot systems to the field through a rapid, efficient and disciplined 
approach to project management. Mr. Kubricky previously served as 
Advanced Program Development Manager for Northrop Grumman and has held 
senior positions with California Microwave and Westinghouse Defense.
    One of the Science and Technology Directorate's challenges is to 
evaluate a wide spectrum of military and commercial technologies so 
rapid, effective and affordable solutions can be transitioned to the 
Department's customers that include first responders and Federal 
agencies. In some cases, military technologies could be candidates for 
commercialization, but rigorous systems engineering processes need to 
be applied to ensure a successful transition. SE&D's role is to 
identify and then, in a disciplined manner, retire risks associated 
with such technologies to ready them for deployment to the field. In 
doing so, the office must view each technology through the prism of 
affordability, performance and supportability--all critical to end-
users.
    SE&D must weigh considerations such as the urgency for a solution, 
consequences of the threat, safety of the product, and lifecycle 
support as new products are introduced. Products must be user friendly, 
have a minimum of false alarms, require little or no training and 
consistently provide accurate results. SE&D will demonstrate and test 
solutions before they are released to the field, and will validate that 
those solutions meet user expectations.
Office of Weapons of Mass Destruction Operations and Incident 
        Management
    We created the Office of Weapons of Mass Destruction Operations and 
Incident Management to serve as the Science and Technology 
Directorate's technical support for crisis operations. The office 
provides scientific advice and support to the Office of the Secretary 
of Homeland Security in assessing and responding to threats against the 
homeland. This office's activities are primarily focused on the 
biological, chemical, radiological, and nuclear threats.
results from current research and development (r&d) spending and fiscal 

                   YEAR 2005 PLANS: PORTFOLIO DETAILS
    As I have mentioned, the Science and Technology Directorate has 
organized its efforts into research and development portfolios that 
span the set of product lines of the Directorate.
    Four portfolios address specific terrorist threats:
  --Biological Countermeasures
  --Chemical Countermeasures
  --High Explosive Countermeasures
  --Radiological and Nuclear Countermeasures
    Four portfolios crosscut these threats:
  --Threat and Vulnerability, Testing and Assessment--this portfolio 
        includes our support to the Information Analysis and 
        Infrastructure Protection Directorate, including our critical 
        infrastructure protection and cybersecurity activities.
  --Standards
  --Emerging Threats
  --Rapid Prototyping
    We also have portfolios that support the operational units of the 
Department (Border and Transportation Security; Emergency Preparedness 
and Response, United States Coast Guard and United States Secret 
Service) in both their homeland security and conventional missions.
    Our University and Fellowship Programs portfolio addresses the need 
to build an enduring science and technology capability and support 
United States leadership in science and technology.
    Our most recent program, Counter-MANPADS, is seeking to improve 
technologies to protect commercial aircraft from the threat of MAN-
Portable Air Defense Systems (MANPADS).
    In addition, the Science and Technology Directorate is responsible 
for the management of one of the United States government's E-Gov 
Initiatives, the SAFECOM Program. There are tens of thousands of State 
and local public safety agencies, and 100 Federal law enforcement 
agencies that depend on interoperable wireless communications. The 
SAFECOM (Wireless Public SAFEty Interoperable COMmunications) program 
is the umbrella initiative to coordinate all Federal, State, local, and 
Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
Nation achieve true public safety wireless communications 
interoperability.
    At this time I would like to briefly describe some of our 
accomplishments to date and our fiscal year 2005 plans. As can be seen 
in the following chart, we have an overall fiscal year 2005 budget 
request of $1.039 billion, which is an increase of $126.5 million (13.9 
percent) over the fiscal year 2004 levels. The request includes $35 
million for construction of facilities. In addition, the increase 
includes President Bush's request for an additional $65 million to 
enhance and expand the BioWatch Program.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                     Increases/Decreases from
                                                    Fiscal year      Proposed        fiscal year 2004 to 2005
         Budget activity            Fiscal year      2004 less      fiscal year  -------------------------------
                                    2003 Amount     rescission      2005 Amount                       Percent
                                                      Amount                          Amount         increase
----------------------------------------------------------------------------------------------------------------
Budget Activity M&A.............            $0.0           $44.2           $52.6            $8.4            19.1
    Salary and expenses.........             0.0            44.2            52.6             8.4            19.1
Budget Activity R&D.............           553.5           868.7           986.7           118.0            13.6
    Bio Countermeasures (incl.             362.6           285.0           407.0           122.0            42.8
     NBACC).....................
    High-Explosives                          0.0             9.5             9.7             0.2             2.1
     Countermeasures............
    Chemical Countermeasures....             7.0            52.0            53.0             1.0             1.9
    R/N Countermeasures.........            75.0           126.3           129.3             3.0             2.4
    TVTA (incl. CIP & Cyber)....            36.1           100.1           101.9             1.8             1.8
    Standards...................            20.0            39.0            39.7             0.7             1.9
    Components..................             0.0            34.0            34.0             0.0             0.0
    University & Fellowship                  3.0            68.8            30.0           -38.8           -56.4
     Programs...................
    Emerging Threats............            16.8            21.0            21.0             0.0             0.0
    Rapid Prototyping...........            33.0            73.0            76.0             3.0             4.1
    Counter MANPADS.............             0.0            60.0            61.0             1.0             1.7
    R&D Consolidation                        0.0             0.0            24.1            24.1  ..............
     transferred funds..........
                                 -------------------------------------------------------------------------------
      Total enacted                        553.5           912.8          1039.3           126.5            13.9
       appropriations and budget
       estimates................
----------------------------------------------------------------------------------------------------------------

Biological Countermeasures
    Biological threats can take many forms and be distributed in many 
ways. Aerosolized anthrax, smallpox, foot and mouth disease, and bulk 
food contamination are among the threats that can have high 
consequences for humans and agriculture. Our Biological Countermeasures 
portfolio uses the Nation's science base to prevent, protect, respond 
to and recover from bioterrorism events. This portfolio provides the 
science and technology needed to reduce the probability and potential 
consequences of a biological attack on this Nation's civilian 
population, its infrastructure, and its agricultural system. Portfolio 
managers and scientists are developing and implementing an integrated 
systems approach with a wide range of activities, including 
vulnerability and risk analyses to identify the need for vaccines, 
therapeutics, and diagnostics; development and implementation of early 
detection and warning systems to characterize an attack and permit 
early prophylaxis and decontamination activities; and development of a 
national bioforensics analysis capability to support attribution of 
biological agent use.
    In fiscal year 2003 and 2004, the Biological Countermeasures 
portfolio:
    Deployed BioWatch to approximately 30 cities across the Nation. 
BioWatch consists of air samplers that detect the release of biothreat 
pathogens, such as anthrax, in a manner timely enough to allow for 
effective treatment of the exposed population. In addition, with 
additional funds provided by Congress in fiscal year 2004, we were able 
to integrate environmental monitoring data with biosurveillance to 
provide early attack alerts and assessments. The environmental 
monitoring activities include not only BioWatch, which provides 
continuous monitoring of most of our major metropolitan areas, but also 
targeted monitoring that is temporarily deployed for special national 
needs, such as a Homeland Security Elevated Threat Level. While serving 
the primary function of mitigating attacks, both BioWatch and 
environmental monitoring systems also play a significant deterrent 
role, since terrorists are less likely to attack when they know that 
defensive systems prevent them from attaining their goals.
    Established the National Biodefense Analysis and Countermeasures 
Center, which provides scientific support for intelligence activities, 
prioritizes biothreats, and conducts bioforensic analyses for 
attribution and hence deterrence.
    In fiscal year 2005, we will build upon our past work and continue 
to deploy and improve wide area monitoring systems for urban areas. 
Under President Bush's new Biosurveillance Initiative, which accounts 
for most of the fiscal year 2005 increase in funding, additional 
capability will be implemented quickly in the top threat urban areas to 
more than twice the current capability. We will be working on 
decontamination technologies and standards for facilities and outdoor 
areas, and a National Academy of Science study characterizing 
contamination risks will be completed in fiscal year 2005. At a smaller 
scale, we will define requirements for expanded technology in detect-
to-warn scenarios relevant to facilities monitoring. At the same time, 
we will be building our capabilities in the National Biodefense 
Analysis and Counterterrorism Center (NBACC) and at Plum Island Animal 
Disease Center (PIADC). At the NBACC, we are focusing first on 
bioforensics and development of a biodefense knowledge center; for 
agro-bioterrorism, we are prioritizing countermeasures to foreign 
animal diseases. We are requesting additional funding in fiscal year 
2005 for Plum Island to improve the facilities and security of this 
important research and development site.
Chemical Countermeasures
    The National Research Council Report Making the Nation Safer points 
out that ``chemicals continue to be the weapon of choice for terrorist 
attacks.'' The large volumes of toxic industrial chemicals and 
materials along with the potential for chemical warfare agents and 
emerging threat agents constitute a broad range of threats that may be 
applied to virtually any civilian target.
    Our Chemical Countermeasures portfolio provides the science and 
technology needed to reduce the probability and potential consequences 
of a chemical attack on this Nation's civilian population. The 
portfolio places high priority on characterizing and reducing the 
vulnerability posed by the large volumes of toxic industrial materials 
in use, storage or transport within the Nation. The research and 
development activities include prioritization of efforts among the many 
possible chemical threats and targets, and development of new detection 
and forensic technologies and integrated protective systems for high-
value facilities such as airports and subways. These activities are 
informed by end-user input and simulated exercises.
    Over the past year, our Chemical portfolio completed Project 
PROTECT--Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism--a program conducted in collaboration 
with the Washington Metropolitan Area Transit Authority (WMATA). 
PROTECT, an operational chemical agent detection and response 
capability, significantly decreases response time, which in the event 
of an attack will save human lives. PROTECT is deployed in Metro 
stations and is operated by the WMATA.
    In fiscal year 2005, our focus will be on protecting facilities 
from chemical attacks and controlling the industrial chemicals that may 
be used for such attacks. Our scientists, working with the Information 
Analysis and Infrastructure Protection Directorate (IAIP), will 
complete a detailed end-to-end study of three reference scenarios, to 
culminate in recommendations for top-level architectures, 
identification of key gaps, and a ``report card'' showing present, mid-
term (3-year), and long-term (5-plus year) capabilities. We will 
qualify candidate off-the-shelf sensors for demonstration in an 
application to facilities protection. We will also address response and 
recovery. Working with the user community, we will develop first-
generation playbooks for responding to the three reference scenarios 
and develop technical requirements for personal protection equipment.
High Explosives Countermeasures
    The High Explosives Countermeasures portfolio addresses the threat 
that terrorists will use explosives in attacks on buildings, critical 
infrastructure, and the civilian population of the United States. The 
Science and Technology Directorate's portfolio is closely coordinated 
with the activities ongoing in the Transportation Security 
Administration to ensure that research and development (R&D) activities 
are complementary, not duplicative. R&D priorities in this portfolio 
have focused on the detection of vehicle bombs and suicide bombers, and 
on providing the science and technology needed to significantly 
increase the probability of preventing an explosives attack on 
buildings, infrastructure and people.
    This portfolio in fiscal year 2005 will develop and field 
equipment, technologies and procedures to interdict suicide bombers and 
car and truck bombs before they can reach their intended targets while 
minimizing the impact on the American way of life. We will complete 
testing and evaluation of known procedures and commercial off-the-shelf 
devices applicable to indoor or outdoor interdiction of suicide 
bombers, and develop a training package for local law enforcement, 
including recommended equipment and procedures. In addition, we will 
support the development of new devices to interdict suicide bombers and 
study the feasibility of using existing detectors to identify 
explosives in trucks. Finally, we will analyze the costs and benefits 
of hardening aircraft cargo containers, cargo bays, and overhead bin 
storage compartments to better withstand the effects of an explosion.
Radiological and Nuclear Countermeasures
    Potential radiological and nuclear threats range from the 
deliberate dispersal of small amounts of radioactive material to the 
detonation of an improvised or stolen nuclear weapon to an attack on 
our nuclear power industry. Our Radiological and Nuclear 
Countermeasures portfolio provides the science and technology needed to 
reduce both the probability and the potential consequences of a 
radiological or nuclear attack on this Nation's civilian population or 
our nuclear power facilities.
    On August 19, 2003, our Radiological and Nuclear Countermeasures 
portfolio formally assumed management of the Port Authority of New York 
and New Jersey radiation detection test bed. The test bed was 
previously managed by the United States Department of Energy. Following 
the transfer, we have broadened the project scope beyond testing and 
evaluating individual pieces of technology to a systems approach, 
including response protocols and operational concepts. As part of the 
Science and Technology Directorate's effort, radiation detection 
sensors will be deployed and operated by Federal, State, and local 
inspectors and police at land, maritime and aviation venues. By judging 
the efficacy of deployed systems over time, we will be able to inform 
future decisions on detection technology R&D investment, deployment of 
urban monitoring systems, configurations best able to enhance security, 
and viable ways to defend against a radioactive dispersal device or an 
improvised nuclear device.
    For fiscal year 2005, we plan to leverage our previous technology 
and capability successes and place a high priority on providing the 
end-user community with the most appropriate and effective detection 
and interdiction technologies available to prohibit the importation or 
transportation and subsequent detonation of a radiological or nuclear 
device within U.S. borders. Specifically, we will do the following:
  --Integrate at least five Federal, State, and local sites into an 
        operational detection system architecture to detect 
        radiological and nuclear threats;
  --Establish a test and evaluation capability, and test and evaluate 
        90 percent of the fiscal year 2005 prototype technologies 
        developed in the portfolio's programs;
  --Demonstrate two advanced characterization technologies for crisis 
        response; and
  --Demonstrate a prototype for automatic radiological imaging analysis 
        that enhances current imaging systems at one pilot site.
Threat and Vulnerability, Testing and Assessment
    Our Threat and Vulnerability, Testing and Assessment (TVTA) 
portfolio is one of our largest portfolios, and includes our scientific 
and technical support to the Information Analysis and Infrastructure 
Protection (IAIP) Directorate. TVTA includes our R&D activities in 
Critical Infrastructure Protection and Cybersecurity. Activities in 
this portfolio are designed to help evaluate extensive amounts of 
diverse threat information; detect and document terrorist intent; 
couple threat information with knowledge of complex, interdependent 
critical infrastructure vulnerabilities; and enable analysts to draw 
timely insights and distribute warnings from the information. This 
portfolio provides the science and technology needed to develop methods 
and tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange; this 
portfolio also includes a Biometrics Program and a Cybersecurity 
Program.
    In fiscal year 2004, TVTA:
  --Developed and installed an operational component, the Threat-
        Vulnerability Mapper (TVM), as part of the Threat and 
        Vulnerability Integration System for the Information Analysis 
        and Infrastructure Protection Directorate. The TVM provides 
        counterterrorism analysts with a simple, straightforward way 
        not only to depict the geographic distribution of threats 
        across the United States, but also to search the underlying 
        databases for information on the possible actors, agents, 
        potential severity of attacks, and extent of the 
        vulnerabilities to and effects of such attacks.
  --Co-funded the Cyber Defense Technology Experimental Research 
        (``DETER'') Network with the National Science Foundation, a 
        $5.45 million, 3-year research project to create an 
        experimental infrastructure network to support development and 
        demonstration of next-generation information security 
        technologies for cyber defense. This is a multi-university 
        project led by the University of California at Berkeley.
  --Developed a Decision Support System focused on prioritizing 
        investment, protection, mitigation, response, and recovery 
        strategies related to Critical Infrastructure Protection. The 
        initial proof-of-concept began in August 2003 and a case study 
        is being conducted in February 2004. The prototype model will 
        include representation of all 14 critical infrastructure 
        sectors/assets and their interdependencies.
  --Developed advanced algorithms for speeding the creation of DNA 
        signatures for biological pathogen detection through the 
        Advanced Scientific Computing Research and Development program. 
        These discoveries will result in cheaper, faster and more 
        reliable bio-detectors for homeland security.
    In fiscal year 2005, TVTA will provide the science and technology 
capabilities and enduring partnerships needed to develop methods and 
tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange. The Threat-
Vulnerability Mapper is only one component of a large Threat and 
Vulnerability Information System that we will continue to build, 
drawing upon advances in the information and computer sciences as well 
as innovative analytic techniques. Our objective is to continually 
improve an analyst's capability to answer threat-related questions. The 
Science and Technology Directorate will contribute to the capability to 
produce high-quality net assessments and assessments of weapons of mass 
destruction.
    We will develop advanced computing algorithms in support of 
improved aerosol dispersion models, blast effects calculations, neutron 
interrogation models, bioinformatics, and scalable information 
extraction; improved algorithms make more accurate information 
available faster. We will continue to provide, in collaboration with 
other relevant organizations, the science and technology and associated 
standards needed in the development of biometrics for precise 
identification of individuals and develop instrumentation to aid 
authorized officials in detecting individuals with potentially hostile 
intent. In the cybersecurity area, the DETER Network testbed will be up 
and running, and we will competitively fund several low-cost, high-
impact solutions to specific cybersecurity problems.
Standards
    Ensuring that standards are created and adopted is critically 
important for homeland security. We need consistent and verifiable 
measures of effectiveness in terms of basic functionality, 
appropriateness and adequacy for the task, interoperability, 
efficiency, and sustainability. Standards will improve the quality and 
usefulness of homeland security systems and technologies. Our Standards 
portfolio cuts across all aspects of the Science and Technology 
Directorate's mission and all threats to improve effectiveness, 
efficiency, and interoperability of the systems and technologies 
developed, as envisioned in the Homeland Security Act.
    Our Standards portfolio continues to actively engage the Federal, 
State, and local first responders to ensure that developed standards 
are effective in detection, prevention, response, management, and 
attribution. This portfolio also conducts the essential activities in 
order to meet the requirement of the SAFETY (Support Anti-Terrorism by 
Fostering Effective Technologies) Act in developing certification 
standards for technologies related to homeland security.
    In fiscal year 2004, our Standards portfolio:
  --Created initial standards guidelines, with formal standards nearing 
        completion, for radiation pagers, hand-held radiation dosimetry 
        instruments, radioisotope identifiers and radiation portal 
        monitors. These standards were developed under the auspices of 
        the American National Standards Institute's Accredited American 
        Standards Committee on Radiation Instrumentation.
  --Published guidelines for interoperable communications gear. Common 
        grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --Launched the SAFETY Act process for evaluating anti-terrorism 
        technologies for potential liability limits.
    In fiscal year 2005, the Standards portfolio will continue to work 
on many fronts and with many partners to establish needed standards for 
technologies (including equipment), processes, and systems. We will 
especially focus on two major milestones. First, we will establish 
technical standards and test and evaluation protocols for 
decontamination technologies and analysis across the ranges of weapons 
of mass destruction. Second, we will publish a ``Consumer's Report'' on 
radiation and bioagent detection devices for Federal, State, and local 
users.
Emerging Threats
    It is truly the threats we do not yet know that are often the most 
terrifying. Our Emerging Threats portfolio addresses the dynamic nature 
of terrorist threats, as science and technology advancements enable new 
agents of harm and new ways to employ them. This portfolio places high 
priority on developing the capability to use innovative, crosscutting, 
out-of-the-box approaches for anticipating and responding to new and 
emerging threats. Successful identification of emerging threats will 
permit capabilities to be developed to thwart these emerging threats 
before they are used.
    Relevant R&D is underway at other agencies and organizations; thus, 
partnerships in this area hold great potential for synergistic focus on 
homeland security. Work is being done and will continue to be pursued 
in partnership with the Departments of Energy, Defense, Justice, and 
Agriculture, the intelligence community, and the National Institutes of 
Health.
    In fiscal year 2003 and 2004, our scientists in the Emerging 
Threats portfolio established informal partnerships with the 
intelligence community and with the United States Secret Service in 
order to leverage ongoing activities in support of over-the-horizon 
assessment.
    In fiscal year 2005, we will leverage the activities started during 
fiscal year 2004, and continue to focus on developing the capability to 
use innovative, crosscutting, out-of-the-box approaches for 
anticipating and responding to new and emerging threats and to develop 
revolutionary technologies to combat them.
Rapid Prototyping
    By accelerating the time needed to develop and commercialize 
relevant technologies, the Science and Technology Directorate will 
ensure that operational end-users will be better able to prevent 
terrorist attacks, reduce the Nation's vulnerability, and minimize the 
damage and assist in recovery if attacks occur. Our Rapid Prototyping 
portfolio advances the Directorate's mission to conduct, stimulate and 
enable research, development, test, evaluation and timely transition of 
homeland security capabilities to Federal, State and local operational 
end-users.
    In fiscal year 2003 and fiscal year 2004, the Rapid Prototyping 
portfolio provided funding of $30 million each year through our 
Homeland Security Advanced Research Projects Agency (HSARPA) to the 
interagency Technical Support Working Group (TSWG) to solicit ideas, 
concepts and technologies for 50 requirement areas of interest to both 
the Department and TWSG; initial contracts have been made and HSARPA 
will provide the programmatic monitoring of those efforts for the 
Science and Technology Directorate. This portfolio also provided 
support through HSARPA for a joint port and coastal surveillance 
prototype testbed designated ``HAWKEYE'' with the United States Coast 
Guard. Funding has been made available to support the creation of a 
Technology Clearinghouse as required in the Homeland Security Act of 
2002.
    In fiscal year 2005, this program will continue to provide a 
mechanism for accelerated development of technologies relevant to 
homeland security in a process driven by technology developers. Through 
rapid prototyping and commercialization, these technologies will be 
made available to operational end-users as quickly as possible, thus 
increasing their capability to secure the homeland.
Support to Department of Homeland Security Components
    As I have mentioned, the operational components of the Department 
are my customers. The Department of Homeland Security's Science and 
Technology Directorate supports the missions of the Information 
Analysis and Infrastructure Protection (IAIP) Directorate, Border and 
Transportation Security (BTS), Emergency Preparedness and Response 
(EP&R), United States Coast Guard (USCG), and United States Secret 
Service (USSS). Our TVTA portfolio supports the mission of the IAIP 
Directorate as previously indicated. This portfolio places high 
priorities on high-risk, high-reward research and development relevant 
to homeland security that might not otherwise be conducted in support 
of the missions of BTS, EP&R, USCG, and the USSS.
    In fiscal year 2003 and fiscal year 2004, we continued to support 
the conventional missions of these operational components. Ongoing 
activities within BTS, USCG and USSS focus on preventing terrorists and 
terrorist weapons (particularly weapons of mass destruction) from 
entering the United States, on detecting and preventing cyber attacks, 
supporting maritime transportation, safety and economy (Port and 
Channel navigation, Search and Rescue, and Aquatic Nuisance Species 
Remediation), and on preventing attacks on United States Secret Service 
protectees and high-visibility venues.
Support to Border and Transportation Security
    The Science and Technology Directorate supports all elements of BTS 
enforcement and facilitation processes through identifying operational 
requirements, developing mission capabilities-based technological needs 
and implementing a strategic plan. We are providing systems engineering 
support to various BTS programs including US VISIT and Unmanned Aerial 
Vehicles.
    The Science and Technology Directorate's support to the BTS 
Directorate is accomplished by implementing a capabilities-based 
technology planning process. The capabilities-based approach 
establishes the scope of effort and framework for a technology plan. 
Through a series of user conferences and technology opportunity 
conferences, requirements are developed and prioritized for new and 
improved capabilities. Operational personnel identify capabilities and 
technology personnel identify potential development opportunities. 
Capability gaps and possible technology solutions are proposed, and a 
budget is developed to distinguish between both funded and unfunded 
needs.
    The Science & Technology Directorate co-chairs with BTS, the 
Department's Unmanned Aerial Vehicle (UAV) Working Group, which is 
currently focused on developing the Border and Transportation Security 
operational requirements for UAVs and related technologies, e.g., 
aerostats, blimps, lighter than air (LTA) ships, and fixed and mobile 
towers. The starting point for the requirements generation process is 
six BTS capability objectives we have identified that could benefit by 
the utilization of UAVs: surveillance and monitoring communications, 
apprehension, targeting, intelligence, deterrence, and officer safety. 
Functional capabilities that could be filled or improved through the 
application of UAVs and other technologies have been identified. Based 
on these high-level requirements, the Science and Technology 
Directorate is developing concepts of operations and assumptions that 
will be used in conducting an Analysis of Alternatives that will 
include UAVs and other technologies.
    In fiscal year 2005 we will be involved in a wide range of 
activities supporting the components, based upon their needs. For BTS, 
we will focus on discovering and implementing technologies that include 
improved screening and inspection, access control, document 
verification and validity, and data compression and analysis.
Support to Emergency Preparedness and Response
    The Nation has more than 750 regionally accredited community 
colleges. Community colleges train more than 80 percent of our 
country's first responders; these first responders are critical for 
homeland security. The Science and Technology Directorate has a 
responsibility to ensure that these first responders have the necessary 
tools available to them to perform their jobs effectively and safely on 
a daily basis. This portfolio has a key role in our meeting that 
responsibility.
    The scope of our EP&R portfolio includes research, development, 
test and evaluation for State, local and Federal emergency responders 
and emergency managers. Particular emphasis is placed on technology 
integration at all levels of government, technology insertion for 
weapons of mass destruction detection and monitoring systems, and long- 
term sustained performance and interoperability to enhance State and 
local preparedness.
    Our work in the EP&R portfolio focuses on three major areas:
  --Technology development for first responders
  --Scientific and technical support to Federal response
  --Technology integration--Safe Cities
    The Safe Cities Program, a new initiative in fiscal year 2004, is 
focused on implementing technology and operational system solutions in 
local communities/regions. This program is being piloted in a select 
number of cities in fiscal year 2004 and will be conducted in close 
cooperation with State and local emergency managers and city planners 
to identify capability needs and gaps that advanced technologies being 
developed by the Science and Technology Directorate can meet. The Safe 
Cities Program seeks to provide technology and operational solutions 
that are sustainable by the communities in which they are implemented. 
The Safe Cities Program will enable us to better understand the 
operational context into which new technologies will be inserted. The 
Program will result in the creation of an infrastructure that 
facilitates the evaluation of new technologies in real-world operating 
environments as well as providing a venue for integrating these 
technologies with existing State and local systems.
    In fiscal year 2005 the EP&R portfolio will continue its focus on 
technology development and technical guidance for first responders 
(State and local), scientific and technical support to the EP&R 
Directorate; and expansion of technology integration--Safe Cities.
Support to United States Coast Guard
    The Science & Technology Directorate is integrating a major 
research program into a United States Coast Guard operational testbed 
in south Florida. The HAWKEYE program injects technologies (such as 
Surveillance, Command & Control, Sensor Fusion, and Communications) 
allowing simultaneous evaluation of technology performance as a direct 
impact on mission execution.
Support to the United States Secret Service
    We have coordinated with the United States Secret Service and 
established its first direct-funded R&D program. Based upon 
appropriated funding, four initiatives have been identified and 
prioritized, and are underway in fiscal year 2004. In addition, there 
will be joint activities in support of the assessment of emerging 
threats.
Homeland Security University and Fellowship Programs
    In this portfolio we seek to develop a broad research capability 
within the Nation's universities to address scientific and 
technological issues related to homeland security. The portfolio places 
high priorities on developing academic programs and supporting students 
in order to build learning and research environments in key areas of 
Departmental interest.
    In fiscal year 2004, this portfolio established the Department of 
Homeland Security's first University-based Center of Excellence, for 
Risk and Economic Analysis of Terrorism Events. The Center, based at 
the University of Southern California, will assess the level of risk 
associated with various terrorist scenarios, in particular the 
potential economic consequences. A request for proposals has been 
issued for the next two Centers of Excellence, which will focus on 
Foreign Animal and Zoonotic Disease Defense and Post-Harvest Food 
Protection and Defense.
    Last fall, we awarded our 2003-2004 academic year DHS Scholarships 
and Fellowships, and welcomed our new Scholars and Fellows with a 
reception in Washington, DC. The solicitation for this program received 
just under 2,500 applications for 100 Scholarships and Fellowships. 
Besides making immediate contributions to homeland security-related 
R&D, these students will be part of the development of a broad research 
capability within the Nation's universities to address scientific and 
technological issues related to homeland security.
    During fiscal year 2005, another 100 Scholars and Fellows will be 
supported for the academic year of 2004-2005, bringing the total of 
supported students to 200. We will also continue to support the 
Homeland Security University Centers of Excellence established in 
fiscal year 2004, each with a different subject expertise focused on 
reducing the terrorist threat on the United States. Each Center of 
Excellence is awarded an initial 3-year contract whose annual cost we 
account for in our planning.
Counter-MANPADS
    The Counter-MANPADS program is focused on identifying, developing, 
and testing a cost-effective capability to protect the Nation's 
commercial aircraft against the threat of man-portable, anti-aircraft 
missiles. This program also provides the science and technology base 
needed to reduce the vulnerability of commercial aircraft to terrorist 
attack using man-portable anti-aircraft missiles.
    Over the past year, we have had a successful solicitation 
announcing a program to address the potential threat of MANPADS to 
commercial aircraft. White papers responding to the Counter-MANPADS 
program solicitation were reviewed by technical experts from the 
Department of Homeland Security, Department of Defense, and other 
government agencies; proposals were evaluated; and awards were made to 
three contractor teams to perform the first of two program phases, 
which began in January, 2004. The first phase will result in a 
preliminary design and a test plan to demonstrate missile 
countermeasure equipment on selected commercial aircraft.
    The second program phase is an 18-month effort beginning in August 
2004, with the one or two contractors that produced the most promising 
results in Phase One. During this phase, the commercial prototype 
countermeasure equipment will be integrated on selected commercial 
aircraft, and live-fire range tests will be accomplished with extensive 
data collection and analysis. Results of this second phase will be 
presented to the Administration and Congress to aid in formulating an 
informed decision on how best to address the protection of commercial 
airlines from the MANPADS threat.
SAFECOM
    The SAFECOM (Wireless Public SAFEty Interoperable COMmunications) 
program is the umbrella initiative to coordinate all Federal, State, 
local, and Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
Nation achieve true public safety wireless communications 
interoperability.
    Since the Science and Technology Directorate formally assumed 
responsibility for the management of the SAFECOM program barely 7 
months ago:
  --SAFECOM has been established as the one umbrella group in the 
        Federal Government for the management of public safety wireless 
        interoperability programs;
  --Common grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --A Federal coordinating structure has, for the first time, been 
        created to coordinate all Federal public safety wireless 
        interoperability programs;
  --The first catalog of national programs touching on public safety 
        wireless interoperability has been developed and published; and
  --The ten major State and local organizations concerned with public 
        safety wireless interoperability--the Association of Public-
        Safety Communications Officials (APCO), International 
        Association of Fire Chiefs (IAFC), International Association of 
        Chiefs of Police (IACP), Major Cities Chiefs Association (MCC), 
        National Sheriffs' Association (NSA), Major County Sheriffs' 
        Association (MCSA), National Association of Counties (NACO), 
        National League of Cities (NLC), National Public Safety 
        Telecommunications Council (NPSTC), and the United States 
        Conference of Mayors (USCM)--released a statement in support of 
        the SAFECOM program which declared that ``With the advent of 
        the SAFECOM Program . . . Public safety, State and local 
        government finally have both a voice in public safety 
        discussions at the Federal level and confidence that the 
        Federal Government is coordinating its resources.''

                             PRIORITIZATION
    The Science and Technology Directorate has prioritized its research 
and development efforts based on the directives, recommendations and 
suggestions from many sources, including:
  --Homeland Security Act of 2002;
  --The fiscal year 2004 Congressional Appropriations for the 
        Department of Homeland Security;
  --President Bush's National Strategy for Homeland Security, the 
        National Strategy for the Physical Protection of Critical 
        Infrastructure and Key Assets, the National Strategy to Combat 
        Weapons of Mass Destruction, the National Strategy to Secure 
        Cyberspace, and the National Security Strategy;
  --President Bush's nine Homeland Security Presidential Directives;
  --Office of Management and Budget's 2003 Report on Combating 
        Terrorism;
  --Current threat assessments as understood by the Intelligence 
        Community;
  --Requirements identified by other Department components;
  --Expert understanding of enemy capabilities that exist today or that 
        can be expected to appear in the future; and
  --The report from the National Academy of Science on ``Making the 
        Nation Safer: The Role of Science and Technology in Countering 
        Terrorism,'' and the reports from the Gilmore, Bremer and Hart-
        Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development needed to meet our mission 
requirements.

 DIVISION OF EFFORT AMONG THE DHS S&T DIRECTORATE AND RESEARCH EFFORTS 
                      AT OTHER GOVERNMENT AGENCIES
    One of the accomplishments of which I am personally most proud is 
the emphasis our new Directorate has put on interacting with other 
Federal departments and agencies. Knowledge of other science and 
technology programs and their results, appropriate collaboration 
between agencies, coordination of relevant programmatic activities, and 
information sharing are essential for us to best meet our mission 
requirements. Science and Technology Directorate cybersecurity 
personnel and those at the National Science Foundation and the National 
Institute of Standards and Technology have already established 
collaborative and coordinated programs to ensure no duplication of 
effort. Our biological and chemical countermeasures staff have 
partnered with the Department of Defense's (DOD's) Defense Threat 
Reduction Agency (DTRA) to plan and execute the BioNet program and 
roadmap the biological countermeasures R&D programs in both agencies to 
understand capabilities and shortfalls. They work with the National 
Science Foundation on pathogen sequencing. The BioWatch program, 
although led by the Science and Technology Directorate, was 
accomplished through collaboration with personnel from the Department 
of Energy's National Laboratories, contractors, the Environmental 
Protection Agency, and the Centers for Disease Control and Prevention. 
We work with DOD's Office of Homeland Defense to ensure the effective 
transfer to the Department of relevant DOD technologies.
    Our high explosives scientists are working with the interagency 
Technical Support Working Group, managed by the Department of State, to 
evaluate commercial off-the-shelf systems with capabilities against 
suicide bombers. The Director of the Homeland Security Advanced 
Research Projects Agency is a member of the TSWG Executive Committee. 
Our staff are in frequent contact with the Office of Science and 
Technology Policy on a range of issues, and several are members and co-
chairs of the Office of Science and Technology Policy's National 
Science and Technology Council. Our Office of Research and Development 
works closely with the Department of Agriculture to ensure that the 
Plum Island Animal Disease Center facility is operating smoothly and 
fully meeting its mission. The Office of Research and Development also 
interfaces with the Department of Energy to keep the Office of Science, 
as well as the National Nuclear Security Administration, apprised of 
our long-term homeland security requirements.
    The Department of Homeland Security, Science and Technology 
Directorate recognizes that many organizations are contributing to the 
science and technology base needed to enhance the Nation's capabilities 
to thwart terrorist acts and to fully support the conventional missions 
of the operational components of the Department. Congress recognized 
the importance of the research and development being conducted by 
numerous Federal departments and agencies, and, in the Homeland 
Security Act of 2002, directed the Under Secretary of Science and 
Technology to coordinate the Federal Government's civilian efforts to 
identify and develop countermeasures to current and emerging threats.
    We take this responsibility very seriously.
    We are now initiating the effort needed to coordinate homeland 
security research and development across the entire United States 
Government. It will come as no surprise to the members of this 
Subcommittee that good, solid, effective research and development 
relevant to homeland security is being conducted by the Departments of 
Agriculture, Commerce, Defense, Energy, Justice, Health and Human 
Services, State, and Veteran's Affairs; within the National Science 
Foundation, the Environmental Protection Agency and other Federal 
agencies; and by members of the Intelligence Community.
    Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with Federal departments and Agencies, as well as with the 
Office of Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council. These discussions ensure 
that the strongest possible links are made and the best possible 
coordination occurs between our Department and those who are conducting 
sector-specific research. By the autumn of 2004, all Department of 
Homeland Security research and development programs will be 
consolidated and all United States Government research and development 
relevant to fulfilling the Department's mission will have been 
identified and coordinated as appropriate. It is important to note that 
this identification and relevant coordination does not imply the 
Department of Homeland Security should have the responsibility and 
authority for these programs within other Federal agencies; it does 
recognize that science and technology advances can have many 
applications, including homeland security.

                    OUTSIDE INPUTS TO THE S&T BUDGET
    The Science and Technology Directorate's budget is built to meet 
the Department's and our mission requirements. As previously discussed, 
we identify and prioritize our efforts using multiple national sources 
and the sharing of information relevant to homeland security among 
government organizations. Our Homeland Security Science and Technology 
Advisory Committee will hold its first meeting February 26-27, 2004, 
and this group will also provide input to the scope, priority and level 
of effort needed to meet our objectives.
      metrics developed by the science and technology directorate
    The success of the Science and Technology Directorate depends on 
its ability to identify, develop and transition capabilities to end-
users that enhance the Nation's ability to protect itself. Appropriate 
goals and performance measures must be identified and used to measure 
our progress. The following table identifies the programmatic metrics 
developed by the Science and Technology Directorate's portfolio 
managers; these metrics will be used to measure our performance.
ST0001 Biological Countermeasures
    Long term performance goal.--The United States will have a high-
performance and well-integrated biological threat agent warning and 
characterization system that will include sustainable environmental 
monitoring capability for metropolitan areas; a national special 
security event system for the Nation at large; and identification of 
needs for vaccines and therapeutics for people and animals. Longer term 
research will support the development of biological threat warning and 
characterization systems that address both current and future threats.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Capability to detect and assess biological  FAR=10EE-4, Multiplex 10
 threats, measured by a set of attributes:   assays
 increase sensitivity by decreasing false
 alarm rate (FAR), and increase multiplex
 samples.
Fiscal year 2005 milestones:                Milestones will be achieved
 Decontamination technologies and
 standards for facilities and outdoor
 areas. National Academy of Science study
 characterizes contamination risks.
Fiscal year 2005 milestones: Establishment  Milestones will be achieved
 of a national capability in biodefense
 analysis and agro-bioterrorism
 countermeasures. Research operations
 begin; phased construction continues.
 BioForensics Analysis Center Hub
 operational.
Improved capabilities to detect threats in  Milestone will be achieved
 urban areas (Urban Monitoring Program),
 measured by increased sampling coverage
 and frequency, and capability to detect
 additional threats. Fiscal year 2005
 milestone: increase coverage in top
 threat cities.
Integrated field demonstrations of next-    2 Demos operational
 generation solutions (Domestic
 Demonstrations and Applications Program).
Validated human and agricultural bioassays  10
------------------------------------------------------------------------

ST0002 Chemical Countermeasures
    Long term performance goal.--Develop and deploy a broad capability 
to prevent and rapidly mitigate the consequences of chemical attacks.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Fiscal year 2005 milestone: Development of  Milestone will be achieved
 protocols for the highest priority toxic
 industrial chemicals (TICs) and toxic
 industrial materials (TIMs).
------------------------------------------------------------------------

ST0003 Chemical High Explosives
    Long term performance goal.--The Chemical High Explosives portfolio 
will improve explosives detection equipment and procedures for all 
forms of transportation as well as fixed facilities.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Fiscal year 2005 milestone: Pilot tests of  Milestone will be achieved
 standoff detection technologies.
------------------------------------------------------------------------

ST0004 Radiological & Nuclear Countermeasures
    Long term performance goal.--By fiscal year 2009, an effective 
suite of countermeasures against radiological and nuclear threats will 
be developed with capabilities in detection, intelligence analysis, 
response, and preparedness.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Federal, State and local sites that are     5
 integrated into an operational secondary
 reachback architecture to resolve
 radiological and nuclear alarms.
Performance measures associated with Test   Milestone will be achieved
 and Evaluation (T and E) of developmental
 prototypes of Radiation Detectors.
 Establish a long-range plan for T and E
 capability.
Progression on planned capability           Milestone will be achieved
 development for Nuclear Incident
 Management and Recovery. Demonstrate 2
 advanced detection technologies.
Progression on pre-planned product          Milestone will be achieved
 improvement of deployed technologies.
 Perform critical design reviews for Phase
 One technology improvements for projects
 awarded in fiscal year 2004.
------------------------------------------------------------------------

ST0005 Threat and Vulnerability, Testing & Assessments
    Long term performance goal.--Provide measurable advancements in 
information assurance, threat detection and discovery, linkages of 
threats to vulnerabilities, and capability assessments and information 
analysis required by Departmental missions to anticipate, detect, 
deter, avoid, mitigate and respond to threats to our homeland security.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Improvement in the national capability to   Improvement in 7 categories
 assess threats and vulnerabilities to
 terrorist attacks: 10 categories to be
 assessed.
------------------------------------------------------------------------

ST0006 Standards
    Long term performance goal.--Establish an integrated infrastructure 
for determining and developing standards, and test and evaluation 
protocols for technology used for detecting, mitigating, and recovering 
from terrorist attacks and also to support other Departmental 
components' technologies. Provide consistent and verifiable measures of 
effectiveness of homeland security-related technologies, operators, and 
systems in terms of basic functionality, interoperability, efficiency, 
and sustainability. Facilitate the development of guidelines in 
conjunction with both users and developers.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Long-term implementation of SAFETY Act....  Certifications
Fiscal year 2005 milestones: Technical      Milestones will be achieved
 standards and test/evaluation protocols
 will be established for WMD
 decontamination technologies and analysis
 tools. ``Consumer's report'' on radiation
 and bioagent detection devices for
 Federal, State, and local users will be
 published.
------------------------------------------------------------------------

ST0008 Homeland Security Fellowship Programs/University Programs
    Long term performance goal.--Significantly increase the number of 
U.S. students in fields relevant to homeland security including the 
physical life and social sciences; and engineering.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
To increase the nation's science and        200 students 3 centers
 technology workforce and research
 capability on issues related to homeland
 security. Fiscal year 2005: students
 supported/Centers of Excellence
 established.
------------------------------------------------------------------------

ST0009 Emerging Threats
    Long term performance goal.--To develop effective capabilities to 
characterize, assess, and counter new and emerging threats, and to 
exploit technology development opportunities as they arise.

------------------------------------------------------------------------
           Performance measures                Fiscal year 2005 target
------------------------------------------------------------------------
Improved capability to prevent terrorist    Baseline
 attacks through annual emerging threat
 assessment report (percent of responding
 recipients indicating the report is
 valuable).
------------------------------------------------------------------------

ST0010 Rapid Prototyping
    Long term performance goal.--Support the development of innovative 
solutions to enhance homeland security and work with Federal, State, 
and local governments; and the private sector to implement these 
solutions. In partnership with the Technical Support Working Group 
(TSWG), operate an effective and efficient clearinghouse that will 
develop, prototype, and commercialize innovative technologies to 
support the homeland security mission.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Technologies prototyped or commercialized...............               3
------------------------------------------------------------------------

ST0011 SAFECOM
    Long term performance goal.--Provide public safety agencies with 
central coordination, leadership and guidance to help them achieve 
short-term interoperability and long-term compatibility of their radio 
networks across jurisdictions and disciplines.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Increased interoperability across local, tribal, State,                3
 and Federal public safety jurisdictions and
 disciplines. Fiscal year 2005: Based on fiscal year
 2004 baseline, improvements in 3 categories............
------------------------------------------------------------------------

ST0012 Counter Man-Portable Air Defense System (MANPADS)
    Long term performance goal.--The Nation will have effective 
capabilities to defeat the threat to commercial aircraft of man-
portable anti-aircraft missiles.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Effective technology/technologies for commercial                       2
 aircraft to defeat man-portable anti-aircraft missiles
 identified. Fiscal year 2005: Technologies identified,
 and prototypes developed and tested....................
------------------------------------------------------------------------

ST007 Support to Department of Homeland Security Components
    Long term performance goal.--Increase the capabilities of mission-
focused operational components (BTS, EP&R, Coast Guard, and Secret 
Service) to secure the homeland and enhance their ability to conduct 
their missions.

------------------------------------------------------------------------
                                                            Fiscal year
                  Performance measures                      2005 target
------------------------------------------------------------------------
Improved capability of DHS Components to secure the             Baseline
 homeland as measured by assessment of customer
 organizations in accomplishing agreed-upon areas of
 assistance.............................................
------------------------------------------------------------------------

                   SHORT-TERM AND LONG-TERM RESEARCH
    In the 11 months that this Department has been in existence, the 
Science and Technology Directorate has focused its initial efforts on 
near-term development and deployment of technologies to improve our 
nation's ability to detect and respond to potential terrorist acts. 
However, we recognize that a sustained effort to continually add to our 
knowledge base and our resource base is necessary for future 
developments. Thus, we have invested a portion of our resources, 
including our university programs, toward these objectives. The 
following table indicates our expenditures in basic research, applied 
research, and development to date, excluding construction funding.

             SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                           Fiscal year                              Fiscal year        2004            2005
                                                                      (actual       (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................              47             117              80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................             504             781             952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis.
    We expect to gradually increase our total percentage of basic and 
applied research to the level needed for sustaining our role as a 
research, development, testing and evaluation (RDT&E) organization.
 rationale for budget increases: biowatch and the national biodefense 
                  analysis and countermeasures center
    President Bush's fiscal year 2005 budget request includes a $274 
million Bio-Surveillance Program Initiative to protect the Nation 
against bioterrorism and to strengthen the public health 
infrastructure. Included in this request is an increase of $65 million 
for the Science and Technology Directorate to enhance current 
environmental monitoring activities. This requested increase is a 
direct outgrowth of the recently completed joint Homeland Security 
Council--National Security Council (HSC-NSC) Bio-Defense End-to-End 
study which identified the need for an integrated, real-time, human-
animal-plant surveillance system as a top priority national need. The 
DHS BioWatch system, which currently provides a bio-aerosol warning for 
most of this nation's large metropolitan areas, figures prominently in 
the integrated Biosurveillance initiative. This initiative would 
entail: (1) Expanding BioWatch coverage in the top ten threat cities; 
and (2) Piloting of an integrated attack warning and assessment system 
known as BWICS (BioWarning and Incident Characterization System). 
Currently the ``average'' BioWatch city has about 10 collectors per 
city. Systems studies and city feedback provide a more needs based' 
guide to the optimal number of collectors in our large, high threat 
cities. The systems studies show that about 40-60 collectors provide 
optimal outdoor coverage for a city, while the cities themselves have 
requested additional collectors for key facilities (transit systems, 
airports, stadiums). Alternate labor contracting processes, simplified 
sample handling techniques, and the introduction of additional 
automation in analyses will allow us to do this expansion in a cost 
effective manner.
    The BWICS pilot will integrate real-time bio-surveillance and 
environmental monitoring data with plume hazard predictions, 
epidemiological forecasts, population and critical infrastructure 
databases, and other available resources in two of the highest threat 
cities.
    We also will accelerate R&D on next generation environmental 
monitoring systems. New classes of detectors, that can identify bio-
agents in 2 minutes or less with incredibly low false alarm rates will 
make it possible to do detect-to-protect for key facilities--allowing 
one to reroute air flow or evacuate a facility so as to minimize 
exposure and not simply begin the onset of early treatment. And 
tailoring of existing and emerging detection systems to monitoring key 
high volume nodes in our food processing will be critical to the 
development of proposed food shields.
    The National Biodefense Analysis and Countermeasures Center (NBACC) 
provides scientific support for intelligence activities, prioritizes 
biothreats, and also conducts bioforensic analyses contributing to 
attribution and hence to deterrence. Specifically, the NBACC (both 
facilities and programs) will support public and agricultural health, 
law enforcement, and national and homeland security by providing hub 
laboratory capabilities for:
  --Dedicated and accredited bio-forensic analysis capabilities to 
        support attribution of the use of bio-threat agents (BTA) by 
        criminals, non-State, and State-sponsored actors
  --Laboratory-based, scientific data from the analysis and assessment 
        of biological threats to human health and agriculture to 
        support a national bio-defense net assessment--fundamental to 
        development of national plans, risk assessment evaluations and 
        priorities to deter, detect, mitigate and recover from BTA 
        attack
  --Applied models, materials, and validation processes to evaluate BTA 
        countermeasures
  --Evidenced-based subject matter expertise to integrate, analyze and 
        distribute critical bio-defense and related information 
        assembled from multiple sources through a high security and 
        open clearinghouse.
     transfer of r&d budgets and activities from other directorates
    The Science and Technology Directorate is both a generator and a 
consumer of scientific and technological advances resulting from basic 
and applied research and development. We also have a responsibility for 
testing and evaluating capabilities to ensure that their deployment 
results in improved operational systems. Standards are needed to assist 
first responders and operational components of the Department in 
evaluating, procuring, and deploying new capabilities. This is a broad 
range of responsibility and one we take seriously. The Department has 
defined R&D activities as follows:
    Activities associated with R&D efforts include the development of a 
new or improved capability to the point where it is appropriate for 
operational use, including test and evaluation. R&D activities include 
the analytic application of scientific and engineering principles in 
support of operational capabilities, concept exploration, systems 
development, proof of principle demonstration and pilot deployments, 
standards development, and product improvement including application 
and integration of technologies. For mission (non-management) systems, 
resources associated with developing technology to provide new 
capabilities (including systems engineering, research, development, 
testing and prototyping) are covered under the R&D category.
    This definition encompasses all of the research, development, test, 
and evaluation (RDT&E) efforts of the Science and Technology 
Directorate. It also encompasses RDT&E efforts currently existing in 
other parts of the Department of Homeland Security. The Science and 
Technology Directorate has been tasked to consolidate these activities 
from elsewhere within the Department into our directorate.
    We have begun this coordination process by evaluating and producing 
a report on the research, development, testing, and evaluation work 
that was being conducted within the Department of Homeland Security but 
was not already under the direct cognizance of the Science and 
Technology Directorate. Where it is appropriate, the Science and 
Technology Directorate will absorb these R&D functions. In other cases, 
the Science and Technology Directorate will provide appropriate input, 
guidance, and oversight of these R&D programs.
    Research and Development activities are ongoing in fiscal year 2004 
within the following departmental elements: Border and Transportation 
Security (BTS), Emergency Preparedness and Response (EPR), United 
States Coast Guard (USCG), and United States Secret Service (USSS). The 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
reported no fiscal year 2004 R&D activities.
    The fiscal year 2005 President's Budget contains three programs 
that have been identified to transfer to the Science and Technology 
Directorate. They are United States Coast Guard RDT&E activities 
conducted at their Groton, CT laboratory ($13.5 million); Emergency 
Preparedness and Response RDT&E activities supporting the U.S. Fire 
Administration ($0.65 million); and ICE-Federal Air Marshall's RDT&E 
activities supporting the development of their Air-to-Ground 
Communication System ($10 million).
    The transfer of these three RDT &E Programs is only the start and 
not the complete identification of the potential programs to review for 
consideration. S&T will be working throughout the year with the 
Department and with Congress to identify other existing programs and 
transfer them consistent with direction.

           BUDGET AND ACTIVITIES SUPPORTING CYBERSECURITY R&D
    The cybersecurity program within the Science and Technology 
Directorate is conducted by the Threat and Vulnerability, Testing and 
Assessment portfolio. The approach of this program includes addressing 
areas not currently addressed elsewhere in the Federal Government. An 
example of this is developing tools and techniques for assessing and 
detecting the insider threat. The cybersecurity budget request for 
fiscal year 2005 is $18 million.
    An important component of the cybersecurity program is coordination 
with others who are performing cyber research and who are responsible 
for cybersecurity. For example, our staff have engaged in a series of 
meetings with staff members from the Department's Information Analysis 
and Infrastructure Protection Directorate (IAIP), both the National 
Cyber Security Division and National Communications System. These 
meetings provide an venue for general exchanges of information about 
each organizations' respective plans for cybersecurity, as well as 
specific discussions focused on IAIP technical requirements to feed 
into cybersecurity R&D programs funded by the Science and Technology 
Directorate.
    Further, we are coordinating with the National Institute for 
Standards and Technology (NIST) and the National Science Foundation 
(NSF) to plan our respective roles. We are funding two projects with 
NIST, Secure Domain Name System and Secure Border Gateway Protocol, 
which are protocols that the Internet relies on to function. We are co-
funding two projects with the NSF: a research project to create an 
experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense, called Cyber Defense Technology Experimental Research 
(``DETER'') Network; and a project called Evaluation Methods in 
Internet Security Technology (EMIST), a testing framework that will 
include attack scenarios, attack simulators, generators for topology 
and background traffic, data sets derived from live traffic, and tools 
to monitor and summarize results.

        BASIS FOR POLICY ON THE USE OF THE NATIONAL LABORATORIES
    The Science and Technology Directorate has identified separate 
mechanisms to access the capability base at the DOE national 
laboratories and sites to guard against organizational conflicts of 
interest and inappropriate use of inside information in responding to 
competitive private sector solicitations. Five national laboratories 
(Livermore, Los Alamos, Oak Ridge, Pacific Northwest, and Sandia) have 
been identified as Intramural Laboratories. These labs will help S&T 
set research goals and requirements and formulate R&D road maps. This 
level of engagement would give the intramural labs unfair advantage if 
they were permitted to compete for funding awarded through open 
solicitations.
    All other DOE laboratories and sites have been identified as 
Extramural Laboratories. Because the Extramural Laboratories will not 
be involved in internal DHS research planning, they are eligible to 
compete in Homeland Security Advanced Research Projects Agency (HSARPA) 
and Systems Engineering and Development (SED) funding, such as the 
Broad Agency Announcement (BAA) valued at $50 million for radiological/
nuclear technologies that was recently issued. The majority of the 
Science and Technology Directorate's funding will be executed through 
HSARPA and SED. These labs may also freely team with industrial 
partners to seamlessly commercialize technologies they have developed.

    BUDGET FOR UNIVERSITY CENTERS OF EXCELLENCE AND FELLOWS PROGRAMS
    The President's fiscal year 2005 budget request of $30 million will 
sustain the current scholars and fellows program and a total of three 
Homeland Security Centers of Excellence. Each additional Center of 
Excellence would require a sustained investment of $5 million per year. 
If more than a total of three Centers of Excellence are desired without 
increasing the President's fiscal year 2005 budget request, a reduction 
in the scholars and fellows program would be required.

                                STAFFING
    When the Department of Homeland Security (DHS) stood up on March 1, 
2003, the Science and Technology Directorate had a total staff of about 
87, including the 53 staff transferred from the Department of Energy's 
Environmental Measurements Laboratory. The balance was comprised of 
permanently assigned personnel, employees detailed from within and 
without the Department, Intergovernmental Personnel Act assignments, 
and personnel support from the National Laboratories.
    By January 6, 2004, we more than doubled our staff. In January 
2004, we had a total staff of 212, including 100 DHS employees, six 
Public Health Service Officers, 21 Intergovernmental Personnel Act 
employees, 26 individuals on assignment from other agencies, and 59 
contractors.
    We continue to be active in staffing our Directorate with well-
qualified individuals whose skills support the full breadth of our 
responsibilities and RDT&E activities. We continue to actively seek 
additional staff in accordance with our approved staffing plan.

                               CONCLUSION
    With less than a full year under the Department's belt, the 
scientists and engineers in the Science and Technology Directorate have 
accomplished more than I could have expected. I am proud to have shared 
with you today some of those success stories. We have appended a more 
comprehensive summary of accomplishments to date for the record.
    And yet, we also recognize that there is much to do, and we will be 
working just as hard in fiscal year 2005.
    I look forward to continuing to work with you on the Cybersecurity, 
Science, and Research & Development Subcommittee; other Federal 
departments and agencies; the academic community; and private industry 
to continue the work begun and continually improve our ability to 
protect our homeland and way of life.
    Mr. Chairman, Senator Byrd, and Members of the Subcommittee, this 
concludes my prepared statement. I thank you for the opportunity to 
appear before this committee and I will be happy to answer any 
questions you may have.

                                APPENDIX
       accomplishments of the science and technology directorate
Biological and Chemical Countermeasures
            Biowatch: National Urban Monitoring for Biological 
                    Pathogens
    The Biowatch program has been established and deployed to cities 
across the nation. The program--developed, funded, and managed by the 
Science and Technology (S&T) Directorate--is executed in cooperation 
with the Environmental Protection Agency (EPA) and the Centers for 
Disease Control and Prevention (CDC). It employs environmental sampling 
devices to quickly detect biological pathogens, such as anthrax, in 
time to distribute life-saving pharmaceuticals to affected citizens. 
The S&T Directorate is now focusing its efforts on piloting the next 
generation of environmental samplers, which will reduce the amount of 
labor required and the response time needed for detection while keeping 
the detection probability high and false alarm rates low. These devices 
will take advantage of the latest advances in micro-chemistry, commonly 
referred to as ``chemistry on a chip.''
            PROTECT (Program for Response Options and Technology 
                    Enhancements for Chemical Terrorism): Chemical 
                    Defense and Response Capability for Transportation 
                    Facility
    The S&T Directorate, in collaboration with the Washington 
Metropolitan Area Transit Authority (WMATA), completed PROTECT (Program 
for Response Options and Technology Enhancements for Chemical/
Biological Terrorism). PROTECT, which is an operational chemical agent 
detection and response capability, is deployed in Metro stations and 
operated by the WMATA. PROTECT is a team effort that owes its success 
to the scientific and engineering talent from Argonne, Sandia, and 
Livermore National Laboratories and operational expertise from WMATA 
and the First Responder community (the District of Columbia; Arlington, 
VA; Montgomery County, MD; and others). Also contributing significantly 
to the project are private industry partners, including LiveWave Inc., 
ManTech Security Technology, the detector manufacturer (name withheld 
for security reasons); and Federal partners, including the Federal 
Transit Administration (FTA), Department of Transportation (DOT), 
National Institute of Justice (NIJ), and the Department of Homeland 
Security's (DHS's) Office of Domestic Preparedness (ODP). The system 
integrates chemical detector data and video feed and transmits the 
integrated information to the Operation Control Center (OCC), where the 
information is analyzed and an event confirmed. The information is then 
transmitted to the first responders who access it in both their OCC and 
through the use of wired jacks on the scene to facilitate response and 
recovery. PROTECT also has application in other areas, including fire 
and emergency response, security, and forensics. Upon completion, the 
system will be totally owned and operated by WMATA and expanded to 
approximately 20 stations. FTA is working with WMATA and Argonne 
National Laboratory to transfer the technology nationally. The 
information gleaned from PROTECT will have direct application to 
facility protection and response. A related effort is being piloted in 
the Boston subway system.
            Joint Urban 2003: Experimental Atmospheric Transport and 
                    Modeling
    In June 2003, the S&T Directorate, in coordination with the 
Department of Defense's Defense Threat Reduction Agency, Department of 
Energy, and University of Oklahoma sponsored a month-long atmospheric 
dispersion study in Oklahoma City, OK. Nearly 150 scientists, 
engineers, and student assistants were dedicated to this study, which 
tracked the air movement of safe, non-toxic tracer gases in and around 
city buildings. The resulting data is being used to enhance and develop 
urban-specific atmospheric dispersion computer models that will allow 
emergency management, law enforcement and other personnel to train for 
and respond to potential chemical, biological, and radiological 
terrorist attacks.
            ProACT (Protective and Response Options for Airport Counter 
                    Terrorism): Chemical and Biological 
                    Counterterrorism Demonstration and Application 
                    Program
    The S&T Directorate and its partners at the San Francisco 
International Airport are involved in a pilot program that couples 
biological and chemical detection with vulnerability analysis, 
response, and restoration. This program integrates networked sensors 
with the operation of ventilation systems, allowing redirection of 
contaminated air and effective evacuation should an event occur. 
Guidance for the airport facility operators to manage biological and 
chemical crises will be finalized soon for distribution throughout the 
applicable community. Protocols and concepts of operation for 
restoration also are under development. This program is designed to 
serve as a template for deployment of these capabilities to other 
similar facilities.
            LINC (Local Integration of National Atmospheric Release 
                    Advisory Center (NARAC) with Cities): Hazard 
                    Assessment Tool for Operational Event Management
    LINC demonstrates the capability for providing local government 
agencies with advanced operational atmospheric plume prediction 
capabilities that can be seamlessly integrated with appropriate Federal 
agency support for homeland security. LINC's approach is to integrate 
NARAC capabilities with local emergency management and response 
centers. In the event of a chemical or biological release, NARAC 
predictions can be used by emergency managers and responders to map the 
extent and effects of hazardous airborne material. Prompt predictions 
are provided to guide front-line responders in determining protective 
actions to be taken, critical facilities that may be at risk, and safe 
locations for incident command posts. LINC provides response teams from 
multiple jurisdictions with tools to effectively share information 
regarding the areas and populations at risk. To date, several cities 
have participated in the project. New York City used LINC to help 
inform and manage an explosion and fire at a Staten Island refinery in 
the Spring of 2003.
            BioNet: Integrated Civilian and Military Consequence 
                    Management
    The Department of Homeland Security (DHS) and the Department of 
Defense's Defense Threat Reduction Agency have initiated the BioNet 
program to address joint civilian-military consequence management 
issues for localities near military bases. Upon completion of BioNet, a 
seamless consequence management plan that incorporates concepts of 
operation, information products, area monitoring, population health 
monitoring, and sample analysis laboratory will be developed that can 
be used nationally.
            Plum Island Animal Disease Center (PIADC)
    The S&T Directorate assumed responsibility for the operations of 
the ``facilities and liabilities'' of PIADC in June 2003. A 60-day 
review of security and operations resulted in immediate improvements 
and a plan for enhancements to security and operational maintenance. 
Dr. Beth Lautner has become new Center Director for PIADC. Dr. Lautner 
was with the National Pork Board for 13 years, most recently serving as 
the vice-president of Science and Technology. Highly respected 
throughout animal agriculture for her work on numerous issues, she 
pioneered the establishment of the Pork Quality Assurance (PQA) Program 
and has worked extensively with the USDA and other organizations on 
national agricultural security issues. In 1994, she was awarded the 
prestigious Howard Dunne Memorial Award by the association. In 
addition, DHS announced on December 9, 2003, the selection of Field 
Support Services, Inc. (FSSI), as the new contractor for maintenance at 
PIADC. FSSI is a subsidiary of Arctic Slope Regional Corporation, an 
Alaskan Native corporation, headquartered in Barrow, Alaska.
            TOPOFF2 Exercise
    In May 2003, leadership and staff members of the Science and 
Technology Directorate served as members of the Secretary's Crisis 
Assessment Team (CAT) and the interagency Domestic Emergency Support 
Team (DEST) and provided expert technical advice on understanding, 
communicating and responding to the hypothetical radiological and 
plague events during the TOPOFF2 exercise.
Radiological and Nuclear Countermeasures Programs
            Radiation Detection in Metropolitan Areas
    The Science and Technology division formally assumed management of 
the Port Authority of New York and New Jersey's radiation detection 
test bed on August 2003. The test bed was previously managed by the 
U.S. Department of Energy. The transfer will broaden the project scope 
beyond testing and evaluation of individual pieces of technology to a 
systems approach including response protocols and operational concepts. 
Radiation detection equipment will be installed at tunnels, bridges, 
ports, and airports in the New York City metropolitan area, and all 
functions associated with their operational use will be evaluated. By 
judging the efficacy of fielded systems over time, the Science and 
Technology division will be able to influence future decisions on 
detection technology R&D investment, deployment of urban monitoring 
systems, configurations best able to enhance security, and viable 
solutions for protecting the Nation from radiological and nuclear 
threats.
            Determined Promise Exercise
    In August 2003, staff members of the S&T Directorate participated 
in Determined Promise, a Department of Defense (DOD) exercise held in 
Las Vegas, NV. The exercise demonstrated the military's capability to 
assist in the response to a natural disaster, a bioterrorism event, and 
a number of other emergency situations nationwide. The exercise also 
provided a forum for initiating discussions that will foster 
interagency cooperation between DHS and USNORTHCOM.
            Nuclear Threat Assessments
    The S&T Directorate has provided eight rapid nuclear threat 
assessments for the Federal Bureau of Investigation (FBI), and 
approximately two dozen assessments on reports of illicit trafficking 
in nuclear materials for the Department of State and other customers. 
The Department of Homeland Security has been leading the interagency 
Nuclear Trafficking Focus Group, which regularly brings together the 
operational players of all agencies involved in response to and 
understanding of nuclear smuggling events.
            Secondary ``Reach Back''
    In August 2003, the S&T Directorate's Nuclear Assessment Program 
stood up a system to provide secondary ``reach back'' support to 
operational DHS entities employing radiation detection systems in the 
field. Secondary reach back provides inspectors with an additional 
information resource to utilize for the resolution of radiation 
detection alarms that draws upon experience in the analysis of nuclear 
smuggling incidents and threat analysis.
Standards
            Radiation Detection
    The S&T Directorate has developed a suite of four radiation 
detector standards under the auspices of the American National 
Standards Institute (ANSI)'s Accredited American Standards Committee on 
Radiation Instrumentation. The four standards deal with radiation 
pagers, hand-held dosimetry instruments, radioisotope identifiers and 
radiation portal monitors. The S&T Directorate has formed three writing 
groups to prepare Test and Evaluation (T&E) protocols for hand-held 
radiation detectors, radionuclide identifiers and radiation portal 
monitors. The writing groups have met in working sessions in San Diego, 
CA (July 2003) and Las Vegas, NV (September 2003) and have prepared 
draft T&E protocols. Benchmark testing against these draft protocols 
has been initiated at four National Laboratories.
            Biopathogen Identification
    The Science and Technology Directorate has partnered with the 
Department of Defense, Office of the Secretary of Defense to fund a 
contract with the Association of Analytical Communities International 
to develop Reference Methods and Official Methods for bulk assay of 
bacillus anthracis. This work will also permit the comparison of 
commercially available rapid identification methods (hand-held assays) 
for B. anthracis.
            SAFETY Act
    On October 10, 2003, Secretary Ridge signed an interim final rule 
implementing the Support Anti-Terrorism by Fostering Effective 
Technologies (SAFETY) Act which was a requirement of the Homeland 
Security Act of 2002. The SAFETY Act is designed to encourage the 
development and rapid deployment of life-saving, anti-terrorism 
technologies by providing manufacturers and sellers with limited 
liability risks. The Department is now accepting applications for 
designation under the Act and evaluating the proposed technologies.
Interoperability of Communications
            SAFECOM: E-Gov Initiative to Improve Interoperability of 
                    Wireless Communications
    The Department of Homeland Security is taking steps to boost the 
ability of the approximately 44,000 local, tribal and State entities 
and 100 Federal agencies engaged in public safety to communicate 
effectively with one another, particularly during an emergency. SAFECOM 
is a Federal umbrella program under the S&T Directorate that is 
dedicated to improving public safety response through enhanced 
interoperable wireless communications. The goal is to enable public 
safety agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice or data with one another on 
demand and in real time. SAFECOM is providing seed money for the 
Department of Justice's Integrated Wireless Network program, which will 
create interoperability among local, State and Federal public safety 
agencies in 25 cities. In addition, technical guidance for 
interoperable communications that was developed under SAFECOM is 
included in this year's Office of Domestic Preparedness grants.
            Summit on Interoperable Communications for Public Safety
    In June 2003, the S&T Directorate, Project SAFECOM, the National 
Institute of Standards and Technology (NIST) and the National Institute 
of Justice hosted a Summit on Interoperable Communications for Public 
Safety. The event focused on familiarizing attendees with programs that 
assist public safety practitioners, including first responders, and is 
the first national effort ever undertaken to convene all the players. 
In addition, it provided insight on Federal resource needs, how 
government can leverage existing program successes and resources in the 
area of standards development, approaches, and products and services. 
The Summit results provided help in formulating a coordinated approach 
toward nationwide communications interoperability.
            SAFECOM Vendor Demonstration Day
    In August 2003, the Science and Technology Directorate held its 
first SAFECOM Vendor Demonstration Day, with an overwhelmingly positive 
response from technology providers. Due to the increasing number of 
vendor requests to present their technologies to the SAFECOM Program, 
the S&T Directorate is holding a vendor demonstration day on the last 
Friday of every month. These Friday sessions will offer a chance for 
SAFECOM to learn about new technologies for interoperability, provide a 
clear process for managing vendor requests, and ensure that every 
vendor has a fair opportunity to participate.
Information Analysis and Infrastructure Protection Programs
            Addressing Threats and Vulnerabilities in the Oil and Gas 
                    Industries
    The S&T Directorate sponsored and delivered a prototype system to 
the Information Analysis and Infrastructure Protection (IAIP) 
Directorate to perform Graphical Information System (GIS) based 
computer assisted threat and vulnerability mapping of the oil and gas 
infrastructure in the American Southwest. S&T is also in the process of 
delivering to IAIP cutting edge visualization, data searching, data 
correlation, and all-source analytic aids to provide IAIP advanced 
analytic capabilities integrated with vulnerability information.
            Advanced Algorithms for Biodetectors
    Researchers funded by the S&T Directorate's Advanced Scientific 
Computing Research & Development program achieved an important 
milestone in the speed acceleration of software used to develop 
advanced biodetectors. Scientists have made a pair of related 
algorithmic advances that will speed the creation of DNA signatures for 
pathogen detection at considerably reduced cost. These discoveries will 
result in cheaper, faster, and more reliable bio-detectors for homeland 
security.
            Threat-Vulnerability Mapper
    Part of the Threat-Vulnerability Information System, the Threat-
Vulnerability Mapper (or TVM), was installed in the analysis center of 
the Information Analysis and Infrastructure Protection Directorate in 
December 2003 and is already in constant use. Developed by the S&T 
Directorate, the TVM provides counterterrorism analysts with a simple, 
straightforward way to not only depict the geographic distribution of 
threats across the United States, but also to search the underlying 
databases for information on the possible actors, agents, potential 
severity of attacks, and extent of the vulnerabilities to and effects 
of such attacks. A second TVIS component was delivered to IAIP in 
January 2003 and should be installed and operational by the end of 
February 2004.
            Critical Infrastructure Protection Decision Support System
    On December 24, 2003, S&T's Critical Infrastructure Protection 
Decision Support System (CIP/DSS) team was asked to conduct a rapid 
analysis of potential consequences following discovery of a cow in 
Washington State with bovine spongiform encephalopathy (BSE), commonly 
known as Mad Cow disease. An analysis was developed within hours using 
available open literature, past historical data, and the results from 
an early stage, Dynamic Simulation agriculture model.
Cybersecurity
            Experimental Infrastructure Network for Cyber Defense
    Led by the S&T Directorate, DHS is co-funding with the National 
Science Foundation a $5.45 million, 3-year research project to create 
an experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense. This project supports national-scale experimentation on 
emerging security research and advanced development technologies. 
Called Cyber Defense Technology Experimental Research (``DETER'') 
Network, this is a multi-university project led by the University of 
California, Berkley.
            Evaluation Methods in Internet Security Technology
    DHS is co-funding with the National Science Foundation, a second 
cyber security project called Evaluation Methods in Internet Security 
Technology (EMIST). EMIST is a testing framework that can be adapted to 
simulators, emulation facilities, other testbeds, and hardware testing 
facilities. The framework will include attack scenarios, attack 
simulators, generators for topology and background traffic, data sets 
derived from live traffic, and tools to monitor and summarize results. 
EMSIT is a 3-year, $5.6 million, multi-university research project that 
includes Penn State; University of California, Davis; Purdue; and the 
International Computer Science Institute.
United States Coast Guard
            Maritime Surveillance Testbed Prototype
    In September 2003, S&T's Homeland Security Advanced Research 
Projects Agency and the United States Coast Guard planned and funded 
the South Florida Coastal Surveillance Prototype Testbed, a port and 
coastal surveillance prototype in Port Everglades, Miami, and Key West 
areas. The prototype is an evolutionary testbed that:
  --Provides an initial immediate coastal surveillance capability in a 
        high priority area
  --Offers the Coast Guard and other DHS agencies the means to develop 
        and evaluate CONOPS (Concept of Operations) in a real world 
        environment
  --Implements and tests interoperability among DHS and DOD systems and 
        networks such as the U.S. Navy/Coast Guard Joint Harbor 
        Operations Center (JHOC).
  --Tests and evaluates systems and operational procedures
  --Becomes the design standard for follow-on systems in other areas 
        and integration with wider area surveillance systems. The 
        program has two phases; an initial prototype development phase, 
        and an improvements and update phase. The program is expected 
        to begin operations in June 2004 and is funded at $2.4 million 
        for fiscal year 2003 and $5 million for fiscal year 2004.
Partnerships
            Workshop on Scientific Computing in Support of Homeland 
                    Security
    The Science and Technology Directorate brought together experts 
from academia, private industry and the national laboratories with 
staff from various organizations within the Department to understand 
how the S&T Directorate's advanced scientific computing (ASC) 
capabilities, centered at the national laboratories, can help address 
needs across the Department. This workshop, held October 8-9, 2003, has 
resulted in identifying several areas of potential high payoff for the 
use of these unique capabilities; two examples are advanced research in 
data management and information extraction, and research and 
development of computational simulation tools. The workshop will 
produce a formal report identifying relevant ASC capabilities and 
matching them up with identified needs within the Department of 
Homeland Security for improved operational capabilities.
            Infrastructure Subcommittee of the National Science and 
                    Technology Council
    Staff members of the Science and Technology Directorate had a major 
role in drafting the first charter for the National Science and 
Technology Council's (NSTC's) Infrastructure Subcommittee; the 
Subcommittee's first Co-Chairs are from the S&T Directorate and the 
Office of Science and Technology Policy. The Subcommittee serves as a 
forum within the National Science and Technology Council (NSTC) for 
developing consensus and resolving issues associated with coordinating 
R&D agendas, policy, and programs to develop and protect the nation's 
infrastructure. The Subcommittee will also be the vehicle used by the 
Department of Homeland Security and the White House Office of Science 
and Technology Policy to develop the National R&D Plan for Critical 
Infrastructure Protection.
            Homeland Security Standards Panel
    The S&T Directorate worked with the American National Standards 
Institute (ANSI) and the National Institute of Standards and Technology 
(NIST) to establish a Homeland Security Standards Panel (HSSP) that 
would coordinate the development of consensus standards among the 280 
different standards development organizations. On June 9-10, 2003, the 
inaugural meeting of the ANSI Homeland Security Standards Panel was 
held at NIST. Plenary session presentations were given by four S&T 
Directorate staff members to outline the needs in Department for 
standards. The panel selected a small list of topics to address with 
focus workshops. The first of these occurred in September 2003 with a 
focus on needs for standards in biometrics.
            Joint DHS/USDA National Strategy for Foreign Animal Disease
    At the request of the Congressional Appropriations Committees for 
both DHS and the Department of Agriculture (USDA), the two departments 
have coordinated a report on a national strategy for foreign animal 
disease. Participants in the joint study included DHS (S&T), USDA (the 
Agricultural Research Service and the Agriculture and Plant Health 
Inspection Service), and stakeholder groups. The joint study has 
prompted an end-to-end review of the national response strategy 
following the identification of a case of foot-and-mouth disease, 
including the R&D requirements and gaps for assays, diagnostics, 
vaccines, and antivirals. Comprehensive roadmaps have been developed 
for these research areas, in 1-, 3-, and 5-year timeframes. These 
roadmaps are important elements of program planning for S&T.
            National Security Council Attribution Working Group
    The S&T Directorate initiated and leads the National Security 
Council Attribution Working Group, which is revisiting national 
capabilities to rapidly perform forensic analysis in cases of nuclear 
and radiological events of any size. This effort is expected to lead to 
a robust and completely coordinated forensic capability for 
attribution.
            Workshops on Comparative Analysis
    S&T's Office of Comparative Studies has sponsored two workshops on 
identifying analysis techniques and information sources crucial for 
analyzing the interaction of the terrorist threat with S&T activities. 
These workshops brought together participants from two DHS 
directorates, other government entities, academia and private industry 
and have helped to improve communication between these groups. 
Important analytical techniques and sources of information were 
identified and have been utilized. The workshops were also used to 
establish a set of topics which the office could profitably study. A 
proposal is being prepared which will solicit work on several of these 
topics.
Homeland Security Institute, and Homeland Security Science and 
        Technology Advisory Committee
            Homeland Security Institute
    A formal solicitation was issued in December for the Homeland 
Security Institute (HSI), and proposals were received in January 2004. 
Those proposals currently are being evaluated with an expected 5-year 
award by early May 2004. However, current legislation states that the 
Institute's operation will terminate in November 2005; this issue is of 
concern to the bidders.
    The HSI was mandated by the Homeland Security Act to assist the 
Secretary and the Department in addressing important homeland security 
issues that require scientific, technical, and analytical expertise. 
The Institute will provide a dedicated, high-quality technical and 
analytical support capability for informing homeland security decision 
making at all levels. This capability will consist of an extensive 
program of operational assessments, systems evaluations, technical 
assessments, and resource analyses comparable to the capability 
developed and used for decades by the Defense establishment. The 
Institute will also provide analytical and technical evaluations that 
support DHS implementation of the SAFETY Act. Finally, the Institute 
will create and maintain a field operations program that will help 
further introduce real-world needs and experiences into homeland 
security is a disciplined and rigorous way.
            Homeland Security Science and Technology Advisory Committee
    The Homeland Security Science and Technology Advisory Committee 
(HSSTAC) was formally established in December 2003 and holds its first 
meeting in February 2004. The HSSTAC was mandated by the Homeland 
Security Act to be a source of independent, scientific and technical 
planning advice for the Under Secretary for Science and Technology. The 
committee will (1) advise the Undersecretary on the mission goals for 
the future; (2) provide advice on whether the policies, actions, 
management processes, and organization constructs of the Science and 
Technology Directorate are optimally focused on mission objectives; (3) 
provide advice on whether the research, development, test, evaluation, 
and systems engineering activities are properly resourced (capital, 
financial, and human) to accomplish the objectives; (4) identify 
outreach activities (particularly in accessing and developing, where 
necessary, the industrial base of the Nation); and (5) review the 
technical quality and relevance of the Directorate's programs.
Countermeasures to Man-Portable Air Defense Systems
    The S&T Directorate has selected three firms to provide analyses of 
the economic, manufacturing and maintenance issues needed to support a 
system to address the potential threat of MAN-Portable Air Defense 
Systems (MANPADS) to commercial aircraft. The next phase of the program 
will include development of prototypes using existing technology which 
will be subjected to a rigorous test and evaluation process. This 
initiative is not intended to develop new technology, but rather to re-
engineer existing technology from military to commercial aviation use.
University and Fellowship Programs
            Fellowships and Scholarships
    In September 2003, the S&T Directorate named 100 students to the 
inaugural class of the Department of Homeland Security's Scholars and 
Fellows Program. The program, which received more than 2,400 
applications, supports United States students who choose to pursue 
scientific careers and perform research in fields that are essential to 
the homeland security mission. The first class consists of 50 
undergraduate students and 50 graduate students who are attending 
universities across the country majoring in the physical, biological, 
and social and behavioral sciences including science policy, 
engineering, mathematics, or computer science. The Directorate has 
already issued a notice inviting applications from students for the 
2004-2005 academic year. The website is http://www.orau.gov/dhsed/.
            University Centers of Excellence
    The Science and Technology division has created the Homeland 
Security Centers Program that supports university-based centers of 
excellence dedicated to fostering homeland security mission critical 
research and education. The program has established the first Center of 
Excellence focused on risk analysis and modeling related to the 
economic consequences of terrorism at the University of Southern 
California, partnering with the University of Wisconsin at Madison, New 
York University and the University of California at Berkeley. A request 
for proposals has been issued for the second and third Centers of 
Excellence, which will focus on animal-related and post-harvest food 
agro-terrorism.
Homeland Security Advanced Research Projects Agency
            Near-Term Technologies
    In May 2003, the Science and Technology Directorate's Homeland 
Security Advanced Research Projects Agency (HSARPA) released a Broad 
Agency Announcement through the Technical Support Working Group for 
near-term technologies that can be rapidly prototyped and deployed to 
the field. A total of 3,344 responses as received in the following 
broad categories: chemical, biological, radiation and nuclear 
countermeasures; personnel protection; explosives detection; 
infrastructure protection; physical security; improvised device defeat; 
and investigative support and forensics. The first contract award went 
to North Carolina State University for the development of the next-
generation of structural fire fighting personal protective equipment.
            Detection Systems
    The S&T Directorate reviewed and selected proposals for funding in 
response to its Research Announcement for Detection Systems for 
Biological and Chemical Countermeasures, which was published through 
the Technical Support Working Group. In September 2003, the Homeland 
Security Advanced Research Projects Agency (HSARPA) held its first 
Bidders Conference in Washington, DC. Approximately 420 private sector 
and university representatives attended the event and over 500 white 
papers were submitted. Finalists have been selected for negotiation, 
and work has already begun in a number of the more important areas.
            Virtual Cyber Security Center
    On December 13, 2003, a Request for Proposals and Statement of Work 
for technical and administrative support for the virtual Cyber R&D 
Center was published to seven capable performers listed on the GSA 
schedule. The deadline for response was December 15, 2003, and two 
responsive proposals were received. A three million dollar technical, 
management, and administrative contract was awarded to SRI 
International on February 2, 2004, to support the functions of the 
HSARPA Cyber R&D Center. The Cyber R&D Center will be the primary S&T 
interface with the academic and industrial cyber security research 
communities.
            Small Business Innovation Research (SBIR) Program 
                    Solicitation
    On November 13, 2003, the Homeland Security Advanced Research 
Projects Agency (HSARPA) issued a Small Business Innovation Research 
(SBIR) Program Solicitation. The purpose of this solicitation was to 
invite small businesses to submit innovative research proposals that 
address eight high-priority DHS requirements:
  --New system/technologies to detect low vapor pressure chemicals 
        (e.g., Toxic Industrial Chemicals)
  --Chemical and biological sensors employing novel receptor scaffolds
  --Advanced low cost aerosol collectors for surveillance sensors and 
        personnel monitoring
  --Computer modeling tool for vulnerability assessment of U.S. 
        infrastructure
  --Ship compartment inspection device
  --Marine Asset Tag Tracking System
  --Automatic Identification System tracking and collision avoidance 
        equipment for small boats
  --Advanced Secure Supervisory Control and Data Acquisition (SCADA) 
        and related distributed control systems.
    By the December 15, 2003, deadline 374 proposals had been received. 
The evaluation is complete and 66 proposers entered negotiation for 
Phase I contracts beginning February 11, 2004.
SAFECOM Vendor Demonstration Day
    SAFECOM held a Vendor Demonstration Day on January 30, 2004. 
SAFECOM's Vendor Day allows several communications equipment and 
service providers to present their products and/or technologies for 
SAFECOM. Responses from the SAFECOM Request for Information in November 
2003 were used to select vendors for this event. Each vendor selected 
represents a different approach to solving the communications and 
interoperability problems facing first responders.
International Programs
            Agreement with Canada on Border and Infrastructure Security
    On October 3, 2002, Secretary Tom Ridge and Canadian Deputy Prime 
Minister John Manley initialed an agreement on Science and Technology 
Cooperation for protecting shared critical infrastructure and enhancing 
border security. The S&T Directorate is participating in a Working 
Group to develop near-term deliverables and projects to protect shared 
critical infrastructure such as bridges, dams, pipelines, 
communications and power grids; to develop surveillance and monitoring 
technologies to enhance the ability to disrupt and interdict 
terrorists; and to develop technologies for detecting the illicit 
transportation of chemical, biological, radiological, and nuclear 
weapons.
          weapons of mass destruction and incident management
    Between March and December of 2003, the Office of Weapons of Mass 
Destruction Operations and Incident Management (WMDO-IM) provided 
surveillance and operational incident response to the Homeland Security 
Operations Center and law enforcement officials on 24 separate 
occasions. In addition, the WMDO-IM provided operational support to the 
Homeland Security Operations Center during Hurricane Isabel and the 
Northeast blackout.
    The WMDO-IM established a scientific reach-back and rapid decision 
support capability through the Scientific and Technical Analysis and 
Response Teams (START). In addition to activating the START teams 
during the Code Orange time period in December 2003, WMDO-IM provided 
technical expert consultations on threats to the nation's water 
resources and responded to concerns about impacts of solar flares.
    WMDO-IM helped develop the Initial National Response Plan (INRP) 
and its National Incident Management System; the INRP represents a 
significant first step towards an overall goal of integrating the 
current family of Federal domestic prevention, preparedness, response, 
and recovery plans into a single all-discipline, all-hazards plan.
    WMDO-IM provided technical support to the Homeland Security 
Operations Center (HSOC), assessing vulnerabilities and actions the 
HSOC can take to improve the ability to resist a chemical or biological 
terrorist attack.
    WMDO-IM, with the Defense Threat Reduction Agency and Nuclear 
Regulatory Commission, developed curriculum for a week-long training 
workshop on weapons of mass destruction for the Central Intelligence 
Agency University. Also in the area of education and training, WMDO-IM 
established a homeland security medical executive training course.

    Senator Cochran. Thanks, Dr. McQueary.
    General Libutti, you may proceed.

             STATEMENT OF LIEUTENANT GENERAL FRANK LIBUTTI

    General Libutti. Good morning, Chairman Cochran, and 
Senator Byrd.
    I am delighted to appear before you today to discuss the 
President's fiscal year 2005 budget request for the Department 
of Homeland Security's Information Analysis and Infrastructure 
Protection Directorate. And I look forward to a meeting with 
you soon to discuss the classified portion of the Information 
Analysis and Infrastructure Protection budget, specifically, 
the intelligence side of business.
    Information Analysis and Infrastructure Protection is the 
focal point for intelligence, analysis, and infrastructure 
protection operations and information sharing within the 
Department of Homeland Security. Within a single Directorate, 
IAIP merges capability to identify and assess a broad range of 
intelligence and information concerning threats to the 
homeland, maps the information against the Nation's 
vulnerabilities, issues timely and actionable warnings, and 
takes appropriate preventive and protective action to protect 
our infrastructure and key assets.

                ACCOMPLISHMENTS OF THE IAIP DIRECTORATE

    As we mark the first anniversary of the Department, I would 
like to highlight for you some of the many accomplishments of 
our IAIP Directorate.
    Since March 2003, IAIP has launched the Homeland Security 
Information Network, a comprehensive interactive information 
sharing program that expands access to and use of a joint 
regional information exchange system. The roll out includes all 
of our partners at the State and local levels, as well as 
private sector partners.
    Next, we have implemented the Homeland Security 
Presidential Directive HSPD-7 which addresses critical 
infrastructure identification, prioritization and protection. 
And as you know this was signed by President Bush in December 
of 2003.
    To the National Cyber Security Division, the NCSD, we have 
established the U.S. Computer Emergency Readiness Team, or 
USCERT, and launched the National Cyber Alert System, America's 
first coordinated cyber security system for identifying, 
analyzing and prioritizing emerging vulnerabilities and 
threats. This system provides the first nation-wide 
infrastructure for relaying actionable computer security 
updates and warning information to computer users in the 
Government, the private sector, business, and home users as 
well.
    We've assumed the responsibility for the Homeland Security 
Operation Center, which maintains and shares real-time domestic 
situation awareness, coordinates security operations, detects, 
prevents and deters incidents, and facilitates response and 
recovery for all critical incidents and threats.
    In addition, we have conducted detailed vulnerability 
studies of the banking and telecommunication industries to 
better understand the inter-dependencies therein, and 
prioritization regarding vulnerability reduction.
    We formally executed the Protected Critical Information 
Infrastructure Protection Program. This is pursuant to the 
provisions of the Critical Information Infrastructure 
Information Act of 2002.
    Even with these accomplishments there is much more work to 
be done. IAIP's budget relies on the expectation of two 
emerging trends. First, the nature and complexity of the 
threats which will increase. And second, our national 
infrastructure components which will become more complex and 
more interdependent. These trends will result in more demands 
on the department and IAIP to anticipate terrorist intentions, 
tactics and capabilities, and to mitigate risks and 
vulnerabilities for the protection of the United States of 
America and its citizens.

                FISCAL YEAR 2005 BUDGET REQUEST FOR IAIP

    For these reasons, the President's fiscal year 2005 budget 
request for IAIP is structured around the following major 
programs: Threat determination and assessments; Infrastructure 
vulnerabilities and risk assessments; Information warnings and 
advisories; Remediation and protective actions; Outreach and 
partnerships; National Communication System; Competitive 
analysis and evaluation; National plans and strategies; and the 
Homeland Security Operation Center.
    Let me discuss several of the initiatives associated with 
each of the mission areas of the fiscal year 2005 request for 
$864 million.

                  THREAT DETERMINATION AND ASSESSMENT

    First, threat determination and assessment. Funding in this 
area is targeted to increase the IAIP directorate's technology 
competencies by training analysts and equipping IAIP with the 
most advanced technologies and tools.
    The training tools and technology will be utilized to 
develop a detailed understanding of terrorists' organizational 
capabilities with supporting materials and conductivity to 
interpret and predict threats.
    Next, is to expand cooperation and fusion efforts from 
Homeland Security to our internal components and out to 
external customers, and increase cooperation efforts among the 
intelligence community.

            INFRASTRUCTURE VULNERABILITY AND RISK ASSESSMENT

    Next, the infrastructure vulnerability and risk assessment 
piece. This funds the development of comprehensive national 
infrastructure risk analysis and profile. There we are talking 
about high-value target sets, the development of analytic tools 
to evaluate critical infrastructure and key assets, and the 
coordination of a national threat vulnerability and asset 
database to assess, integrate, collaborate and store threat 
vulnerability information.
    Next, information and warning advisories. In addition to 
continuously operating a 24/7 Capable Operations Center, the 
information and warning program will provide search capability 
for our HSOC, our operation center, and for other directorates 
during heightened states of alert or in response to specific 
incidents.
    Funding in this area supports submission of collection 
requests for threat information of the intelligence community, 
the law enforcement, and dissemination guidance to Homeland 
Security components, developing analysis on the nature and 
scope of the threat, and identifying potential terrorists' 
targets within the United States.
    Another priority is the need to establish threat 
advisories, bulletins and warnings at different levels of 
classification to relevant stakeholders. The threat 
publications are detailed and disseminated in a timely fashion 
portraying the nature, scope and target of the threat.

                   REMEDIATION AND PROTECTIVE ACTIONS

    Next, remediation and protective actions. Through this 
program the IAIP directorate provides a broad range of services 
including on-site planning advice, technical and operational 
training programs, assistance in identifying vulnerabilities 
and development of sharing and best-practices. Activities in 
this area also include security efforts to protect 
infrastructure and key assets from cyber attacks.
    Specifically, the $345.783 million for remediation and 
protective actions is divided into the following five 
categories: Critical infrastructure and key asset 
identification; Critical infrastructure of vulnerability field 
assessments; Infrastructure and key asset protection; Cyber 
security; and last, protection standards and performance 
matrixes.

                        OUTREACH AND PARTNERSHIP

    The next broad category is outreach and partnership. The 
fiscal year 2005 President's budget requests $40.829 million to 
build and maintain a sound partnership foundation. To be 
successful in information sharing, strong relationships must be 
maintained with State and local governments, private sector, 
academia, advisory bodies and the international community.

                     NATIONAL COMMUNICATION SYSTEM

    Next, the national communication system. This allows NCS to 
ensure priority use of telecommunication services during times 
of national crisis, including the government emergency 
telecommunication service, GETS. The funding enhances these 
programs and supports the development of wireless priority 
services, which provide a nationwide priority cellular service 
to key national security and emergency preparedness users.

                  COMPETITIVE ANALYSIS AND EVALUATION

    Next, competitive analysis and evaluation. The competitive 
analysis and evaluation program ensures that IAIP products and 
services are tested and accurate based on sound assumptions and 
data, and ultimately offers the highest quality, depth and 
value to the IAIP customers.

                     NATIONAL PLANS AND STRATEGIES

    Next is our national plans and strategies. Critical to 
ongoing national efforts to protect and ensure the homeland, 
our actions support updating, coordinating and monitoring the 
implementation of national plans and strategies.

                   HOMELAND SECURITY OPERATION CENTER

    Homeland Security Operation Center, $35 million. The HSOC 
or Homeland Security Operation Center maintains and shares 
domestic situational awareness, coordinates security 
operations, protects, prevents and deters incidents, and 
facilitates the response and recovery of all critical 
incidents.
    The HSOC is the focal point for sharing information across 
all levels of government, the private sector and our friends at 
the State and local levels as well.

                           PREPARED STATEMENT

    In summary, the fiscal year 2005 budget request provides 
the resources to enable IAIP to manage and grow in its mission 
of securing the homeland. I look forward to working with you to 
accomplish the goals of this department and the goals of IAIP.
    Mr. Chairman, Senator Byrd, this concludes my prepared 
statement and I would be happy to answer any questions you may 
have at this time. Thank you.
    [The statement follows:]

                  Prepared Statement of Frank Libutti

Introduction
    Good morning Chairman Cochran, Senator Byrd and distinguished 
members of the Subcommittee. I am delighted to appear before you today 
to discuss the President's fiscal year 2005 budget request for the 
Department of Homeland Security's Information Analysis and 
Infrastructure Protection (IAIP) Directorate.
    IAIP is the focal point for intelligence analysis, infrastructure 
protection operations, and information sharing within the Department of 
Homeland Security (DHS). Within a single directorate, IAIP merges the 
capability to identify and assess a broad range of intelligence and 
information concerning threats to the homeland, map that information 
against the nation's vulnerabilities, issue timely and actionable 
warnings, and take appropriate preventive and protective action to 
protect our infrastructures and key assets. IAIP is currently comprised 
of three primary components: the Office of Information Analysis (IA), 
the Office of Infrastructure Protection (IP), and the Homeland Security 
Operations Center (HSOC).
Fiscal Year 2004 Accomplishments
    As we mark the first anniversary of the Department, I would like to 
highlight for you some of the many accomplishments of the IAIP 
Directorate, one of the newest parts of the Federal Government. The 
formation of IAIP has created for the first time a unique, integrated 
capability to not only map the current threat picture against the 
nation's vulnerabilities, but to also assess the risk of a terrorist 
attack based upon preventive and protective measures in place. That is, 
IAIP is enabling us to move from a reactive posture in the homeland to 
a risk management and mitigation posture. Let me give you some 
examples.
    Since March, 2003, IA has:
  --Launched the Homeland Security Information Network (HSIN), a 
        comprehensive information sharing program that expands access 
        to and use of the Joint Regional Information Exchange System 
        (JRIES). The HSIN will provide secure real-time connectivity in 
        a collaborative environment with States, urban areas, counties, 
        tribal areas, and territories to collect and disseminate 
        information between Federal, State, local, and tribal agencies 
        involved in combating terrorism.
  --Coordinated Operation Liberty Shield and the rapid enhancement of 
        security at more than 145 national asset sites at the outset of 
        the war in Iraq. Following that, IAIP transitioned the 
        protection of the sites from National Guard and law enforcement 
        to a more cost effective and permanent set of physical 
        protective measures.
  --Enhanced protection, by assisting local communities with conducting 
        vulnerability assessments and implementing protective measures, 
        of the nation's highest risk chemical sites, thereby improving 
        the safety of over 13 million Americans.
  --Implemented Homeland Security Presidential Directive (HSPD) 7, 
        ``Critical Infrastructure Identification, Prioritization and 
        Protection,'' which was signed by President Bush in December 
        2003. The HSPD assigned the Department of Homeland Security 
        responsibility for coordinating the overall national effort to 
        enhance the protection of the critical infrastructure and key 
        resources of the United States and the development of an 
        integrated cyber and physical protection plan.
  --Implemented Wireless Priority Service, to ensure the continuity of 
        cellular networks nationwide, registering over 3,000 Federal, 
        State, local and private users.
  --Established the National Cyber Security Division (NCSD) to 
        coordinate the implementation of the National Strategy to 
        Secure Cyberspace and serve as the national focal point for the 
        public and private sectors on cybersecurity issues, and 
        developed a process for handling cyber incidents, successfully 
        managing a number of major cyber events.
  --Through the NCSD, established the U.S. Computer Emergency Readiness 
        Team (US-CERT) through an initial partnership with the Computer 
        Emergency Response Team Coordination Center at Carnegie Mellon 
        University. US-CERT is building a cyber watch operation, 
        launching a partnership program to build situational awareness 
        and cooperation, and coordinating with U.S. Government agencies 
        to predict, prevent, and respond to cyber attacks.
  --Launched the National Cyber Alert System under the auspices of US-
        CERT, America's first coordinated cyber security system for 
        identifying, analyzing, and prioritizing emerging 
        vulnerabilities and threats. This system provides the first 
        nationwide infrastructure for relaying actionable computer 
        security update and warning information to computer users in 
        the government, in private industry, and small business and 
        home users.
  --Assumed responsibility for the Homeland Security Operations Center 
        (HSOC), which maintains and shares real time domestic 
        situational awareness; coordinates security operations; 
        detects, prevents, and deters incidents; and facilitates 
        response and recovery for all critical incidents and threats. 
        As of February 2004, 26 Federal and local law enforcement 
        agencies and Intelligence Community members are were 
        represented in the HSOC, providing reach back capability into 
        their home organizations to continuously inform the current 
        threat picture, and to provide key decision makers with real 
        time information.
  --Conducted detailed vulnerability studies of the banking and 
        telecommunications industry to better understand the 
        interdependencies and prioritize vulnerability reduction.
  --Initiated an intra-Department and interagency review and analysis 
        of information obtained in detainee briefings to assess 
        specific terrorist capabilities, work that subsequently became 
        the subject of several advisories disseminated to a variety of 
        homeland security partners regarding terrorist planning, 
        tactics and capabilities.
  --Co-chaired with the Border and Transportation Security Directorate 
        (BTS) the DHS Intelligence Activities Joint Study charged with 
        reviewing the mission, responsibilities and resources of DHS 
        Intelligence component organizations. The study was chartered 
        for the purpose of making recommendations to the Secretary as 
        to the optimal utilization of the Department's analytical 
        resources.
  --With the Homeland Security Council (HSC), initiated an ongoing 
        interagency review of the Homeland Security Advisory System 
        (HSAS), for the purpose of refining the system to make it more 
        efficient and more beneficial for States and localities and the 
        private sector.
  --Formally executed the Protected Critical Infrastructure Information 
        (PCII) implementing regulation, pursuant to the provisions of 
        the Critical Infrastructure Information ACT of 2002. The 
        purpose of the PCII Program is to encourage private entities 
        and others with knowledge about our critical infrastructure to 
        voluntarily submit confidential, proprietary, and business 
        sensitive critical infrastructure information to the Department 
        through IAIP. Information submitted to IAIP that qualifies for 
        protection under the provisions of the Act and the PCII 
        implementing regulation will be exempted from public 
        disclosure, providing a significant opportunity for private 
        entities to assist in homeland security without exposing 
        potentially sensitive and proprietary information to the 
        public. The Department will use information that qualifies for 
        protection primarily to assess our vulnerabilities, secure the 
        nation's critical infrastructure and protected systems, issue 
        warnings and advisories, and assist in recovery.
Fiscal Year 2005
    Even with these accomplishments, there is much more work that must 
be done. The United States remains at risk, despite the continuing work 
to assess and mitigate vulnerabilities. Our interdependent critical 
infrastructures enable Americans to enjoy one of the highest standards 
of living in the world, provide the backbone for the production of 
goods and services for the world's largest economy, provide over 60 
million jobs, and ensure the United States can protect its national 
security interests. Infrastructure will remain one of the top priority 
targets for terrorists desiring to damage the nation's economy and 
incite fear in the minds of the American people.
    While the possibility of large-scale attacks similar to 9/11 remain 
significant, it is also possible likely that terrorists will employ 
smaller scale operations such as the suicide bombings prevalent in 
Israel. Terrorists understand that the cumulative effect of many small-
scale operations--that are easier to plan and conduct--can be just as 
effective as large-scale attacks in their overall impact on Americans' 
sense of security in their own country and, especially, at United 
States facilities overseas.
    IAIP's budget relies on the expectation of two emerging trends: 
First, the nature and complexity of threats will increase; and, second, 
our national infrastructure components will become more complex and 
interdependent. These trends will result in more demands on the 
Department and IAIP to anticipate terrorist intentions, tactics and 
capabilities, and to mitigate risks and vulnerabilities for the 
protection of the United States and its citizens.
    For these reasons, the President's fiscal year 2005 budget request 
for IAIP is structured around the following major program areas: Threat 
Determination and Assessments, Infrastructure Vulnerabilities and Risk 
Assessments, Information Warnings and Advisories, Remediation and 
Protective Actions, Outreach and Partnerships, National Communications 
System, Competitive Analysis and Evaluations, National Plans and 
Strategies, and the Homeland Security Operations Center.
Threat Determination and Assessment ($21.943 Million)
    IAIP's Threat Determination and Assessment program is designed to 
detect and identify threats of terrorism against the United States 
homeland; assess the nature and scope of these terrorist threats; and 
understand terrorist threats in light of actual and potential 
vulnerabilities within critical infrastructures and/or key assets. 
Addressing these issues requires the IAIP Directorate to improve on its 
existing set of threat analysts and analytical tools by hiring and 
training additional highly skilled threat analysts; acquiring and 
fielding new analytical tools and technologies to assist in assessing 
and integrating information; and deploying secure communications 
channels that allow for the rapid exchange of information and 
dissemination of analytical results.
    These improvements will be used for multiple purposes, including: 
(1) providing analysis and assessments of the current threat picture as 
it relates to critical infrastructure; (2) developing actionable 
intelligence for Federal, State, and local law enforcement; (3) issuing 
warnings at all levels from the Federal Government to the private 
sector; and (4) supporting efforts to identify and coordinate effective 
countermeasures.
    The President's Budget requests $21.943 million for continued 
support of on-going activities to continually form terrorist threat 
situational awareness, execute the functions outlined above, and focus 
on information sharing and coordination within DHS as well as in the 
Intelligence Community and other external stakeholder communities. 
These capabilities enhance the performance of two critical functions in 
protecting the homeland. First, it offers the United States Government 
the ability to integrate, synchronize, and correlate unique sources of 
information relating to homeland security, emanating from traditional 
and non-traditional (e.g., State and local governments, private 
industry) sources. Second, the IAIP Directorate is positioned to 
integrate knowledge of potential terrorist threats with an 
understanding of exploitable infrastructure vulnerabilities, resulting 
in a value-added profile of national risk that transcends traditional 
threat and vulnerability assessments.
    Funding in this area is targeted to increase the IAIP Directorate's 
technical competencies by training analysts and equipping IAIP with the 
most advanced technologies and tools. The training, tools and 
technologies will be utilized in four primary areas:
  --Model Terrorist Organization.--Developing a detailed understanding 
        of terrorist organization capability with supporting materials 
        and connectivity to interpret and predict threats.
  --Develop Terrorist Capabilities Baseline.--Developing a detailed 
        understanding of terrorist capabilities baseline with 
        supporting materials and connectivity to interpret and predict 
        threats.
  --Collaboration and Fusion.--Expanding collaboration and fusion 
        efforts from DHS to internal components, and out to an extended 
        customer base.
  --Analysis Coordination.--Spearheading the effort to build a 
        collaborative and mutually supporting analysis coordination 
        schematic for DHS, and ensure that it incorporates others 
        (TTIC, TSC, and the Intelligence Community) into a ``community 
        of interest'' approach for understanding domestic terrorist 
        threats.
Infrastructure Vulnerability and Risk Assessment ($71.080 million)
    The Homeland Security Act directs the IAIP Directorate to carry out 
comprehensive assessments of the vulnerabilities of the critical 
infrastructure and key assets of the United States. As such, the IAIP 
Directorate serves as the focal point for coordination between the 
Federal Government, critical infrastructure owners and operators, and 
State and local governments for the sharing of information and the 
planning for response to crisis events affecting infrastructures.
    The fiscal year 2005 President's Budget requests $71.080 million to 
fund the development of a comprehensive National infrastructure risk 
analysis and profile (e.g., high value/high probability of success 
targets); development of analytic tools to evaluate critical 
infrastructure and key assets; and the coordination and development of 
a National threat vulnerability and asset database to access, 
integrate, correlate, and store threat and vulnerability information.
    These mission areas will be enable IAIP to identify potential risks 
caused by infrastructure interdependencies, and determine the potential 
consequences of an infrastructure failure due to a terrorist attack. 
Ultimately, the intent of these efforts is to strengthen the 
capabilities of the IAIP Directorate and each critical infrastructure 
to provide near real-time notification of incidents; enhance the 
ability of the IAIP Directorate to assess the impact of incidents on 
critical infrastructure and key assets; to assess collateral damage to 
interdependent infrastructure; and create tools and processes to 
enhance infrastructure modeling and risk assessment capabilities.
    The fiscal year 2005 budget request for infrastructure 
vulnerability and risk assessment is divided into three areas:
  --National Infrastructure Risk Analysis.--Funding in this area 
        supports the development of comprehensive risk and 
        vulnerability analyses on a national scale. These analyses are 
        cross-sector in nature, focusing on problems affecting multiple 
        infrastructures, both physical and cyber-related. As assigned 
        in the Homeland Security Act and HSPD-7, the IAIP Directorate 
        will continue to leverage and develop new techniques to map 
        data provided by threat analyses, provide consequence analysis, 
        and create vulnerability assessment teams based on the nature 
        of the indicators or incidents. The goal is to produce timely, 
        actionable information that is more meaningful to industry. A 
        portion of this funding also supports the direct involvement of 
        critical infrastructure sector experts to supplement risk 
        analysis efforts and to gain a better understanding of the 
        sector's core business and operational processes. In addition, 
        a portion of this funding is utilized for exploration and to 
        pilot innovative methodologies to examine infrastructure 
        vulnerabilities and interdependencies.
  --Analytic Tools Development and Acquisition.--The IAIP Directorate 
        will continue to collaborate with the Science and Technology 
        (S&T) Directorate to acquire the most advanced tools and 
        database designs available to better understand the 
        complexities of interdependent systems and for translating vast 
        amounts of diverse data into common and usable information for 
        decision-makers, analysts, and infrastructure operators. Such 
        capabilities include data-logging systems, modeling and 
        simulation, data mining, and information correlation. Funding 
        is targeted toward developing dynamic and multi-faceted tools 
        designed to expand access to needed information.
  --National Threat/Vulnerability/Asset Databases.--The funding level 
        requested for this activity in the fiscal year 2005 budget is 
        based on the recognition of the data intensive nature, scale 
        and complexity of analyzing infrastructure vulnerability 
        issues. The intent is to develop and maintain databases that 
        allow the IAIP Directorate to provide its stakeholders with up-
        to-date information on threats and vulnerabilities. 
        Specifically, the IAIP Directorate is continuing to coordinate 
        and direct the development of the primary database of the 
        Nation's critical infrastructures through a collaborative 
        process involving all stakeholders; maintain data on the risks 
        posed to specific facilities and assets (and the probability of 
        attack and associated consequences for homeland, national, and 
        economic security should an attack occur); and develop, 
        operate, and manage integrated data warehouses--in full 
        compliance with the Department's privacy policies--that contain 
        comprehensive all-source threat, vulnerability, and asset data.
Information and Warning Advisories ($59.807 Million)
    One of the most visible aspects of the DHS mission lies in the 
management and administration of the Homeland Security Advisory System, 
the communications of threat condition status to the general public, 
and the continuous around-the-clock monitoring of potential terrorists 
threats. Specifically, there are three key information and warning 
activities that help support the Homeland Security Advisory System and 
other efforts to alert key Departmental leadership, national leaders 
and the general public: (1) tactical indications and warning and the 
associated warning advisory preparation and issuance; (2) information 
requirements management; and (3) integrated physical and cyber 
infrastructure monitoring and coordination.
    The fiscal year 2005 President's Budget requests $59.807 million to 
maintain the information and warning program. In addition to 
continuously operating a 24<greek-e>7 capability, the information and 
warning program area will provide surge capabilities for the HSOC and 
with other Directorates during heightened states of alert or in 
response to specific incidents. The relevant fiscal year 2005 budget 
request is divided into three primary areas:
  --Tactical Indications and Warning Analysis/Warning Advisory 
        Preparation and Issuance.--Funding in this area supports 
        submission of collection requests for threat information to the 
        Intelligence Community and law enforcement, disseminating 
        guidance to DHS components, developing analyses on the nature 
        and scope of the threats, and identifying potential terrorist 
        targets within the United States. A program priority is the 
        continued to development of tools and technologies to assist 
        our analysts to interpret, integrate, and catalogue indicators, 
        warnings, and/or actual events and to provide Departmental and 
        national leaders situational awareness. Another priority is the 
        need to publish threat advisories, bulletins, and warnings at 
        different levels of classification prior to distribution to the 
        relevant stakeholders. Threat publications are detailed and 
        disseminated in a timely fashion, portraying the nature, scope, 
        and target of the threat. Ultimately, this information provides 
        the basis for determinations to change the threat condition.
  --Information Requirements Management.--Information related to 
        threats and critical infrastructure vulnerabilities are 
        collected, stored, and protected within a diverse set of 
        locations and sources, spanning all levels of government 
        (Federal, State, and local) and including intelligence, 
        proprietary and public sources. Funding in this area supports 
        the technologies necessary to search within those diverse 
        databases to identify, distill, and/or acquire mission-critical 
        information. Program funding supports efforts to coordinate 
        information requests and tasks emanating from within other 
        parts of IAIP, other DHS Directorates, the Intelligence 
        Community, law enforcement, State and local governments, and 
        the private sector. In addition, a portion of these funds is 
        used to supplement the information technology structure to 
        accomplish these tasks efficiently and effectively through the 
        use of leading-edge capabilities. This effort ensures that all 
        information users are able to access all available and relevant 
        data.
  --Integrated Physical and Cyber Infrastructure Monitoring and 
        Coordination.--Intelligence and warning staff monitoring and 
        coordination efforts ensure that threat and critical 
        infrastructure issues are adequately addressed and represented. 
        In addition, these efforts coordinate incident response, 
        mitigation, restoration, and prioritization across critical 
        sectors in conjunction with the other relevant DHS components 
        (e.g., Emergency Preparedness and Response Directorate).
Remediation and Protective Actions ($345.738 Million)
    The IAIP Directorate has established a national Critical 
Infrastructure Protection program that leverages stakeholder input at 
the Federal, State, and local level and across the private sector to 
provide the best and most cost-effective protective strategies for ``at 
risk'' infrastructure and facilities. Through this program, the IAIP 
Directorate provides a broad range of services including on-site 
planning advice, technical and operational training programs, 
assistance in identifying vulnerabilities, and development and sharing 
of best practices. Activities in this area also include security 
efforts to protect infrastructure and assets from cyber attacks (e.g., 
malicious software, distributed denial-of-service attacks).
    Specifically, the fiscal year 2005 President's Budget requests 
$345.738 million, for remediation and protective actions divided into 
the following five areas:
  --Critical Infrastructure and Key Asset Identification.--The Homeland 
        Security Act directs the IAIP Directorate to recommend measures 
        necessary to protect the critical infrastructure of the United 
        States. One key step in this process is funding a national 
        program focused on identifying critical infrastructure and 
        assets and assessing potential risks of successful attacks to 
        those assets. By understanding the full array of critical 
        infrastructure facilities and assets, their interaction, and 
        the interdependencies across infrastructure sectors, IAIP is 
        able to forecast the national security, economic, and public 
        safety implications of terrorist attacks and prioritize 
        protection measures accordingly. Moreover, the process of 
        identifying and prioritizing assets in this manner creates a 
        common overarching set of metrics that consist of the 
        individual attributes of specific infrastructure sectors.
  --Critical Infrastructure Vulnerability Field Assessments.--The 
        Directorate coordinates with all relevant Federal, State and 
        local efforts to identify system vulnerabilities and works 
        closely with the private sector to ensure vulnerability field 
        assessment methodologies are effective, easy to use, and 
        consistently applied across sectors. Funding is targeted at the 
        need to conduct and coordinate specialized vulnerability 
        assessments by DHS teams, in conjunction with teams from other 
        Federal or State agencies and private sector companies as 
        appropriate, for the highest priority critical infrastructures 
        and assets. The intent of these efforts is to catalogue 
        specific vulnerabilities affecting the highest priority 
        terrorist targets, thereby helping guide the development of 
        protective measures to harden a specific facility or asset. A 
        nationwide vulnerability field assessment program is currently 
        underway leveraging the expertise of the IAIP Directorate, 
        other agencies, and the private sector to ensure cross-sector 
        vulnerabilities are identified and that sound, informed 
        decisions will be reached regarding protective measures and 
        strategies.
  --Infrastructure and Key Asset Protection Implementation.--Due to the 
        vast geographic size of the United States and diverse operating 
        environment for each infrastructure sector, protection 
        strategies must start at the local level and then be applied 
        nationally as needed. Priorities for protection strategies are 
        based on regional, State, and local needs and on the need for 
        cross-sector coordination and protective actions within those 
        geographic boundaries. The budget request reflects the need for 
        the IAIP Directorate to continue the development of a flexible 
        set of programs to assist in the implementation of protective 
        measures. Examples include coordinating with other Federal and 
        State agencies and the private sector to: (1) ensure the 
        detection of weapons of mass destruction material is considered 
        in the development of protection plans; (2) disrupt attack 
        planning by taking low cost actions that make information 
        collection and surveillance difficult for terrorists; (3) 
        defend the most at risk critical infrastructure facilities and 
        key assets throughout the country above the level of security 
        associated with industry best practices; and (4) develop a 
        nationally-integrated bombing response capability similar to 
        that of the United Kingdom. DHS funding in these areas focuses 
        on high value, high probability targets and will take the form 
        of ``joint ventures'' with State and local governments, 
        regional alliances, and the private sector.
  --Cyberspace Security.--Consistent with the Homeland Security Act and 
        the National Strategy to Secure Cyberspace, a key element of 
        infrastructure protection, both in the public and private 
        sectors, is to ensure the continued healthy functioning of 
        cyberspace, which includes the cyber infrastructure and the 
        cyber dependencies in the critical infrastructure sectors. The 
        IAIP Directorate recognizes that cyberspace provides a 
        connecting linkage within and among many infrastructure sectors 
        and the consequences of a cyber attack could cascade within and 
        across multiple infrastructures. The result could be widespread 
        disruption of essential services, damaging our national 
        economy, and imperiling public safety and national security. 
        The budget request supports efforts to capitalize on existing 
        capabilities of the Directorate, and investing in new 
        capabilities to monitor, predict, and prevent cyber attacks and 
        to minimize the damage from and efficiently recover from 
        attacks. As the manager responsible for a national cyber 
        security program, the IAIP Directorate provides direct funding 
        to support: (1) creating a national cyberspace security threat 
        and vulnerability reduction program that includes a methodology 
        for conducting national cyber threat and vulnerability risk 
        assessments; (2) strengthening a national cyberspace security 
        readiness system to include a public-private architecture for 
        rapidly responding to and quickly disseminating information 
        about national-level cyber incidents-including the Cyber Alert 
        Warning System; (3) expanding and completing the warning and 
        information network to support crisis management during cyber 
        and physical events; (4) implementing a national cyberspace 
        security awareness and training program; (5) developing 
        capabilities to secure the United States Government in 
        cyberspace that include guidelines for improving security 
        requirements in government procurements; (6) strengthening the 
        framework for national security international cyberspace 
        security cooperation that focuses on strengthening 
        international cyber security coordination and; (7) the Global 
        Early Warning Information System, which monitors the worldwide 
        health of the Internet through use of multiple data sources, 
        tools, and knowledge management to provide early warning of 
        cyber attacks.
  --Protection Standards and Performance Metrics.--Working in 
        collaboration with the National Institute of Standards and 
        Technology as appropriate, the IAIP Directorate is developing 
        objective data for systems protection standards and performance 
        measures. Several sectors currently use threat-based exercise 
        approaches to validate key elements of their protection 
        efforts. The budget request in this area will focus on 
        continually improving and validating sector plans and 
        protective programs and providing training and education 
        programs for public and private sector owners and operators of 
        critical infrastructure and/or key assets.
Outreach and Partnership ($40.829 Million)
    The private sector and State and local government own and operate 
more than 85 percent of the Nation's critical infrastructures and key 
assets. Consequently, public-private cooperation is paramount, and 
without such partnerships, many of our Nation's infrastructures and 
assets could be more susceptible to terrorist attack. The IAIP 
Directorate is responsible for cultivating an environment conducive for 
public and private partnerships, developing strategic relationships 
underlying those partnerships, and coordinating and supporting the 
development of partnerships between the Directorate and State and local 
government, private industry, and international communities for 
national planning, outreach and awareness, information sharing, and 
protective actions.
    The fiscal year 2005 President's Budget requests $40.829 million to 
build and maintain a sound partnership foundation. It is imperative 
that the Department is familiar with the issues confronting the private 
sector, State and local governments, Federal sector specific agencies 
for critical infrastructure, and our international partners. 
Specifically, strong relationships must be maintained with the 
following communities of interest:
  --State and Local Governments.--Establishing and maintaining 
        effective working relationships with State and local officials 
        is a fundamental part of the DHS mission to effectively share 
        information at unprecedented levels. IAIP is working with DHS' 
        Office of State and Local Government Coordination to assess the 
        information sharing and dissemination capabilities that exist 
        nationwide in order to leverage existing capabilities and 
        supplement capacity where needed.
  --Private Sector.--The Private Sector is another key partner in 
        developing a nationwide planning, risk assessment, protective 
        action, and information sharing strategy. Engaging the business 
        community and making a business case for investment in 
        protective and remedial strategies is key to our success.
  --Academia.--DHS will continue to develop, coordinate, and support 
        partnerships with academic and other educational institutions. 
        These partnerships will encourage and coordinate academic and 
        other workforce development to assure availability of quality 
        IT security professionals, and encourage curriculum development 
        to integrate critical infrastructure protection (security) as 
        normal elements of professional education.
  --Advisory Bodies.--DHS will also provide support to Presidential 
        advisory bodies and cross-sector partnerships (including the 
        National Infrastructure Advisory Council and the Partnership 
        for Critical Infrastructure Security.)
  --International.--This funding will also support and enhance 
        partnerships with the international community, working with and 
        through DHS Office of International Affairs and the State 
        Department, collaborating with the United States State 
        Department on infrastructure protection activities. This 
        includes bilateral discussions and activities on risk 
        assessment and protective actions, information sharing, 
        exercises and training. Of particular focus is the IAIP 
        component of the Smart Borders implementation with Canada and 
        Mexico. We will continue our role as the lead Federal Agency 
        Role for the Information and Telecommunications Sectors. The 
        Directorate will continue to partner with representatives from 
        those industries composing the Information and 
        Telecommunications sector and to educate members of the sector, 
        develop effective practices, develop and implement intra-sector 
        and cross-sector risk assessments, and work with other sectors 
        on identifying and addressing risks associated with 
        interdependencies.
  --Cyber.--We will expand the platform established by the Cyber Alert 
        Warning System to include awareness and education programs for 
        home users of computers and computer professionals in 
        partnership with other Federal agencies and industry. 
        Additionally, within private industry, our partnership and 
        outreach efforts will involve the engagement of risk management 
        and business educational groups to implement strategies to 
        elevate senior management understanding of the importance of 
        investment in cyber security.
National Communications System ($140.754 Million)
    The national telecommunications infrastructure supports multiple 
mission-critical national security and emergency preparedness (NS/EP) 
communications for the Federal Government, State and local governments, 
and the private industry. The security and availability of the 
telecommunications infrastructure is essential to ensuring a strong 
national, homeland, and economic security posture for the United 
States. The National Communications System (NCS) is assigned NS/EP 
telecommunications responsibilities through Executive Order 12472, 
Assignment of National Security and Emergency Telecommunications 
Functions, which include: administering the National Coordinating 
Center for Telecommunications to facilitate the initiation, 
coordination, restoration, and reconstitution of NS/EP 
telecommunications services or facilities under all crises and 
emergencies; developing and ensuring the implementation of plans and 
programs that support the viability of telecommunications 
infrastructure hardness, redundancy, mobility, connectivity, and 
security; and serving as the focal point for joint industry-government 
and interagency NS/EP telecommunications planning and partnerships.
    The fiscal year 2005 President's Budget requests $140.754 million 
for the capabilities and analytic tools necessary to support the 
expansion of NS/EP telecommunications programs and activities. The 
fiscal year 2005 funding level ensures a continuation of the NCS 
mission and legacy NS/EP telecommunications programs and assets. 
Specifically, the fiscal year 2005 budget request for the NCS is 
divided into four areas:
  --Industry-Government and Interagency Processes.--The NCS has 
        cultivated and expanded its relationships with the 
        telecommunications industry and other Federal agencies to 
        promote joint planning, operational activities, coordination, 
        and information sharing. The primary industry partnership is 
        the President's National Security Telecommunications Advisory 
        Committee (NSTAC), which is comprised of 30 industry leaders 
        representing various elements of the telecommunications 
        industry. The NSTAC and its subordinate body, the Industry 
        Executive Subcommittee (IES), provides industry-based analyses 
        and perspectives on a wide range of NS/EP telecommunications 
        issues and provides policy recommendations to the President for 
        mitigating vulnerabilities in the national telecommunications 
        infrastructure. Paralleling this industry relationship is the 
        interagency process involving the NCS Committee of Principals 
        and its subordinate body, the Council on Representatives, which 
        facilitate the NS/EP telecommunications activities of the 23 
        Federal agencies constituting the NCS.
  --Critical Infrastructure Protection Programs.--Leveraging the 
        industry relationships described above, the NCS manages several 
        network security and CIP-related programs, including: (1) the 
        National Communications Center (NCC), a joint industry- and 
        Government-staffed organization collocated within the NCS and 
        serves as the operational focal point for the coordination, 
        restoration, and reconstitution of NS/EP telecommunications 
        services and facilities; (2) the Telecommunications Information 
        Sharing and Analysis Center, which is the focal point for the 
        generation, compilation, and sharing of cyber warning 
        information among the telecommunications industry; (3) the 
        Government and National Security Telecommunications Advisory 
        Committee Network Security Information Exchanges (NSIEs), which 
        meet regularly and share information on the threats to, 
        vulnerabilities of, and incidents affecting the systems 
        comprising the public network; (4) the Critical Infrastructure 
        Warning Information Network (CWIN), which is designed to 
        facilitate the dissemination of information and warnings in the 
        event of a cyber attack; (5) Training and Exercises, which 
        helps ensure the readiness and availability of qualified staff 
        to perform the operational duties of the NCS associated with 
        Emergency Support Function #2--Telecommunications of the 
        Federal Response Plan; (6) Operational Analysis, which develops 
        and implements tools and capabilities to conduct analyses and 
        assessments of the national telecommunications infrastructure 
        and its impact on NS/EP services; (7) NCS also supports the 
        Global Early Warning Information System, which monitors the 
        worldwide Internet health through use of multiple data sources, 
        tools, and knowledge management to provide early warning of 
        cyber attacks, (8) Shared Resources (SHARES) High Frequency 
        (HF) Radio Program, developed by the NCS and in continuous 
        operation since being approved by the Executive Office of the 
        President in the NCS Directive 3-3 of January 1989. The SHARES 
        program makes use of the combined resources and capabilities of 
        existing Federal and federally affiliated HF radio stations on 
        a shared, interoperable basis to provide critical backup 
        communications during emergencies to support national security 
        and emergency preparedness (NS/EP) requirements.
  --Priority Telecommunications Programs.--The NCS is continuing a 
        diverse set of mature and evolving programs designed to ensure 
        priority use of telecommunications services by NS/EP users 
        during times of national crisis. The more mature services--
        including the Government Emergency Telecommunications Service 
        (GETS) and the Telecommunications Service Priority (TSP)--were 
        instrumental in the response to the September 11th attacks. 
        Fiscal year 2005 funding enhances these programs and supports 
        the development of the Wireless Priority Service (WPS) program 
        and upgrade to the Special Routing Arrangement Service (SRAS). 
        Specifically, priority service programs include: (1) GETS, 
        which offers nationwide priority voice and low-speed data 
        service during an emergency or crisis situation; (2) WPS, which 
        provides a nationwide priority cellular service to key NS/EP 
        users, including individuals from Federal, State and local 
        governments and the private sector; (3) TSP, which provides the 
        administrative and operational framework for priority 
        provisioning and restoration of critical NS/EP 
        telecommunications services; (4) SRAS, which is a variant of 
        GETS to support the Continuity of Government (COG) program 
        including the reengineering of SRAS in the AT&T network and 
        development of SRAS capabilities in the MCI and Sprint 
        networks, and; (5) the Alerting and Coordination Network (ACN) 
        which is an NCS program that provides dedicated communications 
        between selected critical government and telecommunications 
        industry operations centers.
  --Programs to Study and Enhance Telecommunications Infrastructure 
        Resiliency.--The NCS administers and funds a number of programs 
        focusing on telecommunications network resiliency, security, 
        performance, and vulnerabilities, including: (1) the Network 
        Design and Analysis Center, which is a set of tools, data sets, 
        and methodologies comprising the Nation's leading commercial 
        communications network modeling and analysis capability that 
        allows the NCS to analyze the national telecommunications and 
        Internet infrastructures; (2) the NS/EP Standards program, 
        which works closely with the telecommunications industry to 
        incorporate NS/EP requirements in commercial standards and 
        participates in national and international telecommunications 
        standards bodies; (3) the Converged Networks Program, which 
        investigates vulnerabilities and mitigation approaches in 
        future technologies and networks (specifically Internet 
        Protocol-based networks); (4) the Technology and Assessment 
        Laboratory, which provides the ability to evaluate penetration 
        testing software, modeling tools, various operating systems and 
        protocols, hardware configurations, and network 
        vulnerabilities, and; (5) the Routing Diversity effort, which 
        is developing a communications routing diversity methodology to 
        analyze a facility's level of routing diversity and is 
        evaluating alternative technologies which can provide route 
        diversity, and (6) the NCS, through various associations and 
        other activities is involved in a variety of International 
        Activities (NATO, CCPC, CEPTAC, and Hotline) which provides 
        technical subject matter expertise, guidance, and coordination 
        on CIP issues affecting the telecommunications infrastructure 
        in numerous international forums on behalf of the United States 
        Government.
Competitive Analysis and Evaluation ($18.868 Million)
    The Competitive Analysis and Evaluation program ensures that IAIP 
products and services are tested, accurate, based on sound assumptions 
and data, and ultimately, offer the highest quality, depth, and value 
to IAIP customers. The fiscal year 2005 President's Budget requests 
$18.868 million to provide for the unbiased, objective analyses and 
evaluation of IAIP findings, assessments, and judgments through three 
functional areas: Risk Assessment Validation, Evaluation, and Exercises 
and Methodologies.
  --Risk Assessment Validation.--Funding is used to establish and field 
        physical and cyber target risk analysis teams that employ ``red 
        team'' techniques to evaluate measures taken by other IAIP 
        components to protect key assets and critical infrastructure. 
        The red teams emulate terrorist doctrine, mindsets, and 
        priorities and employ non-conventional strategies to test and 
        evaluate IAIP planning assumptions.
  --Evaluation.--Funding supports several initiatives, including the 
        IAIP Product and Process Evaluation, which involves conducting 
        independent, objective evaluations of IAIP products and 
        processes and to assist IAIP divisions to develop products that 
        offer value to IAIP customers. The second is IAIP Customer 
        Satisfaction, which evaluates customer satisfaction with IAIP 
        products and services to ensure they are responsive to current 
        customer needs. Funding in this area provides for electronic 
        and non-electronic feedback surveys, field visits, and 
        conferences.
  --Exercises and Methodologies.--Coordinate and manage interagency 
        exercises and tabletops that test both DHS and IAIP policies, 
        processes, procedures, capabilities, and areas of 
        responsibilities. Participating in and conducting after action 
        reviews of exercises provides invaluable experience and 
        feedback related to capabilities, connectivity, and information 
        sharing during a crisis event. Investment in this area informs 
        the Department's decision as to where improvements are needed. 
        This funding also supports examining and instituting advanced 
        methodologies such as alternate hypotheses, gaming, modeling, 
        simulation, scenarios, and competitive analyses to ensure IAIP 
        products are accurate, sophisticated, and of the highest 
        quality and value to customers.
National Plans and Strategies ($3.493 Million)
    Critical to ongoing national efforts to protect and secure the 
homeland are updating, revisiting, coordinating the development, and 
monitoring the implementation of National Plans and Strategies. The 
fiscal year 2005 President's Budget requests $3.493 million to support 
activities by coordinating, developing, and publishing contingency 
planning documents for critical infrastructures (as called for in the 
National Strategy to Secure Cyberspace), monitoring progress against 
those documents, and producing an annual report.
Homeland Security Operations Center ($35.0 Million)
    The HSOC maintains and shares domestic situational awareness; 
coordinates security operations; detects, prevents, and deters 
incidents; and facilitates the response and recovery for all critical 
incidents. The HSOC is the focal point for sharing information across 
all levels of government and the private sector.
    The HSOC facilitates the flow of all-source information and 
develops products and services including: (1) the daily Homeland 
Security Situation Brief for the President, (2) reports and briefs to 
law enforcement, the Intelligence Community, other Federal and State 
agencies and industry partners, (3) warnings and alerts to individual 
responder agencies and the public as appropriate, and (4) coordinated 
response when crises do occur. The HSOC concept is to draw from the 
many distributed systems and centers that are currently dedicated to 
different missions and optimize their contribution to homeland 
security.
    HSOC funding will help with the time efficiency of issuance of 
information and warning advisories through increased operations 
efficiency brought about by facility improvements.
New Programs
    In the fiscal year 2005 IAIP budget, as a part of an interagency 
effort to improve the Federal Government's capability to rapidly 
identify and characterize a potential bioterrorist attack, the 
President requst $11 million for a new biosurveillance iniative. This 
increase provides for real-time integration of biosurveillance data 
harvested through the Centers for Disease Control (CDC), Food and Drug 
Administration (FDA), United States Department of Agriculture (USDA) 
and DHS Science and Technology (S&T) Directorate with terrorist threat 
information analyzed at IAIP. Currently, a finding from one source of 
surveillance exists in isolation from relevant surveillance from other 
sectors, making it difficult to verify the significance of that finding 
or to recommend appropriate steps for response. Integrating the 
information in IAIP, and analyzing it against the current threat 
picture will inform effective homeland security decision-making and 
speed response time to events.
    This interagency initiative, includes DHS's ongoing BIOWATCH 
environmental biodetection program, Health and Human Services' (HHS) 
proposed BIOSENSE program, HHS' and United States Department of 
Agriculture's (USDA) ongoing joint separate food security surveillance 
efforts, and USDA's agricultural surveillance efforts. This DHS-led 
effort will promote data sharing and joint analysis among these sectors 
at the local, State, and Federal levels and also will establish a 
comprehensive Federal-level multi-agency integration capability to 
rapidly compile these streams of data and preliminary analyses and 
integrate and analyze them with threat information
Conclusion
     In summary, the fiscal year 2005 budget request provides the 
resources to enable the IAIP Directorate to manage and grow in its 
mission of securing the homeland. I look forward to working with you to 
accomplish the goals of this department and the IAIP directorate.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

                    NATIONAL BIOLOGICAL SURVEILLANCE

    Senator Cochran. Thank you, General Libutti.
    Now, looking at the budget request, I noticed that in the 
case of the National biological-surveillance program, the 
budget proposes to establish a group lead by the Department of 
Homeland Security and including the Department of Health and 
Human Services, and the Department of Agriculture, to create a 
National biological surveillance system. Funding for this 
initiative is $279 million Government-wide. The Department of 
Homeland Security's request for this initiative is $129 million 
for the roles carried out by these directorates that you 
manage.
    Secretary Libutti, how will the Information Analysis and 
Infrastructure Protection Directorate work to coordinate its 
efforts with the Department of Health and Human Services and 
the Department of Agriculture to integrate biological 
surveillance data, and verify a chemical or biological attack?
    General Libutti. Thank you, sir.
    Let me start by simply highlighting the IAIP funds and 
support of this inter-agency effort. And I will tell you that 
my partner sitting here with me, to my right, Dr. McQueary, is 
certainly a partner for me in this effort.
    For us, it's about $11 million. And you touched on a 
critical point. Our job in support of this major inter-agency 
effort is to work as a repository to gather the data heretofore 
across the Federal Government, which is not indeed gathered, 
and looked at it with a view towards providing situational 
awareness, and as an extension, actions that need to be taken 
by the Federal Government, and by extension to partners at the 
State and local level.
    So the bottom line for me in terms of how we do this, is I 
do it in complete support and cooperation with Dr. McQueary, 
and in concert with other members of the inter-agency effort. 
The bottom line is it's about gathering the information or data 
in a collaborative way, and in a way that represents what is 
going on across the Federal Government.
    Senator Cochran. What would happen to this initiative if 
funding is not provided to the Department of Agriculture or 
Department of Health and Human Services? Would there be a 
serious breakdown in the capabilities of our government to deal 
with these threats?
    General Libutti. My sense, sir, is that if there were 
indeed a breakdown, it wouldn't be in the execution piece of 
their mission or their responsibility. It would be more broadly 
speaking, in what we have all learned is very critical in this 
fight against terrorism, and that is to truly work in concert 
to look at the information or databases that are available and 
simply haven't been collected in a cohesive way. To look at 
them and to ask, what does that mean in terms of assessing the 
threat, assessing our own capability, and then taking 
appropriate action.
    Certainly, the mission would still be accomplished, I 
simply think it would not be a wise move in terms of the 
greater value added when you look at all of this data, and then 
there is one person responsible for bringing it together.

                        ENVIRONMENTAL MONITORING

    Senator Cochran. Secretary McQueary, your directorate's 
role in biological surveillance includes an increase of $65 
million to expand environmental monitoring activities in the 
cities determined to be at the highest risk of terrorist 
attack. Can you give us any further details about the chemical 
and biological warning activities that are in place now, and 
what this increased funding will be used for if it is made 
available to you by the Congress?
    Dr. McQueary. The increased funding will permit us to 
increase the number of sensors in high-risk urban areas, to be 
able to make the biological detections using a system called 
BioWatch. That system has been in place since about a year ago 
in January, when we first began deploying those systems.
    And of course, you know we work very closely with EPA, as 
well as Health and Human Services, in being able to do that 
work.
    Senator Cochran. What do you think you will be able to 
accomplish if you get this increased funding, in terms of new 
advances or the development of new technologies or systems?
    Dr. McQueary. The $65 million is to allow more deployments 
of the capabilities than we currently have, thereby increasing 
the number of monitoring stations in the various urban areas 
where we have these systems already deployed, as well as 
increasing the number of locations, city locations, if you 
will, where we have them deployed.
    So it fundamentally gives us a better, real--not real time-
but a better monitoring capability so that we can make a 
determination should there be a biological attack of some sort.
    We have approximately, I would say, an average of ten 
sensors per geographical location. Now that is an estimate but 
I can give you precise numbers if you need them. With the 
increase we will effectively be able to double the number of 
sensors where we are and provide better coverage, if you will.

                            COUNTERMEASURES

    Senator Cochran. There is also the BioShield initiative, 
which is involved in deploying countermeasures against 
biological terror attacks. How is the Science and Technology 
Directorate participating in the development of 
countermeasures?
    Dr. McQueary. Well, of course, the development of 
countermeasures is in our charter, and we work in the chemical, 
biological, radiological, nuclear, and high-explosives areas. 
So in each of those areas we have ongoing research being 
managed either in the national laboratories, or in private 
industry or universities, which are three components of the 
country's scientific support that we call upon regularly. So, 
we do have broad agency announcements that have been put out 
through the HSARPA organization, for chemical, and biological 
sensors, as well as in the radiological and nuclear area.
    And, if I may, the primary focus in all of the sensor 
development is to do things faster. Because, for example, 
BioWatch, we do a sample every day, but it takes perhaps a day 
to be able to do the assays on that sample, and therefore there 
could be 48-hours. The ultimate system that we would someday 
want to get to, and, some of our research, I think will lead in 
that direction, is to be able to do the sampling at the site, 
be able to do the assays, and then telemetry the information 
from that site to a central command control area. They would be 
working, obviously, very closely with General Libutti's people 
to make a determination that something has happened, and 
therefore, corrective action would be taken.
    Senator Cochran. Does this budget request include research 
and development of medical countermeasures across the agencies 
portfolios, or does the Science and Technology Directorate 
serve only in an advisory role?
    Dr. McQueary. The medical countermeasures is the 
responsibility of Health and Human Services. We serve in an 
advisory role in that area, and have people that meet regularly 
with people in Health and Human Services to discuss programs 
that should be implemented.
    Senator Cochran. What assessments have been carried out by 
the Information Analysis and Infrastructure Protection 
Directorate of our vulnerability to biological attacks that 
will guide decisions regarding the investments that should be 
made to develop, produce and purchase vaccines or other 
medications for the Nation's biological defense.
    General Libutti. The work that we have done since I have 
been on board, since late June or early July, sir, has been to 
work with Dr. McQueary and his folks, conduct surveys and 
visits across the country to key high-threat areas, to get as 
smart as we can relative to the threats posed by the biological 
and chemical threats, and to conduct appropriate analysis 
including developing models to give us a strong indication of 
what the impact of such an attack would be.
    We have recently developed a program that we have briefed 
to high officials in our government, in the Administration, 
that outlines across the board threats in aviation, 
transportation, and biological, and chemicals weapons. What we 
have developed is still a work in progress. But it is a good 
model. We've looked at the impact and consequences of various 
events particularly across major urban areas.
    So those are the kinds of activities that we have been 
engaged in, in concert with Dr. McQueary and other members of 
the inter-agencies; specifically, Health and Human Services, 
CDC, and others who have a primary interest in the impact of 
such an attack.

                INTEROPERABLE COMMUNICATIONS AND SAFECOM

    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Secretary Ridge has laid out the department's goals, and he 
stated that one of his highest priorities was interoperable 
communication and equipment. And he set a deadline of December 
2004, for implementing a short-term solution, that will allow 
first responders to communicate with each other during a 
disaster. Dr. McQueary, your directorate is in charge of 
coordinating and promoting interoperable communications for 
public safety.
    The President's budget proposes to eliminate funding in the 
Justice Department for interoperability grants. When my staff 
asked the Justice Department why the funds were dropped from 
the budget, my staff was told that interoperability is a 
Homeland Security responsibility. Yet the President's budget 
sets aside no funds for this purpose in the Department of 
Homeland Security budget. So I ask, can you explain the short-
term solution and why no funds are requested to address this 
problem?
    Dr. McQueary. We actually do have funds requested to 
support the SAFECOM program, which is the program for which the 
Science and Technology Directorate has direct responsibility.
    Senator Byrd. How much is the request?
    Dr. McQueary. I believe, sir, $20--if I am not mistaken, 
its $22 million. I'll check behind me, and make sure I give you 
the correct number. But I believe it's $22 million for that 
effort.
    And what we expect to come out of that effort, as Secretary 
Ridge had indicated, is a set of standards that State and 
local, can use to acquire equipment, and to provided 
interoperability on what we're referring to as the penultimate 
solution, because what we will be providing is not the ultimate 
solution in interoperability. I will try to be precise in what 
I mean by that.
    There are technical capabilities today that exist in some 
companies. For example, if you think of a point electronic box, 
a box that can receive signals from many different types of 
radios, and that box can in effect convert signals from one 
radio into a protocol or a format that would be needed by 
another radio it is trying to talk to in order to permit those 
two to be able to have a communication. And, similarly, you can 
create conference calls, if that were the objective. Obviously, 
there are limits to the number of possibilities of different 
kinds that can be implemented.
    The ultimate solution, I believe, will be to move into 
software defined radios, and a considerable amount of research 
work has gone on in that area. That would be a system in which 
new radios, as they are purchased, would permit people to 
communicate with one another based upon the radio itself being 
able to recognize the different types of communication 
protocols and accomplish that.
    Senator Byrd. The SAFECOM money is not money for State and 
local governments.
    Dr. McQueary. That's----
    Senator Byrd. SAFECOM is for standards setting. To actually 
fix the problem, State and local governments need money to buy 
the interoperability equipment.
    Dr. McQueary. Excuse me.
    Senator Byrd. Yes.
    Dr. McQueary. I did not mean to imply that the $22 million 
that we have in our budget is to be used to purchase equipment. 
It is indeed the necessary effort to establish the standards. 
Of course, the State and locals will have access to grant money 
that will be provided by the Office of Domestic Preparedness. 
And what we will do, and have already done in some cases, is 
provide guiding standards by which we would expect them to 
purchase new equipment in the expenditure of that money. We see 
that as the vehicle to permit State and locals to be able to 
transition into having more interoperable capability.
    Senator Byrd. The President is proposing a cut of over $700 
million of first responder programs in the Department, and a 
cut of $1.5 billion for first responders government wide.
    The interoperability problem is yet another reason why we 
should not be cutting funding to first responders. How does the 
Department justify cutting first responder grants when the 
short term solution that the Secretary announced will cost 
several million dollars to implement?
    Dr. McQueary. If you're proposing that to me, sir, I was 
not a participant in that, and therefore, I am not in any 
position to answer the question, but I am sure that my people 
will be pleased to provide an answer to the question that you 
proposed.
    [The information follows:]
            Justification for Cutting First Responder Grants
    The President's fiscal year 2005 request includes more than $3.5 
billion to support ODP programs and activities. This represents a $3.3 
million increase over the Fiscal year 2004 request. The fiscal year 
2005 request includes funds to continue the Homeland Security Grant 
Program which includes the State Homeland Security Program at $1.4 
billion; the Law Enforcement Terrorism Prevention Program at $500 
million; and the Citizen Corps Program at $50 million. Funds are also 
provided for the continuation of the Urban Areas Security Initiative at 
$1.4 billion; the Fire Act Program at $500 million; the Emergency 
Management Performance Grants at $170 million; as well as for ODP's 
training, exercise, and technical assistance efforts.
    The continuation of these efforts, and the $3.3 million increase in 
ODP's overall request, coupled with the President's request for a 10 
percent increase in funding for DHS as a whole, provides ODP, and the 
entire Department, with the resources we require to help secure the 
Nation from acts of terrorism. The Administration and Department remain 
committed to providing our Nation's emergency prevention and response 
community the resources they need to continue to secure our Nation from 
future acts of terrorism.

                          UNIVERSITY PROGRAMS

    Senator Byrd. Your budget request includes a $38.8 million 
reduction for Homeland Security University and Fellowship 
Programs. In fiscal year 2004, this subcommittee provided $69 
million for this program, $60 million more than the President 
requested. The subcommittee expects the academic community to 
play a major role in identifying and solving problems facing 
the homeland.
    The White House has criticized Congress for earmarking 
funds for Science and Technology, and so this subcommittee 
decided not to earmark funds last year. Instead of reinforcing 
this decision, the President is proposing to cut university 
research by over 50 percent. Could you tell the subcommittee 
what the rationale may be for such a drastic cut to this 
program in fiscal year 2005?
    Dr. McQueary. This is an area in which I can assure you we 
had considerable internal debate and discussion. I would have 
to hasten to say, sir, that at some point we all work for 
someone and it was time for me to salute and say, yes, sir, I 
will try to do as much as we possibly can with the proposed 
amount of budget, and that is what we will do.
    Senator Byrd. Your budget justification notes that three 
Homeland Centers of Excellence will be selected by the end of 
fiscal year 2004. How does this funding reduction affect your 
ability to select other university centers of excellence.
    Dr. McQueary. First, the $30 million that's proposed is 
ample funding to support three University Centers of 
Excellence. We have, of course, selected one. And we plan to 
select two more this fiscal year. In fact, the necessary 
activity is well underway in order to accomplish that.
    We fund the University Centers about $5 million each, minus 
a little bit of overhead associated with managing that process. 
The balance of $15 million is completely adequate to support 
not only the hundred fellows and scholars that we have already 
approved. But also to add another hundred to that.
    In summary, $30 million supports three Centers, as well as 
200 scholars and Fellows.
    Senator Byrd. So you're saying, are you, that there will be 
two additional centers selected at the President's funding 
level?
    Dr. McQueary. I am sorry, sir.
    Senator Byrd. Are you saying that there will be two 
additional centers selected at the President's funding level?
    Dr. McQueary. Yes, sir, there will be two additional, 
bringing us to a total of three. One is in animal diseases. The 
other is in post-harvest food safety.

                           CHEMICAL DETECTORS

    Senator Byrd. In your written statement you list as an 
accomplishment of your directorate that you worked with the 
D.C. Metro System to deploy chemical detectors in the D.C. 
subway system. This is an excellent system to give Metro the 
capacity to immediately determine that the subway has been 
exposed to a chemical agent, so it knows how to effectively 
respond to the attack.
    I understand that this system is now in operation and you 
view it as an accomplishment. After the attacks of 9/11, the 
Senate approved $15 million for this pilot project. This 
funding was included at Congress's initiative, it was not 
requested by the President. In fact, the White House 
specifically objected to this funding, describing it as 
excessive.
    Is there any funding in the President's request to either 
complete the D.C. chemical detector system, or to take 
advantage of the lessons learned from this pilot program to 
deploy the chemical detectors in other large subway systems 
around the country?
    Dr. McQueary. Well, at this time we have proven the concept 
of operation for that system, and it is something we are 
extremely proud to have been a part of, I can assure you. So, I 
compliment the Congress on appropriating the funding necessary 
to get it launched.
    We do have the measurement system, both chemical 
measurement as well as video capability, tied into a central 
control station in downtown D.C., as you probably know, I am 
sure you know. We view it as a responsibility of Washington, 
D.C. to carry the program forward, for example, if there is a 
need or desire to expand to more stations within the 
Washington, D.C. area.

            MANPADS SURFACE TO AIR MISSILE COUNTER MEASURES

    Senator Byrd. Your budget includes $61 million to determine 
whether a viable technology exists to address the threat 
shoulder-fired missiles pose to commercial aircraft. This 
funding request followed $60 million approved by Congress in 
fiscal year 2004. The details of this threat are well 
documented. The Congressional Research Service estimates there 
are as many as 700,000 of these missiles globally. Some of 
which are on the black market, selling as low as $5,000 apiece.
    CRS also estimates that there have been 29 instances in 
which civilian planes have been hit by shoulder-fired missiles, 
none of which occurred in the United States.
    However, in May 2002, the FBI warned law enforcement 
agencies to be alert to the potential use of surface-to-air 
missiles against U.S. aircraft. If such a missile was fired at 
a commercial aircraft here in the United States, it would wreak 
havoc on our economy.
    How soon do you believe that we can begin to outfit 
commercial aircraft with a system to counter surface-to-air 
missiles?
    Dr. McQueary. I believe that we expect by the end of 
calendar year 2005 the Administration and the Congress will be 
in a position to have scientific information from which to make 
a decision as to whether we should outfit planes, commercial 
aircraft, in this country.
    Science and Technology, as an organization, will not be 
recommending one way or the other. Rather, that is a decision 
for the Administration and the Congress to make, we believe.
    Senator Byrd. How realistic is it to convert to existing 
technology on military aircraft to our commercial fleet?
    Dr. McQueary. We believe that it is in the category of, 
what I would call, an engineering problem, rather than needing 
a scientific breakthrough in order to do this. There are really 
two or three issues that drive the commercial airline fleet. Of 
course, one is that certifications necessary to get approval to 
put anything on an aircraft is perhaps more stringent for 
commercial aircraft.
    Also anything we do to an aircraft that would add air drag 
will increase fuel costs, and so there are multiple issues to 
be dealt with as one decides which technology would be 
appropriate. Regarding the technologies themselves, we do 
believe that it is eminently feasible to put them on commercial 
aircraft. And, we have three contractors that are in the early 
stages of studies that will lead to a down selection of one or 
two contractors to go into the development of such a system.
    The other important factor is that reliability must be such 
that we can afford to have them on the planes. The military can 
actually carry its support system with it wherever the planes 
fly. But, if you consider all of the airports into which our 
planes go, just in this country alone, the idea of trying to 
have a support system at each one would be extremely expensive.
    So the reliability of the systems need to be greater than 
what we are seeing with the military versions right now.
    Senator Byrd. Do I have time for one more?
    Senator Cochran. Senator Stevens has come in and we want to 
include him.
    Senator Byrd. I shall desist.
    Senator Cochran. Senator Stevens.

                         TSA DETECTION SYSTEMS

    Senator Stevens. Thank you very much.
    I was enjoying the Senator's questions, as a matter of 
fact. I, gentlemen, have spent quite a bit of time with the 
aviation community trying to figure out where we're going in 
terms of some of the homeland security activities. And, I am 
impressed with comments that I have received from many of them 
that our systems are designed to deal with metal and not with 
substances. How would you answer that?
    Dr. McQueary. Our systems are designed to deal with----
    Senator Stevens. Metals rather than substances.
    Dr. McQueary. Metals rather than . . .? I'm afraid I don't 
understand the question, sir.
    Senator Stevens. Well, we're looking for guns, we're 
looking for knives, we're not looking for chemicals, we're not 
looking for biological weapons. We're zeroing in on what was 
used in 9/11 and not what the terrorists might be using in the 
future. Is that correct?
    Dr. McQueary. Now, I understand the question. Within the 
Science and Technology Directorate we do have some research 
work that we're funding this year to be able to make detections 
of explosive devices at range, if you will. This is in the very 
early stages, and I would not for a moment try to tell you that 
I think that we have a solution to that problem.
    The Israelis have, of course, worked on this in great 
detail. We have had many interactions with them. It's a hard 
problem, but it is an area which we think is important towards 
being able to do the things necessary to make the airports, 
airlines and travel safer. It is a very important area.
    Senator Stevens. Well, over the past recess, I went through 
major airports, and I asked to be shown the TSA systems. And, I 
must say they are very impressive systems, but all of them are 
designed for what I said, to locate knives, to locate metals 
that might be in the baggage. Are we looking towards trying to 
ascertain the presence of chemical substances, bacterial 
substances, and explosive substances?
    Dr. McQueary. I will tell you, the area where I do not 
believe we have a satisfactory answer to in the bacterial area. 
It's very complex, very difficult, to deal with what a person 
can do to bring something in a handkerchief into the country. 
It would be very, very difficult to detect a bacterial 
substance, unless one were to get into some sort of invasive 
type of measurement system. So far, we have not chosen to get 
into that level. We as a country, have not chosen to go that 
far.
    In chemicals, there are many different types of detectors 
that can indeed detect chemical components that would make up 
explosive systems or any kind of liquids that you might have. 
But you have to be able to get a sufficient signal, if you 
will, a sufficient amount of the chemical being put forth into 
the air so that it could be detected, unless we go to some kind 
of invasive system. And right now, our focus is on what we 
might be able to pick up from the air, if you will, the general 
air surrounding a passenger in that area.
    Senator Stevens. Well, Doctor what about the President's--
--
    Dr. McQueary. We are not ready to--I'm sorry.
    Senator Stevens. I beg your pardon.
    Dr. McQueary. Please continue.
    Senator Stevens. What about the presence of detonators? 
We're watching daily in Iraq bombs go off by someone dialing a 
cell phone.
    Dr. McQueary. Right.
    Senator Stevens. And alerting, you know, energizing a 
detonator. Are we trying to discover the presence of detonators 
in baggage?
    Dr. McQueary. I can't answer the question. I don't know off 
hand--I simply don't know. I should know the answer, but on 
that particular question, I don't know. I will be happy to look 
into it and find out exactly what we are doing for you.
    [The information follows:]
             Discovering Presence of Detonators in Baggage
    Reliable detection of detonators in baggage is important to the 
security of the transportation infrastructure. The responsibility for 
this security measure currently remains with the Transportation 
Security Administration. Additional information can be provided in a 
classified briefing.

    Senator Stevens. Alright.

                 RESEARCH AND DEVELOPMENT CONSOLIDATION

    Let me shift to the Coast Guard, if I may. Are any one of 
you involved in the changes that are taking place in research 
and development funding. That's in the Science and Technology 
Directorate.
    Dr. McQueary. That's right.
    Senator Stevens. That's yours, is it Doctor?
    Dr. McQueary. Yes, sir.
    Senator Stevens. When we approved the transfer of the Coast 
Guard to the new Homeland Security Department, it was my 
understanding, and I think that it was in the basic law and in 
the report, that the department was to be left as a complete 
unit. I am informed now that the budget proposes to transfer 
the research and development funding in units of the Coast 
Guard to your directorate. Is that right?
    Dr. McQueary. That is correct. But, I need to be precise on 
what we mean by transfer. That unit will never lose its close 
ties with its parent organization. We will assume research and 
development oversight for it.
    As you are probably aware, the Congress actually cut the 
research and development budget for the Coast Guard laboratory 
last year. So they entered this year with no money other than 
support for the people that are in that laboratory. They have 
had no research and development program in this fiscal year. We 
do have money in our Science and Technology budget for fiscal 
year 2005 to support the Coast Guard, not only the people at 
the laboratory, but also a modest research and development 
program.

    SHIFT OF $13.5 MILLION FROM THE COAST GUARD TO THE SCIENCE AND 
                         TECHNOLOGY DIRECTORATE

    Senator Stevens. My information was that the budget 
proposes to shift $13.5 million from the Coast Guard to your 
directorate. Is that wrong?
    Dr. McQueary. No, that's not incorrect. The $13.5 million 
is basically the operational costs for the labs that are in 
Connecticut. And we're putting in another $5 million for 
research and development work.
    Senator Stevens. Are you taking over direction of it, and 
taking it from the Coast Guard?
    Dr. McQueary. That's harsher language than I would choose 
to use.
    Senator Stevens. The language. The legislation is very 
harsh. I drew it.
    Dr. McQueary. Okay. We have responsibility, we had 
responsibility in the Science and Technology Directorate to 
advise and direct the Coast Guard on what scientific work they 
needed. However, I would say directly, that in order to 
accomplish the determination of what we must do, we have Coast 
Guard people on our staff, we have a Coast Guard Captain who is 
in residence with my Science and Technology group. His job is 
to make sure that we're representing the needs of the Coast 
Guard in the scientific work that we undertake. And that's the 
same thing we do for each and every one of the operational 
units within the Department of Homeland Security.
    We're not an independent island on research and 
development. We're a service organization intended to provide 
the very best science and technology to these operational units 
which stand at the ready each and everyday to do the job the 
Department of Homeland Security has to do.
    Senator Stevens. Well, it's a technicality I imagine, but 
when Congress declares war, the Coast Guard becomes a part of 
the Department of Defense.
    Dr. McQueary. Right.
    Senator Stevens. You're familiar with that?
    Dr. McQueary. Yes, sir.
    Senator Stevens. The legislation we passed to authorize the 
transfer of the Coast Guard to the Department of Homeland 
Security was done in a fashion so that, if that transfer to the 
Department of Defense was triggered, it would be a whole unit.
    It appears to me that slowly but surely you're taking away 
from the Coast Guard the things that make it a whole unit, 
namely research and development.
    Dr. McQueary. I spent my entire career in research and 
development, and my experience tells me that small pockets of 
research and development can never be as effective as being a 
part of a larger research and development organization. We 
believe that by transferring the Coast Guard's research and 
development into the Science and Technology Directorate, and 
giving them more day-to-day interaction with the scientific 
work that is going on, that we will actually end up doing a 
better job, not only for the department, but also for the Coast 
Guard itself.
    Senator Stevens. Are you prepared to do that for the 
Department of Defense when it becomes a part of the Department 
of Defense?
    Dr. McQueary. I----
    Senator Stevens. I don't think you get my point. You have 
no authority to do that.
    Dr. McQueary. We have----
    Senator Stevens. I would urge you to check with your legal 
department and determine what authority you have to transfer 
anything from the Department of Defense, from the Coast Guard, 
without our approval.
    Dr. McQueary. Well, I am sure that if we don't have the 
authority to do it, we do not propose to do it without your 
approval, if that's the case.
    Senator Stevens. Sometimes people are ignorant of the law.
    Dr. McQueary. Well, that could very well be the case here, 
too.
    Senator Stevens. Well, I don't think.
    Dr. McQueary. But I can assure you that there is no 
intention----
    Senator Stevens. I don't mean to be abrupt with you Doctor, 
but I do believe that it is essential that if and when the 
Coast Guard becomes a part of the Department of Defense, it be 
a total unit.
    Dr. McQueary. Yes.
    Senator Stevens. An integral, operational unit that is just 
transferred and not leaving portions of it somewhere else. That 
was the debate that we had, and I hope that we will pursue that 
and you will take a look at it for us.
    Now, let me ask you----
    Dr. McQueary. I will do that.

                  UNIVERSITY PROGRAMS/ENERGY SECURITY

    Senator Stevens. One other thing if I may. Well two really. 
I see that you have got these Homeland Security Centers of 
Excellence, and I congratulate you. The Senator from West 
Virginia was talking about one in terms of the Center for 
Excellence with regard to food programs. And one, I understand, 
will be combating animal related agro-terrorism, and the other 
focuses on post-harvest food security.
    What about energy production and energy security. Are you 
focusing on that?
    Dr. McQueary. For the areas of energy production and energy 
security is a combination of General Libutti and myself, as 
well as the Department of Energy. I believe one of the Homeland 
Security Presidential Directives clearly spells out that the 
Department of Energy has responsibility for energy. So the work 
that we do would be to work with General Libutti from an 
infrastructure protection standpoint. And, perhaps I would let 
him comment rather than be presumptive about saying what he 
would be doing.
    Senator Stevens. General, are you pursuing that?
    General Libutti. Sir, the effort that we make in the main, 
in terms of our mission profile, is the risk assessment 
vulnerability piece of any part, large or small, of the 
national infrastructure. So in terms of chemical site security 
surveys, we are working with our friends at the Nuclear 
Regulatory Commission, working with other members in the inter-
agency, and our job remains principally to advise relative to 
the threat.
    We recommend preventive actions in concert with the rest of 
the community, that ought to be taken immediately or that have 
a long-term proposition relative to protecting America. So, 
we're about the threat, vulnerability and risk assessment piece 
of all of these programs. And we share that information with my 
friend, Dr. McQueary, and other members of Health and Human 
Services, Center of Disease Control, the Department of 
Agriculture, or the Department of Energy.
    So we're a player at the table. I might add, and this is 
not a marketing piece, but we are the newest members of the 
National Intelligence community, and we are full players. We 
have connected very well with all the major elements within the 
Federal Government, as well as State and local communities that 
deal with information sharing, analysis, and simply stated the 
threat.
    I tell you that just for a sense of what our directorate is 
all about and how we interact with other members of the 
intelligence community, including TTIC, CIA, and the FBI, who 
principally has responsibility on the law enforcement side.
    Senator Stevens. Thank you.
    I will be delighted to try and understand what you just 
said. For instance, in terms of our oil pipeline, do you review 
that pipeline for threat?
    General Libutti. We do when we gleam specific intelligence 
from looking at all of the sources, which indicates that it is 
a target set. We absolutely look at it in the broader 
infrastructure requirements that bring us to a situation which 
causes us to look at it with other members of that community.
    Senator Stevens. And do you----
    General Libutti. And we do that across all of the 
infrastructure.
    Senator Stevens. Do you review the ports through which we 
import 57 percent of our oil?
    General Libutti. Again, we work in concert with our friends 
in the Coast Guard and in the industry, the container shipping 
folks, to look very hard at the threat and the risk associated 
with that threat, in a specific port, city, or State.
    So the answer is, yes, sir, we do.
    Senator Stevens. Okay.

                            ENERGY SECURITY

    Well, let me give you one that I think you ought to take a 
look at then. And the Department of Commerce can verify this.
    By 2015, we will be importing 40 percent of our natural gas 
in the form of LNG. We do not have a LNG port in the United 
States. We have authorization. Years ago we passed legislation 
to have off-shore ports, but none were ever built. I think that 
in your department you ought to be looking at the planning for 
the future, how are we going to ensure the security of that, 
and how will it be relevant to the importation of oil and other 
substances.
    Should we separate those ports from existing ports by 
having them all come into one port? Obviously, that would 
increase the possibility of the threat.
    But, I haven't heard anyone talk about planning for the 
national security, or homeland security on the access of 
natural gas in liquefied form.
    General Libutti. Sir, you're absolutely right. When that is 
tee-ed up as a critical issue, and I think from your 
perspective we ought to be teeing it up right now, we would be 
very much involved in looking at that. Not from an engineering 
standpoint, or the physical lay-down standpoint, but from the 
threat perspective.
    And you're absolutely right, we should be involved in that, 
and I will take your note back and we will take a look at it to 
see what we need to do right now.
    Senator Stevens. Don't put me down as an advocate, I would 
just assume bringing Alaska's gas down. But it seems that other 
gas is going to get here first, sir.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Stevens.

                          UNIVERSITY PROGRAMS

    Let me follow up with a comment about a question Senator 
Byrd asked on the Centers of Excellence, the university 
programs that we were talking about with Dr. McQueary.
    Last year, we appropriated about $69 million and it was 
intended to support these programs. Just because the 
Administration is requesting only half of that, $39, $30 
million, doesn't mean that you shouldn't spend the $69 already 
appropriated. There are provisions for deferring expenditures 
or rescinding expenditures, but there is no provision for not 
spending it.
    So, what I am suggesting is that money is in the pipeline 
and it may very well support more than three university 
centers.
    Dr. McQueary. If I may, it will support more than three 
universities. And in fact, what we have determined already, 
sir, is that we can create five universities when we reach the 
limit of the money that you have authorized us in fiscal year 
2004. But, when that is gone, we would be faced with having to 
cut back to the three.
    I have asked for a plan already as to how we would 
implement a total of five, recognizing that we could be faced 
with having to eliminate two of those at the end of their 3-
year period, which is what we're looking at right now.
    Senator Cochran. Thank you.

                      NOAA WARNING ADVISORY SYSTEM

    I am going to yield, again, for questions from Senator 
Stevens. And then we will go back to you, sir.
    Senator Stevens. If I may just ask one.
    I forgot to ask a question about the NOAA Weather Radio. We 
asked that the Department prepare a report by December 15, of 
last year, on the use of NOAA Weather Radio as a component of a 
national warning system measure to expand consumer access to 
the warning systems in efforts to inform and educate the public 
about national security.
    Currently we rely upon the radio for the old national 
warning system. We have tried to expand so that all forms of 
communication would receive the warning, particularly of a 
terrorist event. And all portions of the country could be 
alerted to that immediately. As I said, currently, that would 
only go out by radio, but it does not use NOAA Radio. NOAA 
Radio hooks into almost every radio station, television, and 
weather program that there is in the country. I particularly 
would favor some national legislation to mandate carrying such 
messages, or to include putting them into the internet 
directly. But, that hasn't been done yet.
    However, we did ask for the NOAA Weather Radio to be used 
as a component of the warning system. Who is working on that in 
your Department?
    Dr. McQueary. Sir, I don't know.
    General Libutti. Sir, we have the lead to look at that in 
terms of how it fits into our broad responsibilities, as I 
outlined in my presentation of information sharing and alert 
advisory systems. So we are indeed looking at that, and that is 
still a work in progress.
    Senator Stevens. Well respectfully, General, we asked in 
2002 for a report by December 15, 2003. When will we see your 
report?
    General Libutti. Sir, I will take that on board as an 
action and get back to you and your staff.
    [The information follows:]
                        NOAA Alert System Report
    The congressional report has been cleared by OMB and the 
Department. The report was approved for transmission to the Hill on May 
28, 2004, and delivered on June 1, 2004.

    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Byrd.
    General Libutti. If I may, sir, as a continuation, I will 
get back to you as soon as I can within the next couple of 
days. But a staff note to me reminds me that we were going to 
come to grips with your question very, very soon. And I will 
define what soon means when I respond to you.
    Senator Stevens. Thank you very much.
    General Libutti. Yes, sir.

                   CRITICAL INFRASTRUCTURE PROTECTION

    Senator Byrd. Thank you, Mr. Chairman.
    Last year, General Libutti, I asked Secretary Ridge about 
the role of the Federal Government in protecting chemical 
facilities from terrorist attack. He said that he believes 
chemical companies should be conducting their own assessments 
and paying for security improvements.
    At the Secretary's budget hearing last month, Senator 
Murray asked Secretary Ridge about port security funding. And 
the Secretary again held the view that port owners should be 
responsible for security investments.
    Now General Libutti, if you were the CEO of a chemical 
company, your highest priority would, probably be creating a 
quality product at a price that would create profits. If you 
were the director of a private port, your first priority would, 
in all likelihood, be that of maximizing the number of 
containers or passengers that would use the port.
    And so with all due respect, I have very little confidence 
that chemical company CEOs or port directors would have 
defending against a terrorist attack at the top of their list 
of things to spend money on. Yet, the Department clearly 
believes that, when it comes to protecting our critical 
infrastructure the private sector should bear the financial 
burden.
    Can you provide the subcommittee, today, with any 
benchmarks that you have established to show the private sector 
is making the necessary investments to secure our critical 
infrastructure and key assets?
    General Libutti. Sir, I appreciate the question because, 
like you, chemical site security for the Nation is a priority 
for IAIP and the Department. I would tell that I believe the 
right answer to how we move forward with our chemical site 
partners in the private sector, the Federal Government, and my 
Directorate is the key word partnership.
    I think the industry overall needs to belly-up to deal with 
improved security across their industry, especially in 
particularly high-threat areas. As a subset of that, I would 
emphasize the high-threat areas near large populated areas 
across the country.
    Over the last several months we have conducted site surveys 
where folks from my office have visited top priority target 
sets involving the chemical site areas. We have worked with 
them, and we have seen them demonstrate a great spirit of 
cooperation in dealing with assessing the risks of their 
facilities, and taking actions to improve the readiness of 
those facilities, in terms of both preventative and recovery 
activities.
    I cannot, sir, tell you the kind of money that they have, 
as an industry, put toward this effort. I will look into that 
and provide you our best estimate and judgments. But I cannot 
answer that question right now.
    I think what is important, I might add to share with you 
sir, is that during the visits we worked to improve readiness, 
we highlighted protective measures, standoff distances, buffer 
zones, cameras, and command and control systems, all which they 
took on in a very positive way.
    We have also sent out to all sites, not just the sites that 
we have visited, several different documents or what I would 
call aids in improving their readiness. We have sent out the 
following: characteristics and common vulnerabilities of 
chemical sites/facilities; potential indicators of terrorists 
attack activities for chemical facilities; and buffer zone 
protection planning templates for chemical facilities.
    We have really looked at this in the same way that you 
have. This is a critical priority because it is a critical 
target site for potential terrorist attacks.
    We have looked at the highest areas of concern because of 
the relative impact on the community, if indeed an event 
occurred. And we have a plan over the next year to look at an 
additional 360 sites or facilities across the country. I might 
also add that the focus is to look at this in a realistic way 
not in terms of eliminating all threats, but dealing with this 
based on what I call risk management across our country. That 
is to say that we have to establish priorities, and indeed, the 
Federal Government in concert with our friends in the community 
have to attack this thing on a single front.
    I didn't mean to be so long winded, but that captures my 
concerns and the actions we're taking.
    Senator Byrd. Well General, could you provide the 
subcommittee with any benchmarks that you have established to 
show that the private sector is indeed making the necessary 
investments to secure our critical infrastructure and key 
assets?
    In other words, Secretary Ridge says, it's up to the 
private sector. So have you established any benchmarks that 
show that the private sector is indeed making the necessary 
investments to secure this critical infrastructure and key 
asset?
    General Libutti. Sir, as I indicated earlier in my first 
statement of my presentation here, I don't have specifics 
relative to the financial investments. If my staff has those, 
I'll provide them as quickly as possible. If not, we will do 
the research to get that to you.
    I would say, just spinning off the Secretary's comment, and 
based on my experience, since I have been on board from late 
June or early July, I have seen not only a willingness and 
spirit of cooperation, but an understanding on the part of the 
chemical site industry and other industries, which we call key 
critical industries, a willingness to move out smartly, to do 
what needs to be done to protect their equities, to improve the 
security to their physical sites, etcetera, etcetera.
    So the attitude is there. We will continue to capitalize on 
that, and I will get you the information you have asked for, 
sir.
    [The information follows:]
           Securing Our Critical Infrastrucure and Key Assets
    As part of a wide effort to facilitate rather than mandate, DHS 
continues its effort to develop ``best practices'' for industry by 
working with the private sector and professional associations. DHS 
believes that the private sector, which controls over 85 percent of the 
nation's critical infrastructure and key assets (CI/KA), must be 
involved in setting national protection standards. By partnering with 
associations and groups, DHS plans to create realistic, proactive 
protection practices to bolster the physical hardening of the nation's 
CI/KA.
    One example of DHS working closely with industry is the ASME 
Guidance on Risk Analysis and Management for Critical Asset Protection. 
This important effort is intended to demonstrate that industry can not 
only provide DHS leadership with information, but can also help create 
industry-based guidance for risk analysis and risk management. This 
document will establish common terminology and a common basis for 
reporting the results of risk studies, helping the protection community 
and the private sector streamline and standardize risk analysis 
reporting. Such standardization provides government agencies and 
private industry a framework from which to collect, report, and respond 
to potential terrorist threats.
    The ASME effort highlights how DHS is working closely with the 
private sector to develop baseline best practices and protective 
measures. Our plan is for these guidelines to mature into sector-wide 
protection standards that will be adopted industry-wide. The initial 
phase of the ASME effort is to focus on Nuclear Power Plants, Spent 
Nuclear Facilities, Chemical Plants, Petroleum Refineries; LNG Storage 
Facilities, Subway Systems (including bridges and tunnels), Railroad 
Systems (including bridges and tunnels) and Highway Systems (including 
bridges and tunnels). Depending on the success of the initial effort, 
it may be expanded to encompass other infrastructure categories.
    Another important DHS initiative to assist private industry in the 
protection of their facilities is the preparation and distribution of 
analytic products such as Characteristics and Common Vulnerabilities 
and Potential Indicators of Terrorist Activities reports. These 
products identify those vulnerabilities and threat indicators that are 
sector-specific. Such information, when used by industry, allows 
intelligent investments to be made to eliminate or mitigate specific 
vulnerabilities. Furthermore, DHS is in the process of fielding a 
network of Protective Security Advisors and establishing regional 
offices that will assist State and local governments, as well as the 
private sector, in their protective planning efforts.

    Senator Byrd. Alright.
    As I said in my opening statement I will be asking the 
General Accounting Office to conduct an independent review of 
the private sector's role in securing our critical 
infrastructure.
    It will be essential in assessing the need for investments, 
for Federal investments, to secure our critical infrastructure. 
So, it will be essential for Congress to have measurable 
benchmarks of private sector investments in such 
infrastructure, such as investments in chemical facilities, 
port security, and cyber security.
    Do you agree that having this information would be useful 
to determine if the private sector is meeting its obligation to 
protect our critical infrastructure?
    General Libutti. I can't see how it wouldn't be supportive 
and an indicator of their commitment. But as I said earlier, 
this is a partnership in my opinion, sir. So the Federal 
Government needs to provide advice, and education, in concert 
with Dr. McQueary and his folks and other members of the inter-
agency, and share with them best practices, and cutting-edge 
technology. That's all part of this movement forward. So I 
don't see how that could hurt.
    I would be concerned if it became a weapon to be held up 
against them. Again, I think as we move forward we need to 
determine the right balance. But, I hear you loud and clear, 
and we will do our homework and get back to you, sir.

               TERRORIST THREAT INTEGRATION CENTER (TTIC)

    Senator Byrd. Alright, General.
    One of the most important issues affecting the public's 
assessment of the Department of Homeland Security performance 
involves its record of sharing Homeland Security threat 
information with other Federal agencies, as well as with State 
and local governments, the private sector and the public.
    The Gilmore Commission, in its December 15 report, noted 
that the Department of Homeland Security had ``little power and 
capability to do this.'' In fact, the Commission concluded that 
the Department of Homeland Security faces significant 
competition from other agencies in disseminating information to 
State and local authorities, the private sector and other 
areas.
    Part of the problem, the panel said, is that the CIA was 
granted control over the Terrorist Threat Information Center, 
or better known as TTIC, which opened in May as a central 
repository for information from the CIA, the Department of 
Defense, the FBI, the Department of Homeland Security, and 
other intelligence agencies.
    But Congress, in writing the Homeland Security Act, 
envisioned giving the Department of Homeland Security the role 
of collecting, analyzing and sharing intelligence information. 
Putting TTIC at the CIA, the Gilmore Commission said, has 
largely sidelined the Department of Homeland Security and left 
it with a paucity--that's a good word--and left it with a 
paucity of competent intelligence analysts.
    While intelligence professionals have been much more 
willing to go to the CIA, the Department of Justice, the 
Department of Defense, or the State Department, this seems to 
have caused confusion at all levels of government regarding the 
respective roles of the TTIC and the Department of Homeland 
Security.

      CONCERN REGARDING TTIC BEING UNDER THE LEADERSHIP OF THE CIA

    Could you explain please, how it came about that the CIA 
was given the leadership of this intelligence function. And 
second, how it is that our homeland is made more secure by 
having such a confusing hierarchy of intelligence sharing 
agencies?
    General Libutti. Sir, as always, you ask the toughest 
questions and the ones that strike at the heart of what we're 
all about. And what we're all about, as I said earlier, is 
information sharing and infrastructure protection.
    The instrumental organization within IAIP that is charged 
with the backbone, the nerve center, the communications channel 
for sharing information, is the Operations Center. And then in 
support of that separate calls, conferences, and meetings 
attended by General Hughes who runs the IA side, and Bob 
Liscouski who runs the IP side.
    So, let me first say to you, we are very clear on what our 
mission is. I am very clear what my customer base is, it's the 
private sector, it's State and local authorities, extending 
beyond that, but not involved in, the police work. That's the 
FBI, and the people at the Department of Justice.
    But having said that, let me now turn to TTIC, IAIP and 
what you elude to as being a challenging approach towards 
dealing with intelligence.
    TTIC was established by the Administration and indeed by 
the President. It was done to integrate intelligence from 
overseas and foreign sources. It was done to incorporate 
intelligence and information that is provided by those who 
focus on intelligence/law enforcement within the domestic 
scene.
    Now, what I am saying to you, or mentioning to you, 
involves the CIA, the FBI, and by extension the local police 
forces across the country that have tens of thousands of great 
cops, who do great things for their community and country 
everyday.
    Now, I am going to try to draw a wiring diagram here, and 
if I miss the mark, I know that you won't hesitate to pull me 
back and let me talk in straight and plain English.
    You have TTIC here, which is not controlled by CIA, but by 
the DCI. Now we don't need to, if I may sir, get into an 
argument about the differences between George Tenet's two hats, 
but he does indeed wear two hats. And the responsibility that 
the DCI has is to provide supervisory overview responsibility 
for TTIC. And indeed, the director at TTIC is a gentleman, who 
was, or is, in the CIA.
    But TTIC is an organization to integrate, fuse, analyze and 
share domestic and overseas or foreign intelligence. IAIP is 
both a customer and contributor at TTIC. So is the FBI. So if 
you say to me, what about this TTIC group, I would say I am 
part of TTIC and it is sort of like in a religious setting when 
you talk about the body of Christ and the Catholic Church, that 
means every Catholic across the face of the globe. We are part 
of TTIC.
    And indeed, on occasion, we challenge and task TTIC who 
then goes out to its customer base to look at requirements and 
collection efforts. I'll take a breath and try to move forward, 
and try to be as organized in my expression as possible.
    So TTIC is here. Members of the Department of Homeland 
Security are part of TTIC. And by extension, that information 
in a very simplistic diagram, is passed to IAIP. It goes to 
General Pat Hughes, in the main, and to other members that are 
part of TTIC. For example, in Customs and Border Patrol, or 
whatever, it is shared with their parent unit as well. And that 
is all part of what we're trying to do. There should be an 
effort to take walls down and not put walls up.
    Information comes from TTIC to IA, and IA shares it with 
IP, because IP can't do the threat assessment risk analysis 
piece looking at critical infrastructure unless they know what 
that intelligence picture indicates. IA in the Department of 
Homeland Security, my operational directorate, looks at sharing 
information with other members of the customer base; private 
sector leadership, and State and local authorities.

         ORGANIZATION AND STANDUP OF THE TTIC AND ITS FUNCTION

    I'm talking there about advisors to the Governors, the 
homeland security advisors to the Governors. They get that 
information as well as local authorities. What that means is 
mayors and their leadership in the intelligence/counter 
terrorist operations. In most cities across the country, those 
are the senior police chiefs.
    I don't see, Senator Byrd, a conflict in the organization 
and standup of TTIC and its function. It's function is to 
integrate. My function and focus is on passing information to 
my customer base.
    I support the FBI who is a partner in this national effort. 
And they're in the law enforcement business. Fueled by and 
supported by the same intelligence that's coming out of TTIC. I 
don't see a conflict. We're improving the way we communicate 
everyday, we're sharing databases everyday, at a very highly 
classified level. And we're working more in concert with one 
another than we ever have.
    Leadership in the FBI, the CIA, and the leadership of my 
organization get it. They understand there needs to be a 
cultural metamorphosis in terms of information sharing. And 
we're going to keep working on that so young people in these 
organizations understand it is one team, one fight, as the Army 
says. And we need to understand that in terms of information 
sharing.
    I don't see a problem with the current intelligence 
organization. As always, I work everyday to improve it.
    Senator Byrd. Well, General, I understand plain English. 
But I am not sure that I understand everything that you have 
said here today. And I am not embarrassed to confess it.
    Let me ask a simple question.
    General Libutti. Sir.

                        SECURITY OF THE HOMELAND

    Senator Byrd. How is it that our homeland is made more 
secure by having such a confusing hierarchy of intelligence 
sharing agencies?
    General Libutti. I think that the homeland is much more 
secure. And I will talk only from my perspective in IAIP, 
Senator.
    We have shared over 70 advisories and alert bulletins in 
concert with other members of the Homeland Security team. We 
get threat information from the agency, our friends in the FBI, 
and, out of TTIC. Then, we look at that, conduct competitive 
and comparative analysis.
    Again, our focus is on our customer base, which includes 
other members of the Federal Government. So, we take that 
information, and we pass it on a secure backbone to customers 
that have clearances. For those who don't have clearances, we 
take the information that's classified, clean it up, and create 
what is called the tear line. Then, we coordinate the bulletin 
or advisory with our friends in the other intelligence 
agencies, and we send it out through our Homeland Security 
Operations Center.
    We have sent out many of those advisories. We normally 
follow up with phone calls to appropriate customers. We call 
industry leadership to amplify an important point. We send 
executive teams to places like New York, LA, and Las Vegas, as 
we did during the holiday period, to share with leadership what 
we know, and make recommendations on corrective action.
    I think, again, as you know, sir, I am sure your staff has 
briefed you, after 30 years in the Marine Corps and a couple of 
months at the Department of Defense, I spent a year and a half, 
as the Commissioner for counter-terrorism in the NYPD. When I 
finished that job, I came down and was proud to take this job.
    If it doesn't work on the streets of our great cities and 
small towns, it doesn't work for America. And I'm telling you 
now, sir, we have made a difference.
    Senator Byrd. Alright, let us suspend while the reporter 
changes his tape.
    May I ask him another question, Mr. Chairman?
    Senator Cochran. Yes, sir.

       VULNERABILITY ASSESSMENTS AND SECURITY: CHEMICAL INDUSTRY

    Senator Byrd. The Department of Homeland Security continues 
to take a hands-off approach with regard to chemical security 
by relying on the chemical plant industries. So here we go 
again, to assess vulnerabilities and take protective actions. 
We know that the EPA has estimated that if attacked, over 100 
plants located all over the country could affect over one 
million people each.
    We know that the Department of Justice released a study in 
April of 2000, concluding that the risk of terrorists 
attempting in the foreseeable future to cause an industrial 
chemical release is both real and credible.
    We know that in February 2003, the National Infrastructure 
Protection Center, which is now a part of the Department of 
Homeland Security, issued a threat warning that Al-Qaeda 
operatives also may attempt to launch conventional attacks 
against the U.S. nuclear, chemical, and industrial 
infrastructure to cause contamination, disruption, and terror.
    When Secretary Ridge testified last year he said that the 
chemical industry was better suited to assess vulnerabilities 
and take appropriate security measures than the Federal 
Government.
    Just last week, the General Accounting Office sounded 
another siren in testimony saying that, in spite of the 
industry's efforts, the extent of security preparedness at U.S. 
chemical facilities is unknown.
    Do you maintain the position that the chemical industry is 
better suited than the Federal Government to assess 
vulnerabilities and take protective actions to secure chemical 
plants?
    General Libutti. It can't be done alone or independently, 
sir. It is back to the point that I made earlier, it has to be 
done in partnership. And I think the Federal Government, being 
gentlemanly in their approach, from time to time, needs to be 
also muscular. We need to demand standards and guidelines to be 
adhered to. We need to be there, prepared to support them in 
developing their security programs that reinforce their safety 
programs.
    I'm with you 100 percent, sir. I can only tell you that 
it's a combined effort and everybody needs to pull his or her 
own weight.
    Senator Byrd. Does your budget request address this issue 
in any way?
    General Libutti. Yes, sir, it does.
    Senator Byrd. It is so? You said it does. How much is in 
the budget for this?
    General Libutti. In terms of chemical sites security we're 
talking about $35 million.
    Senator Byrd. And now you're talking about hardening 
security at chemical plants?
    General Libutti. Sir, I'm talking about visits, 
interaction, working to develop guidelines and the way ahead. 
We're talking about recommendations for how they can harden 
their target as we say in the military; standoff distances, 
excuse me, buffer zones, security plans. We're there to advise, 
educate, and help them develop their plants. As you know there 
are tens of thousands of these plants, large and small across 
the country. And as I said earlier, we looked at and visited 
over the last few months many of the facilities that we thought 
were key critical, meaning, if they were hit as centers of 
gravity, they would cause potentially the greatest impact in 
the surrounding area.
    I am very comfortable that we're taking the right approach 
on this. And we're going to look at several hundred additional 
sites or facilities over the next year.
    Senator Byrd. What more can you do to make sure that the 
chemical industry responds with a robust program to secure 
their plants?
    General Libutti. We need to demand excellence across the 
board. We need to be both their advocate and their coach 
relative to ensuring that they adhere to standards and best 
practices. We need to demand excellence in terms of security 
and should not let them off the hook.
    Senator Byrd. You bet. We have lots of work to do in this 
area.
    General Libutti. Yes, sir, we do.

           RESEARCH AND TECHNOLOGY INFORMATION DISSEMINATION

    Senator Byrd. Now, Mr. Chairman, I shall have further 
questions perhaps.
    Senator Inouye, who could not attend today's hearing, 
requested that the attached question be asked on his behalf. I 
ask that it be inserted in the record.
    He is concerned that the Department of Homeland Security is 
charging outside groups that wish to attend a March 8, 2-day 
forum, that will provide industry with information about 
homeland security research and technology requirements.
    For example, small businesses would be charged $525, and 
universities would be charged $425. Senator Inouye believes 
this information should be provided free of charge. I ask that 
his question be made part of the record.
    Senator Cochran. That objective is so ordered.
    Senator Byrd. And I thank both Dr. McQueary and General 
Libutti.
    Dr. McQueary. Thank you, Senator.
    General Libutti. Thank you, Senator.

     NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER (NISAC)

    Senator Cochran. Senator Domenici is attending another 
meeting of his committee, the Energy Committee which he chairs, 
this morning. And he asked me to propound a question on his 
behalf. And it is this:
    The fiscal year 2004 Homeland Security Appropriations Act 
had approximately $23 million for NISAC. That's the National 
Infrastructure Simulation and Analysis Center. Would you please 
give the subcommittee the status of the allocation of the 
fiscal year 2004 funding? I think that's to General Libutti.
    General Libutti. Yes, sir, it is.
    I'll try to cut to the chase and cover the key points, sir. 
As you know this responsibility transferred the Department of 
Homeland Security from the Department of Energy in March 2003. 
Primary contractors are the Sandia and Los Alamos labs in New 
Mexico.
    The Senate Appropriations Committee provided approximately 
$30 million in 2003, and the House provided $20 million. Extra 
dollars from the Senate were dedicated for NISAC building at 
Kirkland Air Force Base in New Mexico. The joint conference 
provided $27.5 million; but there was no specific language for 
building. But with respect to what the Senator and your 
colleague had asked for, what we have done most recently, is 
that we retained sufficient funds to complete the survey and 
selection process. The date of ground breaking will be 
dependent upon site surveys and identification of a suitable 
site for the NISAC.
    So we're very attuned to the issue and concern of Senator 
Inouye. I am happy to provide additional details or perhaps 
visit with him to provide amplifying information.
    Senator Cochran. We will submit questions in addition for 
the record, and if you could respond to those.
    General Libutti. I would be happy to, sir.
    Senator Cochran. For the record, we would appreciate 
additional detail regarding the fiscal year 2005 budget request 
for NISAC and activities envisioned in the budget for that 
Center.
    General Libutti. I would add, sir, that our department is 
preparing a letter to the Department of Defense regarding 
building of a facility on the Department of Defense property, 
et cetera, et cetera. So, we'll be happy to provide response 
and detail.
    Senator Cochran. Thank you.

                  MANPADS/AIR MISSILE COUNTERMEASURES

    Following up on another issue that was raised by Senator 
Byrd. Is it feasible to accelerate the shoulder-fired missile 
defense program to make the technology available at an earlier 
date? Or, is the time line you have considered the most cost 
effective, or reasonable in terms of the needs for a cost 
efficient method of protecting commercial aviation?
    Dr. McQueary. We believe that the time line is a very 
aggressive time line, and in fact, we're certainly aware that 
there is great interest in the country about the very issue 
that you raised. When we met with each of the three contract 
winners, posed to them the following question: Would you like 
to come in and recommend a shorter schedule. None of the three 
agreed that they would be willing to take on, or would want to 
take on, a schedule that was shorter than the one that we had 
originally proposed.
    So, I think it is an aggressive schedule, and I think a 
careful examination of what we have to do in the alloted time 
period would conclude that is the case.
    Senator Cochran. Has there been any decision made or 
discussion of who's actually going to pay the costs of 
procuring and outfitting the airliners with this defense 
system? I understand that they estimated costs could be up to 
$10 billion.
    Dr. McQueary. There are a number of factors that go into 
that. We have not attempted to address, however, who would pay 
for it. We have attempted to address how much it would cost, 
though. So those decisions can be made. As I indicated earlier 
in the testimony, we view our responsibility as providing the 
scientific basis on which the Administration and the Congress 
can decide the approach the country will take in implementing 
such systems, if that is what we should do.
    We put target costs in of about $1 million each, but that's 
up front hardware costs. And anytime you field large systems, 
operation and maintenance typically dominates the overall long 
term costs of such systems. And I would expect that is the case 
on this one.

                             CYBER SECURITY

    Senator Cochran. We know that you have recently developed a 
national cyber alert system to acquaint home computer users, 
and business and government agencies, with ways to better 
secure their computer systems from viruses. How would you rate 
the performance of the new national cyber alert system's 
response to the most recent computer virus outbreaks?
    Dr. McQueary. That was done by General Libutti's 
organization. I'll defer to him if I may.
    Senator Cochran. Sure.
    General Libutti. Sir, I would give you an estimate on a 
scale of 1 to 10, at 8.5 or 9. And that's a relative 
evaluation. Let me give you some additional information that 
perhaps would help understand where we are. This roll out of 
the alert system has just been done very recently.
    We have over 250,000 subscribers. Those who have subscribed 
to that system, are working that system across industry, home 
users and government. We think, I believe, it is the first 
great move to educate, inform and make people aware in a pro-
active way, of viruses that may be coming our way.
    So I give it a pretty high grade, and we will continue to 
monitor that as time goes by, and improve on how we communicate 
with our customer base.
    Senator Cochran. What's the relationship between the cyber 
security division and TTIC; if any? Is there any collaboration?
    General Libutti. I mean in terms of a wiring diagram, if I 
may, there is no direct linkage. There is always within the 
Federal Government, particularly the inter-agency, there's 
linkages and pathways that permit people who work in the cyber 
business to communicate with people who have that interest, or 
that particular functional area of responsibility within TTIC.
    That is, there are people in TTIC who not only look at 
infrastructure protection from a threat perspective, but also 
can consider cyber concerns. The key point that I leave with 
you is, that the lead in terms of cyber security is within IAIP 
at the Department of Homeland Security.
    If we have issues that present themselves, then we will 
orchestrate appropriate meetings. There was an initiative taken 
by some of my folks in the cyber world to take a hard look at 
what I call a lower level inter-agency grouping between the 
communication folks, the national communication security guys, 
or guys in cyber security, and the Department of Defense. They 
met on a regular basis to review potential threats, and to look 
globally at the kind of activity that needs, to in my words, 
give us a warning and indicator that we need to do something.
    So we're trying to be as pro-active as possible, and we're 
trying to educate and make people aware of the threat to the 
cyberspace area.

                             CYBER SECURITY

    Senator Cochran. How is the national cyber security 
division working with the private sector companies, such as 
Symantec, McAfee, and Norton, that specialize in anti-virus 
software and internet security.
    General Libutti. I think it's safe to say they're working 
very well with them. Briefings I have received have indicated 
no serious problems in terms of our linkage and cooperation 
with the business community overall.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. What law enforcement agency has primary 
jurisdiction in enforcing cyber crimes?
    General Libutti. I suspect again across law enforcement, 
and that's not my area of expertise, that it is both Secret 
Service and FBI.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

     Questions Submitted to the Science and Technology Directorate

              Questions Submitted by Senator Thad Cochran

                         BIOSURVEILLANCE SYSTEM
    Question. Science and Technology's role in the Biosurveillance 
Initiative includes an increase of $65 million to expand environmental 
monitoring activities in cities determined to be at the highest risk of 
a terrorist attack.
    Can you give further details about the chemical and biological 
warning activities currently in place in these cities?
    Answer. The U.S. Department of Homeland Security's (DHS) BioWatch 
initiative has been successfully operating in approximately 30 of the 
Nation's urban centers since early 2003. BioWatch is an early warning 
system that can rapidly detect trace amounts of biological materials in 
the air whether they are due to intentional release or due to minute 
quantities that may occur naturally in the environment. Routine air 
samples are collected on a daily basis and more frequently if 
necessary. To date, BioWatch has analyzed well over half a million 
samples. Several hundred specialized air sampling devices, developed by 
the Department, have been placed at key locations nationwide. The air 
samplers are supported by the infrastructure set up by the 
Environmental Protection Agency's (EPA's) Air Quality Monitoring 
Network sites in partnership with State, local and tribal environmental 
agencies. Additional partners in the program include the Centers for 
Disease Control and Prevention (CDC) and the Department of Energy (DOE) 
National Laboratories. The CDC provides technical expertise through its 
Laboratory Response Network on the laboratory analysis methods and 
serves as the liaison for laboratory analyses with State health 
departments. The DOE National Laboratories, specifically Los Alamos and 
Lawrence Livermore National Laboratories, provide technical expertise 
in biological sampling systems, laboratory analysis, and training 
assistance to State and local agencies.
    Question. If the requested increase in funding is provided, will 
the monitoring be expanded to other cities that are currently being 
monitored or just in these high-threat areas? What about other high-
threat areas designated under the Office for Domestic Preparedness 
grant programs?
    Answer. The current planning calls for significantly increasing the 
number of air samplers in the top ten high-threat BioWatch cities only. 
Given availability of funds some modest addition of other cities may be 
possible in the future.
    The Science and Technology (S&T) Directorate coordinates with the 
Office for Domestic Preparedness (ODP) to insure integration of 
BioWatch capability with cities listed on the Urban Area Security 
Initiative (UASI). The DHS S&T BioWatch Program fully funds the 
installation, operation, and sustainment of the BioWatch system in each 
city. The ODP grants program is complimentary to BioWatch and funds 
first responder initiatives and other local high priority requirements.
    Question. What promising new advances do you anticipate with the 
requested increase in funding for the acceleration of research and 
development on next generation environmental monitoring systems?
    Answer. Accelerated research and development on next generation 
detection systems fall into two categories: (1) outdoor wide area 
environmental monitoring (i.e., BioWatch replacement) and (2) indoor 
facility protection. Research and Development (R&D) programs for the 
wide area environmental monitoring focus on autonomous networked 
detectors. This is a self-contained on-site collection and analysis 
system. To address indoor facility protection the R&D plan calls for 
research to develop Rapid Identifiers--portable highly sensitive 
bioagent detectors with very low false alarm rates.

           COUNTER MAN PORTABLE AIR DEFENSE SYSTEMS (MANPADS)
    Question. The Science and Technology Directorate is currently in 
the early stages of a 2-year, $120 million program to develop 
countermeasures to protect against the threat of shoulder-fired 
missiles on civilian commercial aviation.
    What progress is being made by the three teams selected for the 
Counter-MANPAD Program, and is the first phase on schedule to be 
completed this summer?
    Answer. In early October, 2003, the Department of Homeland 
Security's Science and Technology Directorate released a solicitation 
announcing a ``call for proposals'' to address this potential threat. 
The solicitation is the first step in the Department's two-phase 
systems development and demonstration program for anti-missile devices 
for commercial aircraft.
    Phase I began in January, 2004, with the selection of three 
contractors--BAE Systems, Northrop Grumman, and United Airlines. Phase 
I of the program will provide a detailed design and an analysis of the 
economic, manufacturing, operational, and maintenance issues needed to 
support a system that will be effective in the commercial aviation 
environment. This phase will last approximately 6 months and will end 
in the selection of one or two contractors moving on to the next phase.
    The Counter-MANPADS program is on track. The DHS Special Project 
Office (SPO) conducted meetings with all three contractors in late 
January, 2004, and early February, 2004, to establish firm direction 
and expectations. The SPO completed System Requirements Reviews with 
all three contractors by March 18, 2004. An Interim Design Review will 
be conducted in early May, 2004. These reviews establish a firm 
baseline of requirements against which the contractors can apply their 
designs.
    Phase I will conclude with a Preliminary Design Review in July, 
2004, at which time the DHS will select one or two of the initial three 
contractors to proceed into Phase II.
    Phase II will include development of prototypes, integration onto 
commercial aircraft, and demonstrations of system operation and 
performance. These prototypes will also be subjected to a rigorous test 
and evaluation process. Phase II will last approximately 12-18 months 
followed by a recommendation to the Administration and Congress.
    Question. What obstacles do you face in safely applying 
technologies developed for and currently in use on military aircraft 
and adapting a countermeasure system to operate in the environments of 
civilian aircraft?
    Answer. Technologies developed for military or other specialized 
purposes are currently incompatible with commercial air fleet 
operations. Although underlying military technologies will be 
leveraged, the systems must be adapted to meet commercial operational 
conditions and environments.
    Military missile countermeasures exist in various stages of 
development and initial fielding. However, these technologies are 
generally utilized by military and Heads-of-State aircraft that have 
the operations and maintenance infrastructure to support such systems.
    While it is conceivable that existing military countermeasures 
units could be re-engineered for civilian aircraft use, many technical 
and operational tradeoffs have not been previously performed to address 
risks of such approach. For example, there is an established military 
logistics infrastructure that serves airborne countermeasure equipment, 
spanning functions from pilot training and routine maintenance to spare 
parts and depot repair. A similar infrastructure would be costly and 
time-consuming to replicate in the commercial airline industry.
    It would be premature to integrate currently available military 
countermeasures equipment aboard civilian aircraft due to numerous 
issues concerning aircraft modification and certification, maintenance 
and supportability, and operational employment. The current Counter-
MANPADS Program aims to resolve such issues and to provide alternatives 
to the Administration for a decision on equipping commercial aircraft 
with Counter-MANPADS capabilities.
    Additional details can be provided if desired in accordance with 
the appropriate security for the information.
    Question. Is it feasible to accelerate the Counter-MANPAD Program 
in order to make the technology available at an earlier date, or is the 
timeline proposed the safest and most cost-efficient method?
    Answer. Given the challenges of migrating Department of Defense 
(DOD) technology into the commercial aviation environment, the DHS 
program is the most cost-efficient approach to implementing an 
affordable system. The program is an aggressive 24-month analysis, 
prototype demonstration and testing program. At the conclusion, the 
Department of Homeland Security will provide the Administration and 
Congress with a recommendation for the most viable solution to 
integrate Counter-MANPADS technology into commercial air fleet 
operations.

                             CYBER SECURITY
    Question. The Science and Technology Directorate serves a role in 
the Nation's cyber security efforts by addressing cyber threat 
characterization, cyber threat detection, and cyber threat origination.
    With the large increase provided to the Science and Technology 
Directorate by Congress for cyber security research and development, 
what advances can we expect during this fiscal year?
    Answer. The funding increase provided by Congress is enabling the 
Science and Technology (S&T) Directorate to undertake cyber security 
programs that would not have been possible otherwise. As fiscal year 
2004 is the first complete fiscal year of the Department of Homeland 
Security's existence, funding investments this fiscal year emphasize 
infrastructure and foundational needs associated with cyber security. 
Because such needs are generally not associated with short-term 
problems, most of these investments will not result in deployable 
advances in the same year in which efforts are undertaken. However, 
several key areas are being addressed and are briefly described in the 
following text.
    In order to address infrastructure needs identified in the National 
Strategy to Secure Cyberspace, the Cyber Security R&D Portfolio in the 
S&T Directorate has initiated activities aimed at securing some of the 
key basic communication protocols on which the Internet relies, but 
which are presently vulnerable to cyber attacks. A program focused on 
the domain name infrastructure is working to advance the diffusion and 
use of the Secure Domain Name System (DNSSEC) protocol as a replacement 
for the traditional domain name infrastructure. A second program aimed 
at secure routing infrastructure is working to address vulnerabilities 
in Border Gateway Protocol (BGP), the protocol associated with the 
Internet's underlying routing infrastructure.
    A second infrastructure need identified in the National Strategy to 
Secure Cyberspace involves the need for improving the security of 
process control systems, such as supervisory control and data 
acquisition (SCADA) systems and digital control systems (DCS). The 
Cyber Security Portfolio is coordinating planning for these areas with 
the Critical Infrastructure Protection Portfolio. These portfolios 
expect to initiate joint activities in this area later this fiscal 
year.
    The S&T Directorate is also working to provide foundations for 
enhancing the capability of a variety of cyber security research 
communities. The Cyber Security R&D Portfolio is co-funding two multi-
university test bed projects with the National Science Foundation 
(NSF). The first is a test bed project focused on creating a large-
scale physical test bed network to support testing activities, and the 
second test bed project focused on developing a testing framework and 
conducting experiments on the physical test bed. These activities will 
result in the ability to conduct attacks, develop an understanding of 
those attacks, and test existing and new technological cyber security 
concepts, all in a large-scale operational network environment that is 
kept isolated from the ``public'' Internet.
    A separate effort aimed at supporting cyber security research and 
development communities is a program that is working to develop large-
scale data sets for cyber security testing. This will address the need 
that researchers and operational users have for realistic data that can 
be used to test the capabilities of current and emerging cyber security 
technologies. Although the S&T Directorate does not expect to play a 
role in the area of testing, evaluating, or certifying commercial 
technologies, the general approach to constructing and making available 
data sets for testing have the potential for secondary benefits by 
catalyzing the emergence of commercial testing services provided by and 
for the private sector.
    Another area of emphasis is the area of economic assessment. This 
activity is focused on two important priorities. The first is 
developing a general model for assessing the economic impact of cyber 
events and attacks. We do not believe that widely touted figures (such 
as $38 billion for a single Internet worm attack) are realistic 
estimates of cost associated with those attacks. Unrealistic figures do 
the private sector a disservice because they do not allow people to 
make reasonable assessments of their security needs and associated 
investment requirements. The second area of interest is the development 
of tailored business cases aimed at different types of stakeholder 
communities. General awareness campaigns aimed at widespread 
improvements in cyber security have not been as successful as one would 
like. We believe that one of the reasons for this is that the rationale 
for supporting cyber security investments needs to be tailored to 
different types of stakeholder perspectives (large enterprises, 
critical infrastructure sector company, small businesses, home users, 
etc.). It is our hope that such tailored business cases will provide 
better rationale for technology investments both among today's 
commercial cyber security technologies, as well as those of the future.
    The activities described above fit into a coherent plan for long 
term cyber security needs. It is our hope that the test bed/testing 
framework projects and the program focused on large-scale data sets 
will provide insights to support the development of cyber security 
metrics, although additional work in this area is expected to emerge 
from NSF-funded basic research programs. In the long term, the general 
areas of cyber security metrics and economic assessment models will 
provide two key components in developing a foundation for cyber 
security risk assessment, and risk-based decision-making in this field.
    Although the emphasis of fiscal year 2004 activities is on 
infrastructure and foundational needs, this is not to the exclusion of 
other activities. We do have plans for a number of other focused 
activities, including conducting a pilot test of new-generation 
intrusion detection technology with participation from the banking and 
finance sector, and holding a workshop in the area of government needs 
for wireless security to gather input for future R&D activities. In 
fiscal year 2005, with the infrastructure and foundational programs 
already in motion, we expect to expand our activities aimed at more 
specific cyber security technology R&D needs.
    Question. How will the Science and Technology Directorate 
coordinate its activities with the Information Analysis and 
Infrastructure Protection Directorate?
    Answer. The Director of Cyber Security R&D in the S&T Directorate 
is working closely with counterparts in the Information Analysis and 
Infrastructure Protection (IAIP) Directorate to coordinate the 
Directorates' relevant activities in the important area of cyber 
security. The two components of IAIP that S&T has been working with are 
the National Cyber Security Division (working with the Director of the 
Division and other senior staff members) and the National 
Communications System (working with the Chief of the Technology and 
Programs Division and other senior staff members).
    Interactions between the two Directorates include an ongoing series 
of meetings between senior-level technical managers to provide a bi-
directional flow of information between the organizations as well as 
coordination of technical activities. These meetings are aimed at 
ensuring that DHS operational requirements feed into S&T programs, and 
to help identify paths for diffusion of technology back out to end 
users, as outcomes of these programs begin to emerge. On a more ad hoc 
basis, the S&T and IAIP Directorates exchange invitations to attend 
meetings or workshops when they involve areas of common interest.
    The IAIP Directorate has been developing a written document to 
identify its S&T requirements, and expects to provide this document to 
the S&T Directorate upon its finalization. In the longer term, a 
Science and Technology Requirements Council (SRC) is being established 
within DHS to provide a more formal avenue for IAIP and other DHS 
components to communicate requirements to the S&T Directorate across 
all of the technology portfolios.
    Question. Have other agencies within the Department of Homeland 
Security, such as the Secret Service, the Coast Guard, and the 
Transportation Security Administration, begun to outline their cyber 
security requirements?
    Answer. The Director of Cyber Security R&D has been informed of 
several information technology-related requirements related to the 
Secret Service's mission via IAIP and via the Secret Service Portfolio 
Manager in the S&T Directorate. While related to information 
technology, several of these requirements have been identified as 
having a law enforcement component being outside of the scope of cyber 
security.
    The S&T Directorate has not been approached by the Coast Guard or 
the Transportation Security Administration (TSA) regarding their cyber 
security requirements. We have had discussions with the Federal 
Aviation Administration regarding their cyber security R&D priorities, 
which are focused on securing the aviation infrastructure (e.g., air 
traffic control networks), in contrast to TSA's focus on passenger and 
cargo security.

                HOMELAND SECURITY CENTERS OF EXCELLENCE
    Question. The Nation's universities have begun to join the 
Department of Homeland Security to combat terrorism with the selection 
in December of the first Homeland Security Center of Excellence which 
will focus on the risk analysis related to the economic consequences of 
terrorist threats and events. The process of selecting the next two 
Homeland Security Centers of Excellence to focus on agro-terrorism is 
currently in progress.
    How many additional Homeland Security Centers of Excellence do you 
envision with the $69 million provided for fiscal year 2004 and with 
the $30 million requested in the President's budget to accompany the 
three mentioned?
    Answer. Fiscal year 2004 funding for University Programs will 
include approximately $10 million for the DHS Scholars and Fellows 
Program, with the balance dedicated to University-based Homeland 
Security (HS) Centers. In addition to the risk analysis and agro-
terrorism centers referenced in your question, we anticipate two more 
solicitations for University-based Homeland Security Centers this 
fiscal year.
    Question. How will the Science and Technology Directorate 
coordinate the Homeland Security Centers of Excellence research and 
findings among each participating university?
    Answer. Lead universities are required to develop a management plan 
that demonstrates that partners will be communicating and reporting 
results and findings on a regular basis. DHS requires regular written 
reports and assigns a program manager to each HS Center of Excellence. 
Additionally, lead universities are required to form Science Advisory 
Panels, to conduct progress meetings with their partners, and to 
participate in review meetings with DHS senior managers. As new HS 
Centers are added, DHS envisions a system of centers that it will 
coordinate. Findings from these centers will be coordinated and 
consolidated by DHS.

                       BIOLOGICAL COUNTERMEASURES
    Question. In addition to the national biosurveillance initiative 
proposed in the President's budget in the biological countermeasures 
portfolio, additional funding is requested for infrastructure 
improvements at the Plum Island Animal Disease Center.
    How is the Department of Homeland Security currently working with 
the United States Department of Agriculture to coordinate research 
being carried out in regard to biological diseases?
    What countermeasures are being prioritized for agro-bioterrorism?
    As this committee makes recommendations to fund infrastructure 
improvements at the Department's research facilities, what intentions 
do you see for the long-term use of Plum Island as part of Science and 
Technology's National BioDefense Analysis and Countermeasures Center?
    Answer. DHS is totally committed to enhancing the Nation's 
agricultural security by complementing the mission of United States 
Department of Agriculture (USDA) and Food and Drug Administration 
(FDA), and bringing a new sense for urgency and investments to enhance 
the Nation's capability to anticipate, prevent, detect, respond to, and 
recover from the intentional introduction of foreign animal disease, 
especially scenarios of high-consequence. As defined in Homeland 
Security Presidential Directive-7 (HSPD-7) and HSPD-9, the Secretary of 
Homeland Security is responsible for coordinating the overall national 
effort to enhance the protection of the critical infrastructure and key 
resources of the United States, including the defense of agriculture 
and food.
    Agriculture and food security are important priorities for DHS, as 
are its working relationships and interactions with key sector-specific 
agencies. DHS utilizes high-consequence reference scenarios for 
strategic planning for its programs and activities on biological and 
chemical countermeasures and these areas are most relevant to 
protecting the agriculture and food sectors. DHS works closely with the 
respective sector-specific agencies in planning and execution of its 
R&D programs for each scenario. Of seven scenarios currently under 
study, two of the four biological scenarios concern agriculture and 
food security: foreign animal disease (with an initial focus on foot-
and-mouth disease), and bulk food contamination. We will be working 
extensively with the USDA on response to those scenarios.
    A Joint DHS and USDA Working Group on Agricultural Biosecurity has 
developed a partnership and national strategy to provide the best 
possible protection against the intentional or accidental introduction 
of a foreign animal disease. The strategy builds on the strengths of 
each agency to develop comprehensive preparedness and response 
capabilities.
    USDA's Agricultural Research Service (ARS) has traditionally 
excelled in basic and fundamental science and early disease discovery 
research. USDA's Animal and Plant Health Inspection Service (APHIS) has 
provided diagnostic services for a wide range of foreign animal 
diseases. In the partnership strategy, USDA will continue its basic and 
early discovery work in the areas of foot-and-mouth disease and other 
high priority foreign and emerging diseases, diagnostic development, 
and maintenance of the vaccine bank.
    DHS's program at Plum Island Animal Disease Center will focus on 
strengthening the Nation's ability to predict and respond to the 
intentional introduction of a foreign animal disease into U.S. 
agriculture. DHS is focusing its efforts on:
  --Advanced development which evaluates the efficacy of vaccines and 
        therapeutics (antivirals) derived from ARS's discovery work and 
        moves them into readiness for application in the event of an 
        outbreak;
  --Agricultural agent bioforensic analysis capability to support 
        attribution, working in conjunction with APHIS's diagnostic 
        laboratory and law enforcement agencies;
  --Disease assessment capability to include risk, threat assessment, 
        and epidemiologic resources to augment knowledge about specific 
        strains of foreign animal diseases for use in decision making 
        and predictive disease modeling; and
  --Supporting the functions of the core scientific units such as 
        pathology, microscopy, sequencing, animal studies, strain 
        repositories, and bioinformatics.
    The combined programs of DHS and USDA at Plum Island Animal Disease 
Center will enhance the Nation's defense by building on the strengths 
of each agency to increase capacities for both research and diagnostic 
technology development.
    As part of DHS's extensive commitment to agricultural security, it 
is also establishing two University Homeland Security Centers in this 
area: one in foreign animal and zoonotic diseases and one in post-
harvest food security. These new HS Centers were awarded to Texas A&M 
University and the University of Minnesota respectively. Additionally, 
DHS is coordinating with USDA on a review team for high-consequence 
reference scenarios for strategic planning for DHS's programs and 
activities on biological and chemical countermeasures. DHS is also 
conducting end-to-end system studies to help define the requirements 
for detection and surveillance for agricultural outbreaks and for the 
protection of critical nodes of high consequence in the food production 
chain.

                DEPARTMENT-WIDE RESEARCH AND DEVELOPMENT
    Question. Currently, Science and Technology provides mission 
support for several agencies within the Department of Homeland Security 
to coordinate research and development throughout the Department to 
prevent redundancies and to provide overall management and oversight of 
ongoing research. The President's fiscal year 2005 budget proposes 
further consolidation of research and development within Science and 
Technology.
    How do you feel the consolidation of research and development of 
nearly all agencies in the Department of Homeland Security into Science 
and Technology will provide for better coordination of research and 
more efficient use of the funds provided?
    Answer. Consolidation of the research and development functions of 
the Department's components will significantly improve the Department's 
overall ability to meet its mission. With consolidation, we can ensure 
that operational end-user requirements and needs are being met by the 
best science and technology that can be brought to bear on the problem, 
whether that expertise comes from internal or external sources. We will 
enhance our ability to avoid duplication of effort in the R&D areas, 
and we fully expect to find synergies develop: what is created to meet 
the requirements of one component may be able to be fielded to support 
the needs--stated or not yet recognized--of another.
    Question. What examples can be given of different agencies 
benefiting from another agency's research that can be attributed to the 
centralization of these efforts?
    Answer. The Department's consolidation process has truly just 
begun. Our experience to date has been in supporting other components 
of DHS at the portfolio level. We have staff in the S&T Directorate who 
are liaisons with other DHS components; specifically the Border and 
Transportation Security Directorate, the United States Coast Guard, the 
Emergency Preparedness and Response Directorate, the United States 
Secret Service, and the Information Analysis and Infrastructure 
Protection Directorate. These liaisons bring forward the requirements 
from these other components, which allows us to factor their needs into 
the S&T Directorate's RDT&E planning and budgeting and they also serve 
as a communication link at the portfolio level.
    The consolidation of the Standards efforts earlier in DHS has 
already resulted in a more effective and efficient process to identify 
and implement standards relevant to the entire DHS mission. The results 
to date include:
  --Created initial standards guidelines, with formal standards nearing 
        completion, for radiation pagers, hand-held radiation dosimetry 
        instruments, radioisotope identifiers and radiation portal 
        monitors. These standards were developed under the auspices of 
        the American National Standards Institute's Accredited American 
        Standards Committee on Radiation Instrumentation.
  --Adopted its first set of standards regarding personal protective 
        equipment developed to protect first responders against 
        chemical, biological, radiological and nuclear incidents. These 
        standards, which will assist State and local procurement 
        officials and manufacturers, are intended to provide emergency 
        personnel with the best available protective gear. These 
        standards result from an ongoing collaboration with the Office 
        of Law Enforcement Standards at the National Institute of 
        Standards and Technology.
  --Published guidelines for interoperable communications gear. Common 
        grant guidance has been developed and incorporated in the 
        public safety wireless interoperability grant programs of both 
        the Department of Justice and the Department of Homeland 
        Security;
  --Launched the SAFETY Act process for evaluating anti-terrorism 
        technologies for potential liability limits.
    Question. How does the Transportation Security Administration's 
laboratory coordinate its efforts with Science and Technology, and, 
more specifically, the High Explosives Countermeasures portfolio, and 
do you anticipate the consolidation of the Transportation Security 
Administration's research and development into Science and Technology?
    Answer. For fiscal year 2004 the S&T Explosives Countermeasures 
Portfolio has initiated research, development, testing and evaluation 
(RDT&E) to counter the explosives threat to the general population and 
to critical infrastructure posed by suicide bombers and vehicle bombs, 
respectively. The Transportation Security Administration (TSA) is 
conducting RDT&E to counter the explosives threat to the transportation 
sector, including land and maritime transport as well as civil 
aviation. S&T and TSA keep each other aware of activities being 
performed; thus, redundancy is minimized. The activities are currently 
not coordinated, however, and priorities are set independently. 
Information exchange between the S&T Explosives Portfolio and the TSA 
laboratory is coordinated through the TSA office of the Chief 
Technology Office. Each group calls upon the expertise of the other 
when warranted, including participation in selected project reviews and 
advisory panels It is anticipated that the RDT&E activities currently 
conducted within TSA will be consolidated within Science and Technology 
commencing in fiscal year 2005 following administrative actions and 
agreements that are in progress. Program planning documents for the 
Explosives Countermeasures Portfolio reflect an integration of current 
S&T and TSA mission areas, priorities, and funding profiles.
    Question. How does Science and Technology prioritize research 
across all Departmental agencies?
    Answer. The Science and Technology Directorate prioritizes its 
research and development efforts based on the directives, 
recommendations and suggestions from many sources, including:
  --Homeland Security Act of 2002;
  --The fiscal year 2004 Congressional Appropriations for the 
        Department of Homeland Security;
  --President Bush's National Strategy for Homeland Security, the 
        National Strategy for the Physical Protection of Critical 
        Infrastructure and Key Assets, the National Strategy to Combat 
        Weapons of Mass Destruction, the National Strategy to Secure 
        Cyberspace, and the National Security Strategy;
  --President Bush's nine Homeland Security Presidential Directives;
  --Office of Management and Budget's 2003 Report on Combating 
        Terrorism;
  --Current threat assessments as understood by the Intelligence 
        Community;
  --Requirements identified by other Department components;
  --Expert understanding of enemy capabilities that exist today or that 
        can be expected to appear in the future; and
  --The report from the National Academy of Science on ``Making the 
        Nation Safer: The Role of Science and Technology in Countering 
        Terrorism,'' and the reports from the Gilmore, Bremer and Hart-
        Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development needed to meet our mission 
requirements. As consolidation continues to occur, these same sources 
will be used to prioritize requirements and needs.
    We will continue to improve our ability to garner customer 
requirements through the newly-formed Science and Technology 
Requirements Council (SRC). The SRC will vet RDT&E requirements from 
the other components of the Department and has Assistant Secretary 
level representation from those components.

     INTERAGENCY COORDINATION OF HOMELAND SECURITY RESEARCH EFFORTS
    Question. What type of coordination is occurring with other 
Departments in their research and development efforts, and how do you 
plan to expand this coordination in the future?
    Answer. The Department of Homeland Security fully recognizes that 
many organizations contribute to the science and technology base needed 
to enhance the nation's capabilities to thwart terrorist acts and to 
fully support the conventional missions of the operational components 
of the Department. Congress recognized the importance of the research 
and development being conducted by numerous Federal departments and 
agencies, and in the Homeland Security Act of 2002, directed the Under 
Secretary of Science and Technology to coordinate the Federal 
Government's civilian efforts to identify and develop countermeasures 
to current and emerging threats.
    We take this responsibility very seriously.
    We have begun this coordination process by evaluating and producing 
a report on the research, development, testing, and evaluation work 
that was being conducted within the Department of Homeland Security but 
was not already under the direct cognizance of the Science and 
Technology Directorate. Where it is appropriate, the Science and 
Technology Directorate will absorb these R&D functions. In other cases, 
the Science and Technology Directorate will provide appropriate input, 
guidance, and oversight of these R&D programs.
    We are now working to identify gaps in homeland security programs 
across all relevant Federal Departments and agencies. We are 
participating in--and in some cases, leading--committees, 
subcommittees, and working groups of the National Science and 
Technology Council (NSTC). Through formal and informal conversations at 
NSTC meetings, gaps are being identified and are starting to be 
addressed.
    In addition, staff from the S&T Directorate are actively involved 
with the Counterproliferation Technology Coordinating Committee (CTCC). 
The CTCC's role is to look across the U.S. Government to identify 
counterproliferation activites, identify gaps and shortfalls, and make 
recommendations to address the shortfalls. Many of the technologies 
relevant to Counterprolifertion also are relevant to Homeland Security 
needs. The CTCC is co-chaired by the National Security Council, 
Homeland Security Council and Office of Science and Technology Policy.
    The Office of Management and Budget (OMB) gives us budgetary 
direction and develops a yearly report on Combating Terrorism. This 
document is one of the sources cited above as guidance for program 
prioritization. We have frequent interactions with OMB for guidance in 
budgeting in accordance with identified priorities.
    Question. The Office of Science and Technology Policy (OSTP) is one 
of our most important connections in the Administration. Our personnel 
meet with OSTP staff frequently on issues of interest to both groups. 
Most importantly, OSTP runs the National Science and Technology Council 
and its committees, subcommittees and working groups as mentioned 
above. These groups are instrumental in helping us achieve our goals of 
protecting the Nation and its infrastructure.
    The Homeland Security Council, (HSC) which was stood up in October 
2001, meets frequently to ensure coordination of all homeland security-
related activities among executive departments and agencies and promote 
the effective development and implementation of all homeland security 
policies.
    Has their been any thought given to creating a multi-agency 
initiative, or working group, perhaps under the auspices of the 
National Science and Technology Council (NSTC), to foster better 
coordination of Homeland Security Research efforts across government 
agencies (e.g. DOD, NIH, NSF, DOE, Transportation, EPA, USDA, Dept. of 
Justice, etc)?
    Answer. As discussed above, the Science and Technology Directorate 
is working with the NSTC and the CTCC to look across the entire Federal 
Government at homeland security-relevant science and technology.

                           RAPID PROTOTYPING
    Question. The Congress made $75 million available for fiscal year 
2004 for the rapid prototyping and deployment of near-term technologies 
for the end-user, whether it is a Customs agent or a first responder, 
to have the best technology and equipment available to combat 
terrorism.
    How do you propose to better streamline the process of working with 
industry to make technology available to the end-user in a more 
expeditious manner than currently available?
    Answer. The Science and Technology Directorate actively promotes a 
close relationship with industry to produce the new, improved 
technologies that emergency responders will purchase. Since March 1, 
2003, there have been four solicitations directly to industry in 63 
high tech areas related to protection, equipment, sensors, and other 
gear for emergency responders, agents, detection and tracking systems. 
Industry sent in more than 4,500 responses to these solicitations. Our 
partner, the interagency Technology Support Working Group (TSWG) is 
awarding $60 millions in contracts now in these areas. Our Office of 
Systems Engineering and Development (SED) is already at work with three 
industry teams on technology for commercial aircraft to counter 
shoulder-fired missiles. The Homeland Security Advanced Research 
Projects Agency (HSARPA) has been able to shorten the time required for 
a complete, multimillion dollar competitive solicitation to just 120 
days. HSARPA is also using ``industry-friendly'' Other Transactions for 
Research and Prototype contracting authority permitted by the 
authorizing legislation to speed award of contracts to companies that 
have not done business with the government before.
    Question. Of the industry response to the Department's request for 
proposals, what technologies have proved to be the most beneficial to 
homeland security?
    Answer. DHS S&T is in the earliest stages of research and 
development for almost all of these efforts and it would be premature 
to judge which of these technologies will be most beneficial.
    Question. What future technology solicitations do you anticipate to 
better serve the end-user in protecting the homeland?
    Answer. DHS S&T is actively pursuing additional technology 
solicitations in several areas relevant to protecting the homeland. 
Currently HSARPA has a solicitation entitled ``Detection Systems for 
Radiological and Nuclear Countermeasures'' which is now active and 
industry is responding. Eight other solicitations planned for this 
year:
  --Bioinformatics and Assay Development Program
  --Threat Vulnerability, Testing, and Assessment
  --Automated Scene Understanding
  --Advanced Container Security Device
  --Bomb Interdiction for Truck and Suicide Threats
  --Biological Warfare Architectures Study (Food & Agriculture)
  --Biological Warfare Decontamination
  --Low Vapor Pressure Chemical Detection System
    Question. Of the funds provided for and the flexibility given to 
Science and Technology for rapid prototyping, how much is provided for 
the Technology Clearinghouse, and how much is provided for the 
Technical Support Working Group?
    Answer. For fiscal year 2004, the Technology Clearing House will 
receive $10.5 million. For fiscal year 2004, DHS S&T provided $30.0 
million to the Technology Support Working Group (TSWG) for Rapid 
Prototyping projects.

                               STANDARDS
    Question. Congress transferred the development of standards from 
the Office for Domestic Preparedness (ODP) to Science and Technology 
and therefore expects all standards development in the Department to be 
centralized in the Science and Technology Directorate.
    How is Science and Technology coordinating with the National 
Institute of Standards and Technology (NIST) in developing standards 
Department-wide?
    Answer. The standards development work in ODP was managed by the 
NIST Office of Law Enforcement Standards (OLES). There has been a 
smooth transition of this program in fiscal year 2004 as NIST/OLES is 
still managing the program for the Science and Technology Directorate. 
The S&T Directorate is also working with NIST to coordinate development 
of additional standards in other areas, such as biometrics, cyber 
security and detection methods for weapons of mass destruction (WMD).
    Question. How are the State Homeland Security Advisors providing 
input for the end-users in developing standards?
    Answer. The DHS Office of State and Local will provide points of 
contact for specific standards development efforts. Also, the 
Conference of Radiation Control Program Directors (CRCPD) has been 
involved in user requirements for the first set of radiation detector 
standards.
    Question. Do you anticipate Science and Technology will publish a 
``Consumers Report'' on all technologies and equipment for Federal, 
State, and local users, such as the report that will be published for 
radiation and bioagent detection devices?
    Answer. It is our intention to publish user guides to available 
technologies in something like a ``Consumers Report'' format for 
critical equipment for emergency responders. These guides will address 
personal protective equipment as well as detectors for chemical, 
biological, radiological/nuclear and high explosive agents.

 THE WIRELESS PUBLIC SAFETY INTEROPERABILITY COMMUNICATIONS (SAFECOM) 
                                PROGRAM
    Question. The problem of communications interoperability for first 
responders, so important since September 11th, remains a difficult nut 
to crack. How much will be needed to fund the solution? When will 
technical standards be completed? What should the States and locals do? 
The Science and Technology Directorate plays a lead role for the 
Federal Government for finding the way through all of the technical 
questions. The Wireless Public Safety Interoperability Communications 
Program--known as SAFECOM--is in the Science and Technology 
Directorate. Yet, no funds are directly requested in the Science and 
Technology Directorate budget for this very important program. All of 
the funding comes either from other Federal agencies or from the 
Department-wide Technology appropriations within the Department of 
Homeland Security.
    Answer. There is no simple solution for communications 
interoperability. To ensure that our emergency responders' wireless 
communications are fully interoperable will require years of hard work 
on the part of the Federal Government as well as cooperation from State 
and local entities. The Wireless Public Safety Interoperability 
Communications Program, SAFECOM, is managed by the Department of 
Homeland Security's Science and Technology Directorate, allowing the 
program full access to the scientific expertise and resources needed to 
help our Nation achieve true public safety wireless communications 
interoperability.
    Current estimates of total funding required for complete 
interoperable wireless communications run into the billions of dollars 
when procurement grants are included in these estimates. Full wireless 
communications interoperability is currently estimated to be complete 
by 2023.
    Technical standards are critical to the development of 
interoperable systems. With input from the user community, portions of 
the Association of Public Safety Communications Officers (APCO) Project 
25's existing, but still incomplete, suite of standards have been 
developed. However, adoption has been slow, and standards completed to 
date address only part of the problem.
    SAFECOM will dedicate funding to the implementation of its 
standards plan, calling for a common set of standards, policies, and 
procedures to drive the migration of systems towards advanced, 
interoperable equipment and processes in the future. SAFECOM recognizes 
that the Nation cannot wait for a complete suite of standards. In the 
interim, local and State agencies must make investments that improve 
their communications and interoperability capabilities. To support the 
practitioner community in the short term, SAFECOM will begin a number 
of initiatives to better inform public safety agencies when upgrading 
or replacing current communications systems.
    Question. Should the funding for SAFECOM within the Department of 
Homeland Security be appropriated directly to the Science and 
Technology Directorate?
    Should funding be provided by Science and Technology for research 
being carried out for SAFECOM?
    Should the funding provided by other agencies be permanently 
transferred to the Department of Homeland Security?
    Answer. In an effort to coordinate the various Federal initiatives, 
SAFECOM was established by the Office of Management and Budget (OMB) 
and approved by the President's Management Council (PMC) as a high 
priority electronic government (E-Gov) initiative. As an e-Gov 
initiative, it is appropriate for funding to be provided by the 
partnering agencies that will benefit from the results of the 
initiative.
    Question. The progress being made on setting the technical 
standards for various communications technologies seems to be 
progressing very slowly. Project MESA which will govern broadband 
technology is in its infancy, and Project 25 governing Land Mobile 
Radios has yet to complete even half of the standards necessary. What 
more can be done to ensure the speedy completion of these projects by 
the private industry and public safety community stakeholders?
    Answer. At a strategic planning session in December 2003, public 
safety stakeholders from the local, State, and Federal levels convened 
to determine the most important next steps for the improvement of 
public safety communications and interoperability. These stakeholders 
felt that a process to promote standards is critical. To meet this 
demand, SAFECOM has developed a plan to accelerate the development of 
critical standards for public safety communications and 
interoperability, including the Project 25 suite of standards (P25). As 
mentioned above, SAFECOM will dedicate funding to the implementation of 
its standards plan, calling for a common set of standards, policies, 
and procedures to drive the migration of systems towards advanced, 
interoperable equipment and processes in the future. In addition, 
SAFECOM will fund the testing and evaluation of interim technologies 
that can assist public safety agencies in making existing legacy 
equipment interoperable with other neighboring systems.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

    Question. What types of research and development support will the 
Science and Technology Directorate provide to the Coast Guard for its 
non-homeland security missions?
    Answer. The Science and Technology Directorate and United States 
Coast Guard (USCG) are in the midst of preparing a formal agreement 
that will detail the coordination and funding mechanisms for USCG R&D 
capabilities. The foundation for that agreement will be the 
consolidation of funding requested in the fiscal year 2005 budget. For 
fiscal year 2005, the USCG R&D center facility, personnel and 
maintenance expenses will be funded through S&T in the amount of $13.5 
million. In addition, S&T and the USCG have agreed upon a base level of 
additional project funding in the amount of $5 million that will be 
specifically targeted toward non-security related projects including 
maritime science and research. This funding will be designed to support 
USCG mission-programs such as Marine Environmental Protection, Living 
Marine Resources, Search and Rescue, Aids to Navigation and Marine 
Safety. The specific projects in support of these mission-related 
programs will be prepared annually for S&T concurrence.
    In addition, the USCG will submit security-related research 
requests through S&T for coordination across all portfolios and DHS 
components. The Coast Guard has submitted a maritime security R&D 
portfolio detailing approximately $50 million in vital maritime 
security research initiatives. This portfolio has been validated by S&T 
portfolio managers and will be considered in the development of future 
spending priorities and commitments from S&T.
    Question. Will the Department of Homeland Security develop a 
Homeland Security Center dedicated to energy production security and 
pipeline infrastructure protection?
    Answer. The Department of Energy (DOE) is designated as the lead 
agency for security issues specific to the energy sector (except for 
commercial nuclear power plants, for which DHS and the Nuclear 
Regulatory Commission are designated as responsible lead agencies) in 
the National Strategy for Physical Protection of the Critical 
Infrastructure and Key Assets and in Homeland Security Presidential 
Directive-7 (HSPD-7).
    DHS has the lead for transportation systems security which includes 
pipelines. DHS has overall homeland security responsibility and 
recognizes that the energy sector is especially vital to the quality of 
life and the economy of this Nation. DHS is sponsoring Critical 
Infrastructure Protection research and development programs in the 
energy and pipeline security area with emphasis on Supervisory Control 
and Data Acquisition (SCADA) and electronic control systems. These 
efforts will increase this fiscal year. In addition, DHS asked the 
National Academy of Science to host a workshop to provide DHS with 
advice and guidance on future University-based Homeland Security R&D 
Centers. The results of that workshop did not place energy production 
security and pipeline security infrastructure in the top three areas 
recommended as additional areas for potential University-based Homeland 
Security Centers. This result certainly does not imply these 
infrastructures and their security is are not important, and, as stated 
previously, work is being done to address their security. In addition, 
the Information Analysis and Infrastructure Protection (IAIP) 
Directorate in DHS does work closely with DOE and with the Energy 
Sector owners and operators on operational security issues and the 
Border and Transportation Security (BTS) Directorate in DHS works with 
the Department of Transportation to ensure that the Nation's pipelines 
are safe and secure.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                     SCIENCE AND TECHNOLOGY FUNDING
    Question. Secretary Ridge, the Department of Homeland Security has 
a significant research budget to develop new technologies to secure the 
United States against terrorist attacks. I know that the Department has 
made significant progress in setting up the mechanisms to allocate 
science and technology funding to industry, universities, and national 
laboratories. This is a vital mission of your Department.
    I understand that the Department is still in the process of 
allocating fiscal year 2003 science and technology funding. What is the 
current time line for completing this allocation of funding?
    Answer. The Science and Technology Directorate has ``execution 
plans'', that is identified scope of work, for all remaining fiscal 
year 2003 funds and fully expects to have all remaining funds allocated 
by the end of fiscal year 2004.
    Question. The Department is now engaged in the allocation of fiscal 
year 2004 science and technology funding. How do you plan to allocate 
fiscal year 2004 funding in a more timely manner?
    Answer. The Department of Homeland Security has existed now for 
just over a year. Like the rest of the Department, the Science and 
Technology Directorate has been working hard to develop effective and 
efficient procedures and policies, including those necessary for 
selection of performers of the work to be done and the subsequent 
contractual processes and allocation of funds. As these procedures get 
established, projects will be awarded and funded in a more timely 
manner. I am pleased to say that in the last 3 months, the Science and 
Technology Directorate has made significant progress in allocating its 
available funding into the hands of those researchers who are 
developing and transitioning the vital technologies and tools to make 
the Nation safer. Both the Under Secretary for Science and Technology 
and I will continue to monitor the status of project selection and 
funding, and expect to see continued progress.
    Question. I note that this year, the Department's budget submission 
is improved over last year as one would expect. Although there are 
security considerations, could you describe your plans to ensure 
transparency in the Department of Homeland Security budget? Both the 
Departments of Defense and Energy make their supporting budget 
documents public. Will you follow suit?
    Answer. The Science and Technology Directorate prepares its annual 
Congressional Justification in an open and unclassified manner and will 
continue to do so as long as programs do not move into the sensitive 
realm. In addition, the Science and Technology Directorate prepares its 
written testimony for the record for each of its budget-related 
hearings in an unclassified document. This written testimony contains 
the supporting documentation for its budget request and becomes 
publicly available.
    Question. One of the biggest challenges in the science and 
technology area has to be coordinating the allocation of funding 
between near-term and applied technology and basic, long-term R&D 
funding.
    What level of coordination is being provided by your office, Mr. 
Secretary, to ensure an appropriate split between near-term and long-
term R&D?
    Answer. I have delegated the responsibility for determining the 
appropriate split between near-term and long-term research and 
development to the Under Secretary for Science and Technology and he 
keeps me and others informed, although the final responsibility is 
mine. In the approximately 1 year that this Department has been in 
existence, the Science and Technology Directorate has focused its 
initial efforts on near-term development and deployment of technologies 
to improve our Nation's ability to detect and respond to potential 
terrorist acts. However, we recognize that a sustained effort to 
continually add to our knowledge base and our resource base is 
necessary for future developments. Thus, we have invested a portion of 
our resources, including our university programs, toward these 
objectives. The following table indicates the Science and Technology 
Directorate's expenditures in basic research, applied research, and 
development to date, excluding construction funding.

           SCIENCE AND TECHNOLOGY DIRECTORATE R&D INVESTMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                           Fiscal year                              Fiscal year        2004            2005
                                                                   2003 (actual)    (estimated)     (proposed)
----------------------------------------------------------------------------------------------------------------
Basic...........................................................              47             117              80
Applied.........................................................              59              56             229
Developmental...................................................             398             608             643
                                                                 -----------------------------------------------
      Total.....................................................             504             781             952
                                                                 -----------------------------------------------
Percent basic...................................................             9.3            15.0             8.4
----------------------------------------------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis. In addition, the Science and 
Technology Directorate is allocating a portion of its resources to 
high-risk, high-payoff technologies and expects to gradually increase 
its investments in long-term research and development to a level 
appropriate for its mission and the Department.
    Question. What do you envision as the role of the Department of 
Homeland Security in investments in future R&D to meet homeland 
security requirements?
    Answer. At the current time, the Science and Technology Directorate 
is working hard with available funds to fill critical gaps in our 
Nation's ability to prevent, protect against, respond to and recover 
from potential terrorist attacks; however, we are all well aware that 
it is only with a strong investment in long-term research that we can 
we feel confident we are maintaining a robust pipeline of homeland 
security technologies to keep us safe for the decades to come. 
Successful businesses reinvest 10-15 percent of their total budget in 
research and development; the Science and Technology Directorate will 
strive in future years to invest a similarly significant portion of its 
resources into long-term research.

                       INTERAGENCY COLLABORATION
    Question. Mr. Secretary, the Department of Homeland Security 
combines the programs and personnel for many Federal agencies. Creating 
a culture as one department is a real challenge, but there are 
capabilities throughout the Federal Government that can assist your 
Department in meeting homeland security threats.
    I would encourage the Department to develop strong positive 
relationships with other Federal departments and agencies where there 
is opportunity for collaboration and cooperation to make your job 
easier.
    Is it correct that your Department has worked with both the 
Department of Energy and the National Nuclear Security Agency (NNSA) as 
it develops its programs to meet homeland security threats?
    Answer. The Department of Homeland Security has worked very closely 
with the Department of Energy (DOE) and NNSA from the very early stages 
of the development of the Science and Technology (S&T) program. The DOE 
laboratories provided extensive technical expertise and advise 
regarding the S&T program development.
    Question. How would you characterize these interactions?
    Answer. The Department's interactions with DOE and NNSA have been 
very positive. The Department of Homeland Security's (DHS's) S&T staff 
has an open communication relationship with DOE senior managers as well 
as with the DOE field personnel. Since some of the S&T staff came from 
DOE, there are close ties and good relationships that facilitate 
developing the processes of how DOE and DHS work together. When issues 
arise, they are quickly elevated so that communication occurs between 
the appropriate parties in both Departments and a resolution achieved.
    Question. What potential do you see for future collaborations?
    Answer. The Department of Homeland Security fully expects to 
continue and enhance its collaborations with the DOE and NNSA, as well 
as other Federal agencies conducting work of relevance to homeland 
security. For example, the S&T Directorate is committed to utilizing 
the extensive capabilities of all DOE laboratories and to engage them 
in all aspects of our research, development, testing and evaluation 
(RDT&E) program. The Directorate's Office of Research and Development 
is developing an enduring RDT&E capability through stewardship of the 
homeland security complex. To meet the Federal stewardship goal, the 
DOE laboratories will play a significant role in assisting in the 
strategic planning of the threat-based programs such as radiological/
nuclear and biological countermeasures programs. The DOE laboratories 
also have significant existing capabilities and facilities for 
addressing terrorist threats, thus DHS will contribute support for some 
existing DOE facilities and reach-back into these unique capabilities. 
In addition, the DHS University Scholars and Fellows program is working 
with the DOE laboratories to place students with DOE mentors.
    Question. The science and technology directorate at the Department 
has had discussions with the DOE national laboratories in such areas as 
radiological and nuclear and bioterrorist threats. The labs have 
significant capabilities to assist the Department of Homeland Security. 
Do you envision these collaborations continuing? Are there any barriers 
to such activities? If so, can Congress assist in addressing these 
issues?
    Answer. The Department's Science and Technology Directorate will 
continue to utilize the DOE laboratories to address S&T requirements 
including key threat areas such as radiological, nuclear and biological 
countermeasures. Collaborations between DHS and DOE have been very 
successful to date, and the Science and Technology Directorate plans to 
continue these collaborations well into the future. There are currently 
no barriers to these collaborations. If circumstances change, the 
Department will bring this to the attention of Congress.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Over the last couple of years, I have worked to provide 
funding to the Federal Air Marshals (FAMs) for an in-flight 
communications system. I believe that this system would provide the 
FAMs with the communications they need to safeguard our airlines and 
the millions of passengers who fly on them each year.
    I know that you are constantly going through reorganizations over 
at DHS and I have learned that the Office of Science and Technology may 
be proceeding to equip only those airlines that already have seatback 
phones with these communications for the FAMs.
    But it is my understanding that many airlines do not have seatback 
phones. How can we ask Americans to fly on these airlines if they don't 
have the same level of security that is being provided to others?
    Answer. Current Status. With reference to ``may be proceeding to 
equip only those airlines that already have seatback phones with these 
communications for the FAMS'', the Federal Air Marshal Service (FAMS) 
currently has access to the commercially available Verizon Airfone 
service, only when FAMs fly on aircraft with such a system installed. 
Recent statistics indicate that this system is installed on 
approximately 40 percent of the aircraft on which FAMs fly. This 
limited access includes voice only, via a tethered handset and does not 
provide for data, wireless, or pre-emption of service during an 
emergency situation. While the FAMS will conduct tests utilizing this 
technology, additional testing will be performed on other developing 
technologies with other service providers.
Phase I--Commercially Available Field Evaluation
    The Federal Air Marshal Service is on the verge of conducting a 
field evaluation, which will focus on foundational and component 
testing; as well as, evaluation of FAMS applications over a 
commercially available communication system.
    The foundational testing will seek to determine the most 
appropriate wireless communication protocol(s) for the FAMS to use for 
the Air-to-Ground Communication System (AGCS). This test will look at 
IR (infra-red), RFs (radio-frequencies), 802.11x, and Bluetooth 
technologies. The test will evaluate all of the technical and security 
aspects of the protocols, as well as aviation related aspects such as, 
compatibility with aircraft systems. General market trends and 
industry's development of wireless communications protocols will also 
be studied.
    The component testing will seek to evaluate the transmission and 
reception of voice and data across an existing commercially available 
communication system, and measure the ability of the system to handle 
the current FAMS applications--including the Surveillance Detection 
Report and other applications.
AGCS Strategic Planning
    Additionally, the FAMS has been working in concert with the 
Department of Homeland Security, Science and Technology, to rigorously 
identify the needs, scalability, and interoperability of the future 
AGCS. As a result of joint efforts of DHS S&T and the FAMS, an AGCS 
strategic plan is scheduled to be completed in September 2004.
AGCS Working Group
    At the request of Congress in HR 108-169, the FAMS is chairing an 
AGCS Working Group to develop a technical implementation plan, as well 
as, develop a business/government partnership for the implementation of 
this system.
    To date, the FAMS have hosted two working group meetings, which 
were attended by: National Aeronautics and Space Administration (NASA), 
Glenn Research Center; Federal Aviation Administration (FAA), NEXCOM 
(Next Generation Communications) and FAA GCNSS (Global Communication, 
Navigation, and Surveillance System); the JPDO (Joint Planning and 
Development Office); U.S. Special Operations Command; U.S. Northern 
Command/NORAD/CONR; United States Air Force; Department of Homeland 
Security; and others.
Milestones
    January 2003.--Air to Ground Charter signed by Adm. Loy, then TSA 
Administrator.
    Jan-Mar 2003.--FAMs participate in multiple air to ground 
demonstrations.
    September 2003.--FAMS managed services provider selected, work 
begun on air to ground field evaluation.
    November 2003.--Managed services provider issues RFP's for AGCS 
field evaluation.
    December 2003.--RFPs returned, scored--recommendations made.
    April 2004.--FAMS issues AGCS field evaluation final 
recommendation. DHS S&T begins working with FAMS on long-term strategic 
planning. NASA offers strategic alliance with FAMS.
    May-August 2004.--AGCS field evaluation conducted.
    July 2004.-- Aviation and communications industries invited to 
review draft AGCS strategic plan and participate in AGCS Working Group
    September 2004.--AGCS Strategic Plan briefed to Congress
    September 2004.--AGCS Strategic Plan completed.
Goals to be achieved
  --FAMS finalize contract modifications in order to move forward on 
        field-testing and evaluation.
  --Attain FAA approval for FAMS in-flight wireless communications 
        protocols.
  --Attain FCC approvals for same, focusing on aviation and broadband 
        technologies.
  --Attain Airlines approval and determine investment strategy for in 
        cabin-aviation communication (AGCS) system(s).
  --Complete FAMS AGCS strategic plan.
  --Agency review of field evaluation recommendations.
    Program Summary.--The FAMS is evaluating currently installed 
technology for immediate application and use by operational FAMS while 
continuing to pursue a long-term solution to FAMS AGCS needs, which may 
include developing technologies not associated with current in-flight 
communications. This long-term solution is encompassed by the AGCS 
Working Group, law enforcement and aviation communities and promotes 
confidence in our Nation's civil aviation system to detect, deter and 
defeat hostile acts targeting U.S. air carriers, airports, passengers, 
and crews.

                       SMALL BUSINESS CONTRACTING
    Question. As I said in my statement, Colorado is home to a number 
of small companies that have developed cutting edge technologies to 
keep not only us safe, but law enforcement officials and first 
responders safe as well.
    I am just curious as to the number of small companies, those with 
100 or less employees, that you are working with to provide us with 
their technology?
    Answer. The Small Business Innovation Research (SBIR) Program 
defines a small business as one with 500 employees or less. At the time 
of contract award, DHS determines if the winner is a small business 
under this size criterion, as well as checking other criteria of the 
program such as U.S. ownership, location in the United States, 
employment of principal investigator, etc. DHS does not keep records of 
actual company size under 500 employees.
    The first DHS SBIR solicitation requested proposals from small 
businesses in eight topic areas. Altogether, 374 responses were 
received and 66 were selected to enter negotiations for contract award 
in the first Phase. Three of these businesses are located in Colorado.
    Question. What percentage of your procurement dollars is being 
awarded to small businesses?
    Answer. The Small Business Innovation Research (SBIR) program is 
funded at 2.5 percent of extramural R&D funds. This equates to $19.6 
million in fiscal year 2004 for the Small Business Innovation Research 
Program, all with small businesses. In addition, small businesses are 
participants in our open solicitations, such as the one issued last 
fall for Detection Systems for Biological and Chemical Countermeasures. 
Among the 40 winning individual companies (or their teammates) in that 
fully competitive, $76 million solicitation, there were 35 small 
businesses.
    Question. How do you define what is a small company?
    Answer. DHS uses the SBIR definition of 500 employees or less.
    Question. Can you discuss with me where we are with liability 
protections for all contractors?
    Answer. As part of the Homeland Security Act of 2002, Public Law 
107-296, Congress enacted the several liability protections for the 
sellers of anti-terrorism technologies. The Support Anti-terrorism by 
Fostering Effective Technologies Act of 2002 (SAFETY Act) provides 
incentives for the development and deployment of anti-terrorism 
technologies by creating a system of risk and liability management. The 
purpose of the SAFETY Act is to ensure that the threat of liability 
does not deter potential manufacturers or sellers of anti-terrorism 
technologies (ATT) from developing and commercializing technologies 
that could significantly reduce the risks or mitigate the effect of 
large-scale terrorist events. Therefore, the SAFETY Act creates certain 
liability limitations for ``claims arising out of, relating to, or 
resulting from and act of terrorism'' where a qualified anti-terrorism 
technology (QATT) has been deployed. The SAFETY Act does not limit 
liability from harms caused by an anti-terrorism technology when no act 
of terrorism has occurred.
    The definition of a qualified anti-terrorism technology is very 
broad and includes products, equipment, services (including support 
services), devices, or technology (including information technology) 
that is designed, developed, modified, or procured for the specific 
purpose of detecting, identifying, preventing, or deterring act of 
terrorism, or limiting the harm that such acts might otherwise cause.
    Sellers of ATTs may apply for SAFETY Act protection on line at 
www.safetyact.gov, or they may submit their application electronically 
or in hard copy. Each application will be reviewed in accordance with 
the criteria set forth in the SAFETY Act to assess its technical 
capabilities and to determine if SAFETY Act protection is necessary in 
order to deploy the technology more broadly. To date there are 19 full 
applications in various stages of review as well as 61 pre-
applications. The pre-application process is optional and is designed 
to provide early feedback to the applicant regarding whether the 
technology would be considered for SAFETY Act protection.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

    Question. I believe that you have heard from Members of Congress 
from Illinois, New York, and Idaho about their concerns in excluding 
DOE national laboratories in those three States from playing on the 
same field as your designated ``intramural'' laboratories. I was under 
the impression that DHS had understood Congress's desire in creating 
your department, that DHS would approach the DOE national labs on a 
level playing field. When visiting with you prior to your confirmation, 
I had felt I had your assurance to that effect.
    I have made clear to you my concerns about the process your office 
used in establishing the intramural/extramural laboratory system. I 
have concerns about the validity of this approach and its outcome for 
both the country and the extramural laboratories. These concerns 
include: The reduced ability of DHS to bring the best talents and 
capabilities to bear on some of our most significant national security 
threats. The practicality and propriety of setting up a system that not 
only encourages, but requires the extramural laboratories to compete 
against industry and universities in order to contribute to the 
solutions of important homeland security challenges. This is of 
particular concern since the work designated for HSARPA and SED is work 
that your staff has already indicated can be performed without unique 
capabilities that exist in the national laboratories. The thin 
reasoning and basis that has been put forward by DHS as a rationale for 
selecting the intramural labs just doesn't appear to hold up.
    Please provide the precise criteria used for selection of 
intramural and extramural labs. Also provide the explanation of why 
Argonne National Lab, Brookhaven National Lab, and Idaho National 
Engineering and Environmental Lab do not meet the criteria for being 
intramural laboratories.
    Answer. The Department of Homeland Security, through Section 309 of 
the Homeland Security Act of 2002, is provided access to the national 
laboratories and sites managed by the Department of Energy to carry out 
the missions of DHS.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes, or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories.
    A consequence communicated to the national laboratory directors in 
advance of their decision is that, as a result of such participation, a 
national laboratory will be ineligible to participate in open 
solicitations to the private sector for a period of 3 years after it 
ceases engagement in the S&T strategic planning and program development 
processes.
    S&T will give the laboratories access to internal DHS strategic 
planning information. DHS policy is that if any non-DHS entity, 
including a national laboratory, receives that kind of information, DHS 
considers that entity to have an ``organizational conflict of 
interest'' that makes the entity ineligible to participate in any 
solicitations open to the private sector issued by S&T.
    Question. Do you think that it is appropriate for national labs to 
be in direct competition with universities and industries for HSARPA 
work?
    The Homeland Security Advanced Research Projects Agency (HSARPA) 
solicitations seek to the maximum extent possible to capture the best 
ideas and solutions. To achieve this end, Broad Agency Announcements 
(BAAs) are used. Under a BAA, teams are not in direct competition; each 
team is judged on the basis of the unique ideas proposed to solve the 
broadly defined technology challenge. DOE Order 481.1B provides the 
guidance DOE uses for the national laboratories regarding participation 
in BAAs with universities and industries.
    The DHS Science and Technology Directorate, wishing to make the 
best use of each of these laboratories and sites in consonance with 
statute, regulation, and policy, asked laboratories and sites to make a 
decision regarding their desired mode of interaction with the 
Directorate--to participate in S&T's internal strategic planning and 
program development processes, or, if otherwise permissible under 
applicable law, regulation, contract, and DOE policy, to respond to 
certain types of S&T solicitations open to the private sector.
    On March 31, 2004, the following national laboratories and sites 
communicated their decision to Under Secretary McQueary to participate 
in S&T's internal strategic planning and program development processes: 
Argonne National Laboratory, Bechtel Nevada, Brookhaven National 
Laboratory, Idaho National Engineering and Environmental Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Oak Ridge National Laboratory, Pacific Northwest National Laboratory, 
and the Sandia National Laboratories.
    A consequence communicated to the national laboratory directors in 
advance of their decision is that, as a result of such participation, a 
national laboratory will be ineligible to participate in open 
solicitations to the private sector for a period of 3 years after it 
ceases engagement in the S&T strategic planning and program development 
processes.
    Should we assume that cost will not be a primary factor in 
selecting winners for HSARPA and SED contracts? If it is a primary 
factor, do you expect any national laboratories to be able to compete 
on a cost basis?
    Answer. The Homeland Security Advanced Research Projects Agency 
(HSARPA) and the Office of Systems Engineering and Development (SED) 
consider other criteria, such as technical approach, performance 
improvement if successful, value to the DHS user, program management 
strategy, and capabilities of researchers to perform proposed work, 
more important than the total cost of the research. The S&T Directorate 
looks at the total cost of the research to confirm that it is 
reasonable, but it is only a deciding criterion if the costs are too 
high or too low. The eventual cost of the fielded system and its 
operation are frequently considered under the value to DHS user 
criterion; this should differ by technical approach, but not by 
category of proposer.
    Costs can also enter the final evaluation of proposals in a 
determination of ``best overall value to the government.'' Under best 
value, all factors are simultaneously evaluated looking to create out 
of the family of selected proposals the best diversified programmatic 
solution for the government against the total available funding.
    S&T program solicitations seek to the maximum extent possible to 
capture the best ideas and solutions. To achieve this end, Broad Agency 
Announcements (BAAs) are used. Under a BAA, teams are not in direct 
competition; each team is judged on the basis of the unique ideas 
proposed to solve the broadly defined technical challenge.
    Question. Wouldn't it be reasonable to have a system where all of 
your critical R&D requirements were met through competitive processes 
in order to assure access to the broadest array of talent in a cost 
efficient way? Do you believe that this is what Congress intended?
    Answer. DHS recognizes the unique talents at each of the DOE 
national laboratories, and is committed to maximizing opportunities for 
all the DOE laboratories in support of homeland security. We believe 
that by allowing the national laboratories to support S&T either 
through programmatic partnerships or project-based work, maximum 
efficiency in resource utilization may also be achieved.
    S&T conducts full and open competitions for a majority of its 
research, development, testing and evaluation programs through Broad 
Agency Announcements. The Office of Research and Development will 
continue to conduct performance-based work with the national 
laboratories.
    Question. Knowing that Congress debated and rejected proposals for 
folding one or more national labs into DHS when it was creating the new 
department, under what authority does DHS now proceed with this same 
concept, but administratively instead of legislatively?
    Answer. The research, development, testing and evaluation 
capabilities needed to support the missions of the Department of 
Homeland Security are being defined and institutionalized within the 
Department. Support of those needs now and in the future requires the 
establishment and support of an enduring capability that includes 
scientists and engineers who are well-versed in the requirements and 
technologies associated with homeland security, and dedicated to the 
mission of the Department, as well as physical facilities that support 
their efforts. The legislation creating the Department of Homeland 
Security and the Science and Technology Directorate recognized that 
many of these needed capabilities exist within the Department of 
Energy's laboratories and sites and provided for access to them in 
support of the Department's mission.
    The existing DOE laboratories have critical mass and expertise 
across multiple disciplines to perform the necessary threat assessments 
and, thus, to participate in DHS's and the S&T Directorate's internal 
systems and analyses, associated trade studies, and long-range planning 
that will form the basis for the architectures that are ultimately 
developed and deployed to secure the homeland. These scientists will be 
intimately involved in assisting the S&T Directorate in setting 
research goals and requirements and formulating the research and 
development roadmaps.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                           R&D CONSOLIDATION
    Question. The fiscal year 2005 budget request proposes to 
consolidate R&D budgets from the Coast Guard, Emergency Preparedness 
and Response Directorate, and from the Immigration and Customs 
Enforcement bureau. Other research budgets, such as $154 million for 
the Transportation Security Administration were not included in this 
consolidation. What plans are there to consolidate all the Department's 
research budgets within the Science & Technology Directorate? If so, 
what is the timeline for completing the consolidation? What are the 
benefits of consolidating R&D budgets under one Directorate? What 
savings are anticipated by consolidating the Department's research 
budgets under one roof?
    Answer. We have begun the consolidation process by evaluating and 
producing a report on the research, development, testing, and 
evaluation work that was being conducted within the Department of 
Homeland Security but was not already under the direct cognizance of 
the Science and Technology Directorate. Where it is appropriate, the 
Science and Technology Directorate will absorb these R&D functions. In 
other cases, the Science and Technology Directorate will provide 
appropriate input, guidance, and oversight of these R&D programs. We 
expect to have this process completed by the end of fiscal year 2004 in 
accordance with the Congressional directive.
    Consolidation of the research and development functions of the 
Department's components will significantly improve the Department's 
overall ability to meet its mission. With consolidation, we can ensure 
that operational end-user requirements and needs are being met by the 
best science and technology that can be brought to bear on the problem, 
whether that expertise comes from internal or external sources. We will 
be able to enhance our efforts to avoid duplication of effort in the 
R&D areas, and we fully expect to find synergies develop: what is 
created to meet the requirements of one component may be able to be 
fielded to support the needs--stated or not yet recognized--of another. 
The specific cost savings expected will be identified as part of the 
process of R&D consolidation.

                          DETECTION TECHNOLOGY
    Question. When Secretary Ridge testified before the subcommittee in 
February, he said that if a passenger wanted to board a plane with a 
biological weapon, the Department does not currently have the capacity 
to detect it. He said that acquiring such a capability is a top 
priority for the science and technology directorate. How does your 
budget address this issue?
    Answer. The Biological Countermeasures portfolio in the S&T 
Directorate is currently initiating systems studies to better define 
needs and options for detection of a biological agent release aboard an 
aircraft. Detection of a biological pathogen during the passenger 
security screening process remains a difficult problem, but we are also 
investigating potential detection options. It is possible that 
modifications to current technology can provide interim capability 
while the detection efforts described above can provide an improved 
future capability.

                    UNIVERSITY CENTERS OF EXCELLENCE
    Question. In fiscal year 2004, Congress appropriated $68.8 million 
for University programs under the Science and Technology Directorate. 
When Under Secretary McQueary testified on March 2, he said that the 3 
centers would be selected in fiscal year 2004 and the fiscal year 2005 
budget request would be sufficient to maintain three centers. How many 
centers would be selected in fiscal year 2004 and fiscal year 2005 if 
the budget request maintained the current level of funding instead of 
cutting the program by $39 million?
    Answer. In addition to the risk analysis and agro-terrorism centers 
already selected in fiscal year 2004, we anticipate two more 
solicitations for University-based Homeland Security Centers this 
fiscal year. If the fiscal year 2004 level of funding were maintained 
for fiscal year 2005 and beyond, an additional five Centers could be 
selected. SAFECOM
    The budget request for SAFECOM is $22.105 million. The Department's 
budget justification states that this program is a cost-share program 
and anticipates receiving $12.5 million from within DHS and $9.55 
million from other Federal departments. Please provide the specific 
contributions from each DHS component and from each of the other 
Departments contributing to this program.
    Question. How much was anticipated for SAFECOM in fiscal years 2003 
and 2004 versus the amount reimbursed from other agencies? Please 
provide the specific contributions from each DHS component and from 
each of the other Departments contributing to this program.
    On February 23, the Secretary said that ``the Department has 
identified technical specifications for a baseline interoperable 
communication system.'' Please describe these technical specifications 
and how it will benefit first responders. What is the timeline to 
implement these specifications? What is the cost impact of these 
specifications? Will the Department establish a separate funding 
mechanism to assist first responders pay for this short-term solution?
    Answer. The chart below outlines the funding for SAFECOM expected 
for fiscal year 2003 and fiscal year 2004, and the actual amount 
collected by the program in fiscal year 2003. It is the current 
expectation that all fiscal year 2004 funding provided by DHS is from 
the Chief Information Officer's wireless account.

                             SAFECOM FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                          Actual  fiscal    Anticipated
                                             year 2003      fiscal year
                 Agency                        Funds        2004  Funds
                                            Contributed     Contributed
------------------------------------------------------------------------
USDA....................................           1.431           1.520
DOD.....................................           3.345           1.770
DOE.....................................           1.431           1.430
HHS.....................................           1.431           1.520
DHS.....................................  ..............          12.520
DoI.....................................  ..............           2.951
DoJ.....................................  ..............           4.312
Treasury................................           9.500  ..............
                                         -------------------------------
      Total.............................          17.138          26.023
------------------------------------------------------------------------

    The Department will require certain minimum specifications relating 
to interim interoperable solutions, such as cross-band repeaters and 
patching units. These specifications will allow public safety 
practitioners to clearly articulate what technical requirements must be 
met by vendors of communications equipment so that purchases made in 
the short term are successfully targeted at equipment that meets their 
immediate needs. Since many commercial units are already capable of 
meeting these requirements, the cost of these units should be 
unaffected.
    The Department is still exploring options for funding and will 
release an implementation timeline accordingly.

                           GRANTS & CONTRACTS
    Question. Of the funds appropriated in fiscal year 2004, provide a 
table that shows the number of grants provided, the amount for each 
grant, the recipient, and the purpose. Provide the same information for 
contractual agreements.
    Answer. See table below.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                 Type                     Amount                      Project Title/Purpose                                          Performer                             Procurement Agent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
BAA..................................   $30,000,000  Technical Support Working Group, Rapid Prototyping.....  Multiple Awards Pending................................  Naval System Management
                                                                                                                                                                        Activity
BAA..................................     6,045,595  Fund for RA 03-01, Detection Systems for Biological and  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Chemical Countermeasures (DSBCC), TTA-3 and TTA-5.
BAA..................................     5,710,000  Scene Understanding (NRL BAA 55-03-02 Artificial         Multiple Awards Pending................................  Navy Research Lab
                                                      Intelligence Technologies & BAA 55-03-05 Advanced
                                                      Intelligence Technologies).
BAA..................................     5,230,000  Threat Vulnerability, Intelligence and Information       Multiple Awards Pending................................  Navy Research Lab
                                                      Analysis, and Warning Capabilities of DHS (BAA 04-02).
BAA..................................     6,196,909  Detection Systems for Biological and Chemical            Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Countermeasures (RA 03-01 TTA-4).
BAA..................................     2,070,000  Domain Name System Security (DNSSEC) (Air Force          Multiple Awards Pending................................  Air Force Research Lab
                                                      Research Lab/Information Grid System BAA 03-18-IFKA
                                                      Cyber Defensive & Offensive Operations Technology).
BAA..................................    54,589,000  Funds for BAA 04-01 (Rad/Nuc Countermeasures Systems     Multiple Awards Pending................................  U.S. Navy Space and Air
                                                      Architectures Analysis) and BAA 04-02 (Rad/Nuc                                                                    Warfare Center (SPAWAR)
                                                      Detection Systems),.
BAA..................................     2,050,000  Large Scale Network Security Test & Evaluation Datasets  Multiple Awards Pending................................  DOI/NBC
                                                      Program (DOI/NBC BAA 03-05-FH).
BAA..................................    10,000,000  Fund for RA 03-01, Detection Systems for Biological and  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Chemical Countermeasures (DSBCC), TTA-5.
BAA..................................       102,000  Evaluation Plan for BAA 04-02, Detection Systems for     Oak Ridge National Laboratory..........................  DOE
                                                      Radiological and Nuclear Countermeasures (DSRNC)
                                                      HSARPA Review Support.
BAA..................................     7,000,000  Phase II B Funding for RA 03-01, Detection Systems for   Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Biological and Chemical Countermeasures (DSBCC) TTA-2.
BAA..................................       896,600  Live Agent Testing Evaluation (RA 03-01 TTA 3/4/5--      Multiple Awards Pending................................  Ft. Detrick, USAMRAA
                                                      Portable High-Throughput Integrated Laboratory
                                                      Identification System, Lightweight Autonomous Chemical
                                                      Identification System, Autonomous Rapid Facility
                                                      Chemical Agent Monitor).
                                      --------------
      BAA Total......................   129,890,104
                                      ==============
Contract.............................     6,000,000  Counter MANPADS Development and Demonstration Phase....  Awards Pending.........................................  DHS
Contract.............................        60,000  Support for Model OT Agreement Analyses................  Logistics Management Institute (LMI)...................  DHS
Contract.............................     4,678,601  Counter MANPADS Program Support........................  SRS Technologies.......................................  Ft. Detrick, USAMRAA
Contract.............................       859,873  Operational and Support Staffing for Office of Weapons   ANSER Corp.............................................  DHS
                                                      of Mass Destruction (WMDO).
Contract.............................       208,750  Enhancing International Travel Security................  Organization for Economic Cooperation and Development..  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................         5,058  Additional Funding for Goods Used ISO Biowatch.........  VWR International......................................  CoastGuard
Contract.............................       371,440  Bio Watch Operations Support...........................  Booz Allen Hamilton....................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................        57,120  Unmanned Aerial Vehicle Analysis Support...............  SRA International......................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
Contract.............................        90,000  ORION--GPS Integration.................................  Orion Electronics (Award Pending)......................  Department of Interior,
                                                                                                                                                                        Gov Works
Contract.............................       900,000  Support of Civil Aviation Security Systems Engineering   Center for Naval Analysis Corporation (CNAC)...........  DHS
                                                      Study.
Contract.............................       282,951  Programmatic and Technical Management Support to the     SPARTA, Inc............................................  Ft. Detrick, USAMRAA
                                                      Director, ORD.
                                      --------------
      Contract Total.................    13,513,793
                                      ==============
Grant................................     3,310,826  DHS Scholarship/Fellowship Program.....................  Oak Ridge Institute for Science and Education  (ORISE).  DOE
Grant................................     4,000,000  University of Southern California--University Programs   University of Southern California......................  DHS/FEMA
                                                      Grant.
                                      --------------
      Grant Total....................     7,310,826
                                      ==============
RA...................................       270,000  IDA Chemical Hazard Analysis...........................  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................       161,998  South Florida Hawkeye Project fiscal year 2004, BTS....  Coast Guard HQ.........................................  DHS/USCG
RA...................................     1,131,679  DHS Cyber Security Testbed.............................  UC Berkeley, USC, UC Davis, Penn State, Purdue,  ICIR..  National Science
                                                                                                                                                                        Foundation (NSF)
RA...................................     2,300,000  South Florida Hawkeye Project fiscal year 2004, BTS....  United States Coast Guard..............................  DHS/USCG
RA...................................       230,000  Study of Emerging Threats and Evolving Technologies....  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................       390,750  Recognizing Emotion In Speech..........................  Columbia Univ..........................................  National Science
                                                                                                                                                                        Foundation (NSF)
RA...................................       382,500  Automated Intent Determination (AutoID)................  Dr Mark Adkins, Univ of Arizona........................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................       624,196  VACIS Image Processing and Projection (IPP)............  SAIC...................................................  DHS
RA...................................        64,600  Perimeter Security System..............................  NAVSEA.................................................  NAVSEA
RA...................................       500,000  Border Gateway Protocol (BGP) Security Analysis and      National Institute of Standards and Technology  (NIST).  National Institute of
                                                      Evaluation of Large Scale BGP Attacks.                                                                            Standards and Technology
                                                                                                                                                                        (NIST)
RA...................................     2,500,000  Surveillance--RODS Decision Enhancements for The         RODS-U of Pitt.........................................  NAVSEA
                                                      BioWatch System.
RA...................................     3,000,000  Surveillance--ESSENCE Implementation of ESSENCE          Johns Hopkins..........................................  NAVSEA
                                                      Biosurveillance Systems.
RA...................................       200,000  Technical Advisory Group (TAG) to HSARPA on Bioaerosol   Multiple Awards Pending................................  Edgewood Chemical and
                                                      sensor testing and evaluation methodology.                                                                        Biological Center
RA...................................    10,853,444  PSITEC, technology clearinghouse.......................  Public Safety and Security Institute for Technology....  U.S. Navy Space and Air
                                                                                                                                                                        Warfare Center (SPAWAR)
RA...................................       390,750  Recognizing and Understanding Emotion in Speech          Navy Research Lab......................................
                                                      Columbia University.
RA...................................       382,500  Automated Intent Determination (AutoID)................  University of Arizona..................................  Navy Research Lab
RA...................................     3,450,000  Bioinformatics and Assay Development Program...........  Multiple Awards Pending................................  Ft. Detrick, USAMRAA
RA...................................     6,000,000  Rapid Prototyping......................................  Multiple Awards Pending................................  Navy Research Lab
RA...................................        50,000  Provides funding for Evaluation Plan for BAA 04-02,      Sandia National Laboratory.............................  DOE
                                                      Detection Systems for Radiological and Nuclear
                                                      Countermeasures (DSRNC).
RA...................................        76,000  Evaluation Plan for BAA 04-02, Detection Systems for     Lawrence Livermore National Laboratory.................  DOE
                                                      Radiological and Nuclear Countermeasures (DSRNC).
RA...................................         6,888  Office of Weapons of Mass Destruction--Computer          DHS/GSA Schedule.......................................  DHS
                                                      Equipment.
RA...................................     2,500,000  Evaluation of a Deployed Biosurveillance System........  Potomac Institute......................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................       539,720  Port Authority NY/NJ Testbed--PNNL.....................  Pacific Northwest National Laboratory..................  DOE
RA...................................       500,000  Port Authority NY/NJ Testbed--SRTC.....................  Savannah River Technology Center.......................  DOE
RA...................................     1,000,000  Port Authority NY/NJ Testbed--EML......................  Environmental Measurements Laboratory..................  DOE
RA...................................       506,452  DHS Industry Forum.....................................  Center for Technology Commercialization (CTC)..........  DOJ, Office of Justice
                                                                                                                                                                        Programs
RA...................................       412,988  Port Authority NY/NJ Test Bed PNNL: Sys Analysis.......  Pacific Northwest National Laboratory..................  DOE
RA...................................    13,000,000  Radiological /Nuclear Test and Evaluation Complex......  Bechtel Nevada.........................................  DOE
RA...................................       175,000  Weapons of Mass Destruction (WMD) and Nuclear            Camp Peary AFETA.......................................  Armed Forces Experimental
                                                      Assessment Training.                                                                                              Training Activity
                                                                                                                                                                        (AFETA)--Camp Peary
RA...................................        66,570  Office of Weapons of Mass Destruction--Secure Portable   DHS....................................................  DHS
                                                      Phones.
RA...................................         5,000  DHS Facilities/GSA Support of S&T, letterhead, etc.....  General Services Administration........................  DHS
RA...................................       250,000  Interagency Board......................................  Battelle supporting Interagency Board (IAB)............  DHS
RA...................................    13,244,400  Bio Watch Operations Support...........................  Environmental Protection Agency........................  EPA
RA...................................       262,500  Unmanned Aerial Vehicle Analysis of AssumptionGeneral    GSA....................................................
                                                      Services Administration.
RA...................................        41,680  Second Intelligence and Security Informatics Symposium   National Science Foundation (NSF)......................  National Science
                                                      (ISI 2004).                                                                                                       Foundation (NSF)
RA...................................     2,500,000  DHS Facilities/GSA Support of S&T Relocation...........  General Services Administration........................  DHS
RA...................................     8,500,000  Homeland Security Institute............................  Award Pending..........................................  Ft. Detrick, USAMRAA
RA...................................       103,079  TDY Support to Chemical Countermeasures Portfolio U.S.   U.S. Army..............................................
                                                      Army Edgewood Center.
RA...................................     5,000,000  USCG Research & Development............................  U.S. Coast Guard.......................................  USCG
RA...................................        80,000  Point Defense Against Aircraft Attack..................  Institute for Defense Analysis (IDA)...................  DOD Washington
                                                                                                                                                                        Headquarters Service
                                                                                                                                                                        (WHS)
RA...................................        18,965  John Rein 90 Day Extension.............................  NETC...................................................  Naval Education and
                                                                                                                                                                        Training Center
RA...................................       489,322  Strategic Planning.....................................  Award Pending..........................................  Gov Works
RA...................................       170,500  Professional & Engineering Services....................  Award Pending..........................................  Department of Interior,
                                                                                                                                                                        Gov Works
RA...................................       480,000  Support for Planning Documents.........................  Touchstone Corp........................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................     2,601,000  Border Safe Integrated Feasibility Experiment Phase II.  Corporation for National Research Initiatives (CNRI)...  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
RA...................................        25,000  Support of International Meeting of Biometrics Experts.  National Institute of Standards and Technology  (NIST).  National Institute of
                                                                                                                                                                        Standards and Technology
                                                                                                                                                                        (NIST)
RA...................................       100,000  Enhanced International Travel Security Support.........  Asian Technology Information Program (ATIP)............  Office of Naval Research
RA...................................       100,000  DHS Canada Collaboration...............................  Sandia National Laboratory.............................  DOE
RA...................................        86,400  Radiological Dispersal Device (RDD) Workshop...........  Sandia National Laboratory.............................  DOE
RA...................................       216,250  Chemical Biological National Program (CBNP)              Argonne National Laboratory............................  DOE
                                                      Continuation Program--ANL.
RA...................................     5,820,000  Chemical Biological National Program (CBNP)              Lawrence Livermore National Laboratory.................  DOE
                                                      Continuation Program--LLNL.
RA...................................     2,589,500  Chemical Biological National Program (CBNP)              Los Alamos National Laboratory.........................  DOE
                                                      Continuation Program--LANL.
RA...................................     2,188,750  Chemical Biological National Program (CBNP)              Sandia National Laboratory.............................  DOE
                                                      Continuation Program--SNL.
RA...................................       598,875  Chemical Biological National Program (CBNP)              Pacific Northwest National Laboratory..................  DOE
                                                      Continuation Program--PNNL.
RA...................................       567,500  Chemical Biological National Program (CBNP)              Lawrence Berkeley National Laboratory..................  DOE
                                                      Continuation Program--LBNL.
RA...................................        75,000  Chemical Biological National Program (CBNP)              Oak Ridge National Laboratory..........................  DOE
                                                      Continuation Program--ORNL.
RA...................................        62,500  Chemical Biological National Program (CBNP)              Idaho National Engineering and Environmental Laboratory  DOE
                                                      Continuation Program--INEEL.
RA...................................     4,215,475  Plum Island Animal Disease Center (PIADC)--First         Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Quarter fiscal year 2004 Continuation Funding.
RA...................................    10,166,544  Plum Island Animal Disease Center O&M..................  Plum Island Animal Disease Center (PIADC)..............  DHS
RA...................................     1,060,400  Environmental Measurements Lab.........................  Environmental Measurements Laboratory..................  DOE
RA...................................     6,930,000  Threat Vulnerability Integration Systems Pilot (TVIS)--  Lawrence Livermore National Laboratory.................  DOE
                                                      LLNL.
RA...................................     3,870,000  Threat Vulnerability Integration Systems Pilot (TVIS)--  Pacific Northwest National Laboratory..................  DOE
                                                      PNNL.
RA...................................     1,480,050  Yarrow Behavioral Analysis Technical Support Nuclear     Lawrence Livermore National Laboratory.................  DOE
                                                      Assessment Program.
RA...................................       250,409  PNNL Support to Emergency Preparedness and Response      Pacific Northwest National Laboratory..................  DOE
                                                      Program.
RA...................................       800,000  Weapons of Mass Destruction--Nuclear Assessment Program  Los Alamos National Laboratory.........................  DOE
                                                      (NAP).
RA...................................       100,000  Weapons of Mass Destruction--Nuclear Assessment Program  Oak Ridge National Laboratory..........................  DOE
                                                      (NAP).
RA...................................     4,525,000  Nuclear Assessment Program, Credibility Assessment.....  Lawrence Livermore National Laboratory.................  DOE
RA...................................       320,000  Nuclear Assessment Program, Forensic Tech Support......  Pacific Northwest National Laboratory..................  DOE
RA...................................     1,900,000  EPR Scientific Support to FEMA.........................  Lawrence Livermore National Laboratory.................  DOE
RA...................................     2,229,225  ARS Plum Island Animal Disease Center (PIADC)            Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Scientific Support.
RA...................................        45,980  ARS Plum Island Animal Disease Center (PIADC) Admin      PLUM/Plum Island Animal Disease Center (PIADC).........  DHS
                                                      Support.
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Los Alamos National Laboratory.........................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Argonne National Laboratory............................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................       400,000  Developing a Critical Infrastructure Protection          Pacific Northwest National Laboratory..................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,200,000  Developing a Critical Infrastructure Protection          Sandia National Laboratory.............................  DOE
                                                      Decision Support System (CIP/DSS).
RA...................................     1,500,000  BioWatch--Orange Alert Expanded Sample Analysis........  Lawrence Livermore National Laboratory.................  DOE
RA...................................     1,514,000  RadNuc Countermeasures--PNNL...........................  Pacific Northwest National Laboratory..................  DOE
RA...................................     3,313,000  Rad-Nuc Countermeasures PEP--LANL......................  Los Alamos National Laboratory.........................  DOE
RA...................................       101,900  NRC Workshop Conference................................  National Research Council (NRC)........................  DOE
RA...................................       700,000  Advanced Scientific Computing--SNL.....................  Sandia National Laboratory.............................  DOE
RA...................................     4,776,000  Advanced Scientific Computing--LLNL....................  Lawrence Livermore National Laboratory.................  DOE
RA...................................        85,811  Advanced Scientific Computing--ORNL....................  Oak Ridge National Laboratory..........................  DOE
RA...................................     2,500,000  National & Regional Visual Analytics Centers...........  Pacific Northwest National Laboratory..................  DOE
RA...................................       250,000  Environmental Measurements Laboratory Second Qtr         Environmental Measurements Laboratory..................  DOE
                                                      Funding for fiscal year 2004.
RA...................................     1,298,500  CBNP fiscal year 2003 Continuation and New Start         Los Alamos National Laboratory.........................  DOE
                                                      Funding.
RA...................................     4,833,500  CBNP fiscal year 2003 Continuation and New Start         Lawrence Livermore National Laboratory.................  DOE
                                                      Funding.
RA...................................     1,500,000  Photofission-Based Nuclear Material Detection and        Idaho National Engineering and Environmental Laboratory  DOE
                                                      Characterization.
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--LANL..........  Los Alamos National Laboratory.........................  DOE
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--LLNL..........  Lawrence Livermore National Laboratory.................  DOE
RA...................................     1,600,000  (Tri-Lab) Threat-Capability Assessments--SNL...........  Sandia National Laboratory.............................  DOE
RA...................................    15,300,000  First Responder CBRNE Protective and Operational         National Institute of Standards and Technology  (NIST).  DHS
                                                      Equipment Standards Development Program.
RA...................................       280,000  RADNUC Attribution Advisor.............................  Lawrence Livermore National Laboratory.................  DHS
RA...................................       255,000  Border Safe Phase II...................................  SPAWAR.................................................  DHS
RA...................................     2,257,098  Plum Island Animal Disease Center (PIADC) O&M Services   Plum Island Animal Disease Center (PIADC)..............  DHS
                                                      Contract--Remainder of funding.
RA...................................     1,199,370  ORISE Merit Review for HS Centers......................  Oak Ridge Institute for Science and Education  (ORISE).  DOE
                                      --------------
      RA Total.......................   186,199,518
                                      ==============
SBIR.................................    17,170,000  Small Business Innovation Research Program (SBIR)......  Multiple Awards Pending................................  Department of the
                                                                                                                                                                        Interior National
                                                                                                                                                                        Business Center/Fort
                                                                                                                                                                        Huachuca
                                      --------------
      SBIR Total.....................    17,170,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

             Question Submitted By Senator Daniel K. Inouye

    Question. I continue to have constituent businesses contact my 
office to ask for information about grant opportunities from the 
Department of Homeland Security. My staff has requested a briefing from 
the Science and Technology Directorate. However, the requested briefing 
has so far not been provided. Upon researching on the website, my staff 
came upon an invitation to attend a Department of Homeland Security 
Industry Forum. Mr. Chairman, I request that a copy of this notice be 
placed in the record.
    I would like to quote from this announcement:
    This two-day forum will provide industry the opportunity to hear, 
first-hand, what technology needs and requirements DHS will have in the 
coming years. DHS staff will provide detailed briefings on technology 
R&D and T&E requirements for the Department, as well as, where and when 
to apply for DHS funding.
    A brief itinerary and list of speakers, including several members 
of your staff, is attached. This sounds like a great forum that my 
staff and constituents would be interested to attend. However, a list 
of registration fees is also included. The fees range from $425 for 
members of the government to $625 for private industry. I was surprised 
to learn of the high cost to attend this government briefing. Why are 
government employees required to pay $425 to learn about these funding 
opportunities? Why is DHS charging other entities for this information?
    Answer. Fees for this conference were maintained at levels as low 
as we believed feasible. In accordance with standard government 
practice, fees were set to help offset the costs of conducting a public 
forum rather than supporting the conference with public funds.
                                 ______
                                 

    Questions Submitted to Information Analysis and Infrastructure 
                               Protection

              Questions Submitted by Senator Thad Cochran

                 BIODEFENSE COUNTERMEASURES (BIOSHIELD)
    Question. The President's budget proposes to transfer the Strategic 
National Stockpile back to the Department of Health and Human Services 
but not project Bioshield. IAIP's role in the project BioShield is to 
make the threat assessments necessary to determine proper BioShield 
investments which is the rationale for the Department of Homeland 
Security having responsibility for this program.
    What assessments have been carried out by Information Analysis and 
Infrastructure Protection of our vulnerabilities to biological attacks 
to guide decisions as to the investments which should be made to 
develop, produce and pre-purchase vaccines or other medications from 
BioShield?
    Answer. The Department of Homeland Security has been assigned a 
role in several bioterror initiatives. One such initiative, Project 
BioShield, specifies DHS work with the Department of Health and Human 
Services (HHS) and several other Federal agencies to ensure resources 
are available to combat a sudden chemical or biological attack. The 
central premise for this program is the government must prepare for 
such attacks by acquiring the best vaccines/drugs for pathogens such as 
smallpox, anthrax and botulinum toxin. To do so, current Project 
BioShield guidelines require DHS evaluate likely biological/chemical 
threats and identify promising bioresearch R&D to best address such an 
attack.
    DHS is currently involved in an initiative designed to protect the 
Nation against bioterrorism. This initiative, known as the Bio-
Surveillance Program, has been in operation since 2003. This program 
not only enhances on-going surveillance in areas such as human health, 
hospital preparedness, State and local preparedness, vaccine research 
and procurement, animal health, food and agriculture safety and 
environmental monitoring but will integrate these data streams with 
intelligence data in a comprehensive fashion.
    IAIP's role in the Bio-Surveillance Program is developing a real-
time system for harvesting data on the health of our population, 
animals, plants, and food supply, as well integrating this information 
with environmental monitoring and intelligence data. This integration 
can enable better decision-making and a more rapid Federal, State, and 
local response. Coordination between DHS and the Department of Health 
and Human Services and the Department of Agriculture is ongoing. This 
data exchange will help DHS, HHS, and other Federal agencies evaluate 
potential health threats and guide bioterrorism preparedness resource 
investments.

                             CYBER SECURITY
    Question. The National Cyber Security Division, as part of the 
Information Analysis and Infrastructure Protection Directorate, 
recently unveiled the National Cyber Alert System which intends to 
deliver information to home computer users and technical experts in 
business and government agencies to better secure their computer 
systems from the latest computer viruses.
    What progress has been made by the National Cyber Security Division 
to prevent the spread of this computer virus as well as future virus 
and worm outbreaks?
    Answer. The lynch pin to preventing the spread of computer viruses 
and worm outbreaks is a robust and mutually beneficial relationship 
with the private sector. Cyber security is often a reactive process 
because the initiative rests with hackers and malicious agents. 
Developing and maintaining a partnership with the private sector is 
therefore a crucial means to both responding quickly to emerging 
threats and taking proactive measures to forefend against potential 
threats. The DHS/US-CERT Partner Program is composed of members that 
recognize their responsibility to their organizations and the Nation to 
improve the current and future state of cyber security. Members 
collectively and individually realize the need to take action and abide 
by principles and practices that are appropriate as critical 
infrastructure operators, communities of interest, vulnerability 
researchers, educators, and software vendors. The Partner Program 
consists of participants from various sectors of the cyber community 
who must agree to meet certain criteria in order to achieve the 
designation of DHS/US-CERT partner. These criteria are designed with 
the aim of preventing occurrences such as the spread of computer 
viruses and worms and other malicious activities.
    Another important tool for the prevention of worms and viruses is 
the National Cyber Alert System. Americans are exhibiting a keen 
interest in the alert system. On day one of the National Cyber Alert 
System launch, we had more than one million hits to the US-CERT 
website. Today, more than 250,000 direct subscribers are receiving 
National Cyber Alerts to enhance their cyber security. Through the 
alert systems, Americans are able to receive information that is 
accurate and actionable. It is our goal to inform the public about the 
true nature of a given incident, what the facts are, and what steps 
they can and should take to address the problem. The offerings of the 
National Cyber Alert System provide that kind of information. To date, 
we have issued seven security tips, six security bulletins, ten 
technical alerts, and six non-technical cyber alerts in response to 
cyber security incidents through the National Cyber Alert System. We 
strive to make sure the information provided is understandable to all 
computer users, technical and non-technical, and reflect the broad 
usage of the Internet in today's society. As we increase our outreach, 
the National Cyber Alert System is investigating other vehicles to 
distribute information to as many Americans as possible.
    Question. What is the relationship of the National Cyber Security 
Division with the Terrorist Threat Integration Center (T-TIC) on 
combating computer viruses by terrorists?
    Answer. NCSD, in partnership with DHS/IAIP/IA works intensively 
with the law enforcement and intelligence communities including the 
TTIC in order to develop a comprehensive threat, risk, attribution 
assessment and response capability.
    Question. What law enforcement agency has primary jurisdiction in 
enforcing cyber crimes?
    Answer. No single law enforcement agency has primary jurisdiction 
in the investigation of cyber crime. The FBI and Secret Service are the 
most visible, pervasive agencies, but other organizations, such as the 
IRS' Office of the Inspector General or ICE's Cyber Smuggling Division, 
have specialized areas of responsibility in the areas of enforcing 
cyber laws.

                   HOMELAND SECURITY ADVISORY SYSTEM
    Question. The Homeland Security Advisory System has evolved from a 
nationwide threat level status to more specific targeted areas since 
the latest threat level decrease in January. While the threat level is 
currently at an ``Elevated Condition'', or code yellow, specific cities 
and the aviation sector remain at the ``High Condition'', or code red. 
This more targeted threat level status helps focus limited resources on 
the most credible threat areas and at the same time allows law 
enforcement and first responders in other parts of the country to 
``stand down'' while remaining vigilant. In recent testimony, Secretary 
Loy testified that the Department was ``very close'' to unveiling a 
system that would allow specific threat warnings to about a dozen 
economic sectors.
    With the improvement of intelligence that has included detailed 
specific terrorist threats for certain metropolitan areas and specific 
sectors of industry, what further enhancements do you envision for the 
Homeland Security Advisory System?
    Answer. With each raising and lowering of the Homeland Security 
Advisory System (HSAS), the Department of Homeland Security learns new 
lessons and improves its notification process. As the system has 
evolved, it has come to reflect the need for certain metropolitan areas 
and/or specific areas of industry to be notified at different times or 
at different levels than others. As such, DHS has become adept at 
providing information to such specific audiences as states and sectors 
through Homeland Security Information Bulletins and Advisories. 
Additionally, Department officials speak personally with 
representatives and officials of threatened States and industries, when 
the need arises. This personal communication, along with the ability of 
the system to allow DHS to communicate to certain areas what their 
alert level should be embody the enhancements that have been needed 
this far.
    Question. Are you looking to enhance or improve upon any of the 
eight existing Federal warning systems that are currently being 
operated nationwide?
    Answer. Yes. With the $10,000,000 provided to IAIP in last year's 
Homeland Security Appropriations Conference Report (108-280) we plan to 
enhance and upgrade NOAA Weather Radio and the Emergency Alert System 
(EAS), and possibly other systems. A few vital efforts have been 
identified for immediate funding. Those include improving the coverage 
and survivability of the EAS by (1) installing a satellite-based 
message delivery capability and (2) by adding EAS stations to all 50 
States (to include State Emergency Operations Centers) and U.S. 
territories. Also, there are pilot projects planned to: (1) examine how 
reverse 911 can be used to help disseminate alert and warning 
information; and (2) demonstrate how new technologies such as digital 
TV broadcasts/datacasting using spectrum offered by public TV can be 
used to improve our ability to alert the American public. These three 
projects represent a portion of the $10,000,000, but the bulk of the 
funding will be allocated after completion of a study of available and 
planned alert and warning systems to develop integrated, capabilities-
based architecture recommendations. This study will be completed by the 
end of summer.

                 HOMELAND SECURITY INFORMATION NETWORK
    Question. Another enhancement being made by the Department in the 
area of information sharing is the new Homeland Security Information 
Network which will be able to disseminate threat information to 
Federal, State and local law enforcement agencies.
    Is the Department on schedule to complete the first phase of the 
network this summer, and what is the targeted deadline to complete the 
flow of real-time information to all relevant end-users throughout the 
country?
    Answer. The Department is on schedule to meet the summer deadline. 
We plan to begin expansion of HSIN to the county level, in conjunction 
with the each State's individual rollout plans, by the end of year. By 
the beginning of next year, we plan to be actively engaged with other 
homeland security partners, such as the private sector, to support 
further real time, secure collaborative information flow.
    Question. How will the Homeland Security Information Network be 
different from the Joint Regional Information Exchange System and 
Regional Information Sharing Systems which are already in place and in 
use?
    Answer. The Homeland Security Information Network (HSIN) is the 
overarching network for the Department of Homeland Security (DHS) to 
provide information exchange and real time collaboration between 
Federal, State, and municipal authorities. Within the initial program 
there will be four HSIN areas: HSIN/DM (Decision Maker-used by Federal, 
State and Urban area homeland security advisors); HSIN/EOC (used 
primarily by Federal, State and urban emergency operations centers); 
HSIN/NG (used primarily by the NGB and the State adjutant generals); 
and the HSIN/JRIES (used primarily by law enforcement and intelligence 
agencies). This summer, other areas within HSIN, like the Secret and 
DHSInfo areas will be activated. HSIN is the umbrella program under 
which all of these virtually private networks are contained.
    While there is a need to be able to disseminate intelligence 
information across the full spectrum of the HSIN system, the primary 
HSIN tools to be used for intelligence dissemination will be the HSIN/
JRIES (Law Enforcement and intelligence information) area and the HSIN/
Secret network (JRIES at the Secret level). This will initially run on 
the National Guard (SIPRNet) backbone then migrate to the HSDN network 
once the DHS classified system becomes operational.
    The goal of HSIN is to have an integrated system that uses the same 
tools and applications. These applications will run on separate areas 
of the HSIN network defined by the user group's clearance, need to 
know, and need to act as approved by DHS.

                             CYBER SECURITY
    Question. The Department's new initiative ``Live Wire'' will test 
civilian agencies' security preparedness and contingency planning by 
staging cyber attack exercises to evaluate the impact of widespread 
computer disruptions. Recent instances, such as the power outages in 
the Northeast this past August, are an example of how an attack on our 
critical infrastructures, such as a cyber attack by terrorists on our 
Nation's utility industry, could cascade across a wide region if the 
proper precautions are not taken immediately.
    What was learned from previous simulated terrorist attacks on the 
Nation's cyber infrastructure, and how will ``Live Wire'' build upon 
current programs?
    Answer. Strategically, Livewire demonstrated the impact of a cyber-
based attack on critical infrastructures. The exercise highlighted the 
interdependencies among our critical infrastructures and underscored 
the requirement for enhanced cross-sector cooperation. At the tactical 
level, Livewire demonstrated the need to enhance processes for 
communicating cyber protection information to the public and for two-
way information sharing with the private sector. Livewire prompted us 
to enhance our vulnerability identification and reduction capabilities. 
This drove us to create the Cyber Interagency Incident Management Group 
(Cyber IIMG) to coordinate intergovernmental preparedness and response 
operations. It also spurred us to expand the reach of emergency 
communications capabilities using a technologically advanced, secure 
network. In addition, we launched the National Cyber Alert System as a 
dissemination mechanism to provide the broadest population of public 
stakeholders with accessible, relevant, actionable alerts and 
information.
    Question. How do you coordinate ``Live Wire'' exercises with 
private industry to test their cyber infrastructure vulnerabilities, 
and what gaps in coordination have been revealed between government 
agencies and the private sector?
    Answer. Whereas the first responder and emergency management 
communities have been exercising at national, regional, and local 
levels for many years, the cyber response community has only formed 
over the past decade or so. There have been very few cyber-focused 
exercises at any level. Efforts to coordinate an effective cyber 
response capability across State and local jurisdictions and economic 
sectors are only beginning.
    The Federal Government cannot by itself defend cyberspace from 
current or future threats. Acknowledging this, NCSD collaborates with 
industry and public-sector stakeholders across the country to define, 
develop, and exercise the major elements of a national cyber-space 
security response system. Its goals for the National Exercise Program 
(NEP) are to:
  --Sensitize a diverse constituency of private and public-sector 
        decision-makers to a variety of potential cyber threats 
        including strategic attack;
  --Familiarize this constituency with DHS' concept of a national cyber 
        response system and the importance of their role in it;
  --Practice effective collaborative response to a variety of cyber 
        attack scenarios, including crisis decision-making;
  --Provide an environment for evaluation of inter-agency and inter-
        sector business processes reliant on information 
        infrastructure;
  --Measure the progress of ongoing United States efforts to defend 
        against an attack;
  --Foster improved information sharing among government agencies and 
        between government and industry;
  --Identify new technologies that could provide earlier warning of 
        attacks;
  --Sort roles and responsibilities of government agencies and 
        industry.
    NCSD's involvement in the NEP will be guided by two principles: (1) 
Cyber is only one element of a multifaceted NEP; cyber elements must be 
closely coordinated with other elements of that program to ensure 
efficient use of limited resources and the most effective return on 
exercise investments; (2) Cyber exercise elements must not be sidelined 
or relegated to an ``afterthought'' category within the NEP.
    Although the NEP is the responsibility of the Office of Domestic 
Preparedness (ODP), the NCSD will retain overall responsibility for 
planning and execution of adequate cyber response exercises. The NCSD 
shall identify a NEP cyber exercise program manager, ensure adequate 
resources are available for cyber elements of the NEP, including 
personnel, define NEP cyber exercise objectives and metrics, prioritize 
NEP cyber exercise events, solicit Federal agency and department 
participation in cyber-focused elements of the NEP, and initiate or 
approve Statements of Work for contracted cyber exercise activities.
    Wherever appropriate, the NCSD will coordinate ODP on funding and 
personnel issues.
    The NCSD requires a set of cyber-focused exercises that build 
grassroots cyber response capabilities quickly while also elevating the 
concept of strategic cyber attacks and maturing a national cyberspace 
security response system capable of dealing with them. Cyber-focused 
exercises must include a series of regularly scheduled ``Building 
Block'' exercises followed by a culminating, nationally scoped exercise 
similar to Livewire, also the continuation of tabletop events hosted by 
the USSS (Electronic Crimes task Forces).
    We also require that cyber be included as an important element in 
targeted NEP events that do not have a cyber focus. Examples are 
TOPOFF, FEMA (EP&R) readiness exercises, and policy-focused seminars 
for senior officials. Each of these exercise events should include 
cyber scenarios and cyber responders.

                   NATIONAL CRITICAL INFRASTRUCTURES
    Question. Recently published was the interim final rule for the 
voluntary submittal of critical infrastructure information by private 
industry to the Department of Homeland Security with assurances that 
the proprietary data submitted would be safe from public disclosure.
    What level of cooperation with private industry do you anticipate 
as you gather information on the Nation's critical infrastructures?
    Answer. It is difficult to forecast the extent to which private 
industry will voluntarily share critical infrastructure information 
with DHS. We only know that private industry has consistently stated in 
the past that two barriers to sharing information with the government 
were concerns that (1) the information would be released to the public 
under the Freedom of Information Act and (2) the disclosure could 
create a civil liability for the company sharing the information. The 
Critical Infrastructure Information Act of 2002 and the Interim Final 
Rule which implements it, we believe, removes these two barriers to 
information sharing with the government.
    Question. How will the publishing of this rule help the Department 
in its effort to safeguard the country's privately-held critical 
infrastructures?
    Answer. The CII Act and implementing regulations provide private 
industry assurances that critical infrastructure information they 
voluntarily share with the government will be protected from release to 
the public and from use in civil litigation. We believe the PCII 
Program will enable the Department to receive critical infrastructure 
information that would not have previously been available to the 
government, thereby allowing for a better understanding of threats.
    Question. What incentive is there for private industry to volunteer 
information to the Federal Government?
    Answer. Private industry realizes they can assist in efforts to 
improve homeland security by volunteering information. What was needed 
was a means for them to share information that is usually considered 
proprietary and shielded from competition here and abroad. With the 
protection from FOIA disclosure offered by the CII Act, we believe the 
private sector can now share sensitive and confidential information 
that we can be analyzed to identify threats and vulnerabilities. Such 
analysis will provide the basis not only for developing measures to 
deter the threats and mitigate the vulnerabilities to which the 
critical infrastructure is exposed, but also for improving Federal, 
State, and local governments' emergency preparedness posture to respond 
to any attacks more effectively.
    Question. In December of last year, a Homeland Security 
Presidential Directive was issued to produce a comprehensive, 
integrated National Plan for Critical Infrastructure and Key Resources 
Protection for all Federal departments and agencies to outline national 
goals, objectives, milestones, and key initiatives to be completed 
within 1 year.
    With various departments and agencies previously conducting 
assessments of their vulnerabilities, do you believe this directive can 
be completed earlier than the deadline of December of this year?
    Answer. The President intends that we meet the requirement to 
develop the NIPP by December 2004, but, given the urgency of the need, 
we will complete it earlier if possible.
    Question. Has funding been requested in other departments' and 
agencies' budgets outside of the Department of Homeland Security to 
carry out the Presidential directive, or will the Department of 
Homeland Security be requested to assist other agencies in the 
assessment of critical infrastructures?
    Answer. Under HSPD-7, Sector-Specific Agencies shall, among other 
things, ``conduct or facilitate vulnerability assessments'' of their 
respective sectors in accordance with guidance provided by the 
Department of Homeland Security. Each department and agency will need 
to budget for efforts to carry out their HSPD-7 responsibilities and 
provide that information to the President and the Congress.
    Question. The Congress made available over $343,000,000 for 
Remediation and Protective Actions for fiscal year 2004 for critical 
infrastructure identification, to conduct vulnerability field 
assessments of critical infrastructures, and to create a database of 
vulnerabilities affecting the highest priority terrorist targets in 
order to develop better security measures for the protection of 
facilities and national assets.
    What is the timeline of your Directorate for identifying our 
Nation's critical infrastructures, and what progress has been made in 
field assessments of the critical infrastructures that have already 
been identified?
    Answer. We have built the National Asset Database (NADB). It is a 
comprehensive database designed to catalogue the Nation's critical 
infrastructure and key assets (CI/KA). The central purpose for 
constructing this database is to identify assets that may be attractive 
targets to terrorists so measures can be taken to help mitigate risk. 
There are now approximately 33,000 sites listed on the NADB, and DHS 
continues to receive additional nominees from States and territories. 
We view the NADB as a living database, therefore sites will be added or 
removed as warranted by ongoing assessments. Inputs continue to be 
received and from private industry as well as Federal, State and local 
governments.
    In regards to field assessments of identified critical 
infrastructures, over the past 6 months DHS has conducted approximately 
89 Site Assistance Visits (SAVs) for the highest priority sites and 
produced 25 Characteristics and Common Vulnerabilities (CCVs) reports 
on vulnerabilities for specific classes of CI/KA.
    We anticipate completing another 74 CCVs by the end of the fiscal 
year and conduct any necessary SAVs.
    Question. Who will retain the database of vulnerable critical 
infrastructures, and who will have access to it?
    Answer. DHS will retain the NADB. As we receives additional input 
from States, territories, and other Federal agencies it will update/
maintain the NADB and share asset information with other DHS entities, 
such as the Office for Domestic Preparedness (ODP), to help prioritize 
resource allocation for the implementation of protective measures to 
safeguard our Nation's critical infrastructure and key assets. State-
specific information will also be shared with State Homeland Security 
Advisors as appropriate both to solicit comments and to identify State 
priorities. Appropriate access will be and is grant to private industry 
concerning their data and assets.
    Question. What type of security procedures for our Nation's 
identified critical infrastructures have been implemented?
    Answer. As priority assets are identified, we conduct risk analyses 
and consequence of attack analyses to help determine which sites are at 
greatest risk. PSD then develops plan templates and other tools to 
assist owners and operators in developing Buffer Zone Protection Plans 
(BZPPs) and site security protection plans. The BZPP helps develop 
effective preventive measures that make it more difficult for 
terrorists to conduct surveillance or launch attacks from the immediate 
vicinity of a possible target.
      office for domestic preparedness use of database information
    Question. In recent testimony, Secretary Ridge cited that the 
``maturity and growth'' of the Information Analysis and Infrastructure 
Protection Directorate is allowing for better targeting of resources 
for the Office for Domestic Preparedness in the decision-making process 
for the distribution of grants to high threat areas across the country.
    What improvements have been made over the past year by the 
Information Analysis and Infrastructure Protection Directorate to 
assist the Office for Domestic Preparedness in making sure that Federal 
funds are going to the areas where the threat of a terrorist attack is 
the greatest?
    Answer. IAIP assisted ODP in the identification of a set of 
critical assets from the NADB that most warranted additional resources 
to enhance their security for fiscal year 2004. This resulted in the 
identification of approximately 1,700 assets onto a fiscal year 2004 
list of assets warranting special attention for fiscal year 2004 funds.
    Future development of the NADB and our efforts to identify and 
prioritize national critical infrastructure and key assets will, we 
believe, help us ensure the best protection of critical infrastructure 
and best use of Federal resources.
    Question. How will the Information Analysis and Infrastructure 
Protection Directorate work to share information catalogued in the 
database of critical infrastructures with the Office for Domestic 
Preparedness to target grants to the country's highest threat areas?
    Answer. Similar to fiscal year 2004, an analytical framework will 
be used to identify and prioritize assets on the expanded NADB, and 
this information will be shared with ODP to help develop its lists of 
assets that may require grant assistance in fiscal year 2005.
    Intelligence capabilities 10. The President's budget proposes a 
$19,300,000 decrease in funding for the Information Analysis and 
Infrastructure Protection Directorate in order to centrally fund the 
Terrorist Threat Integration Center (T-TIC) with other intelligence 
programs and also to centrally fund the Federal Bureau of 
Investigation's (FBI) Terrorist Screening Center with Department of 
Justice programs.
    Question. Without the contribution of funding that the Department 
of Homeland Security currently makes to the Terrorist Threat 
Integration Center, do you believe that the Department will have an 
adequate intelligence presence in T-TIC?
    Answer. Yes. The Department of Homeland Security (DHS) will provide 
10 percent, or 30 personnel, to the Terrorist Threat Integration 
Center's (TTIC's) end goal of 300 personnel. This, as well as the close 
working relationship that TTIC and the DHS Office of Information 
Analysis (IA) have developed ensures an initial intelligence presence 
at TTIC.
    Question. What will the Information Analysis and Infrastructure 
Protection's role be in the Terrorist Threat Integration Center and the 
Terrorist Screening Center without providing any funding of its own?
    Answer. Per the explanation above, the DHS Information Analysis and 
Infrastructure Protection (IAIP) Directorate's role in both TTIC and 
the Terrorist Screening Center is the physical presence of personnel at 
each location. DHS analysts will inform the TTIC's work. Conversely, 
TTIC analysts will inform DHS' analysis. In addition to analytical 
personnel, DHS senior leadership will retain their presence at each 
center.
    Question. How do you prevent a duplication of intelligence 
gathering and intelligence analysis with the Terrorist Threat 
Integration Center?
    Answer. Terrorism analysis is a complex issue. It is an area where 
a certain amount of multiple analyses from different perspectives is 
preferred. To ensure no vital piece of intelligence is missed, the 
analysis of terrorist information is a shared responsibility.
    DHS' Office of Information Analysis (IA) analytical intelligence 
mission is to protect the American homeland against terrorist attack. 
To do so, IAIP maps terrorist threats and capabilities against assessed 
vulnerabilities. IA also communicates information to State, local, 
tribal, major city, and private sector officials. TTIC's primary 
responsibility is the analysis of all international terrorism threat 
information whether collected domestically or abroad.
    Question. Without a request for funding within the Department of 
Homeland Security for the integration of the multiple terrorist 
watchlists, how will the Department of Homeland Security participate in 
consolidating various agencies' terrorist lists?
    Answer. The Department of Homeland Security is participating in the 
Terrorist Screening Center (TSC) through physical location of personnel 
in the center.
    Question. Please distinguish the functions of T-TIC from the 
intelligence functions of the Information Analysis and Infrastructure 
Protection Directorate.
    Answer. As a Directorate, IAIP enables, develops, and sustains the 
capability to continuously identify, assess, and prioritize current and 
future threats to the homeland, map those threats against 
vulnerabilities, issue timely warnings, provide the basis from which to 
organize protective measures to secure America, and assist in 
coordinating the response and restoration of critical infrastructure 
functions. Currently, IAIP is moving forward in carrying out our 
statutory responsibilities which include:
  --Providing the full range of intelligence support to senior DHS 
        leadership and component organizations and to State and local 
        and private sector respondents.
  --Mapping terrorist threats to the homeland against assessed 
        vulnerabilities to drive our efforts to protect against 
        terrorist attacks
  --Conducting independent analysis and assessments of terrorist 
        threats, including competitive analysis, tailored analysis, and 
        ``red teaming''
  --Assessing the vulnerabilities of key resources and critical 
        infrastructure of the United States
  --Merging the relevant analyses and vulnerability assessments to 
        identify priorities for protective and support measures by the 
        Department, other government agencies, and the private sector
  --As a full member of the Intelligence Community, the Office of 
        Information Analysis partnering with other IC members, TTIC, 
        law enforcement agencies, State and local partners, and the 
        private sector, as well as DHS' components to manage the 
        collection and processing of information involving threats to 
        the Homeland into usable, comprehensive, and actionable 
        information.
  --Disseminating time sensitive warnings, alerts and advisories to 
        Federal, State, local, and tribal governments and private 
        sector infrastructure owners and operators
    TTIC is an interagency joint venture of its partners. The TTIC 
members include, but are not limited to, the Department of Justice/FBI, 
DHS, CIA, National Security Agency, National Imagery and Mapping 
Agency, Defense Intelligence Agency, and the Department of State. 
Through the input and participation of these partners, TTIC merges and 
analyzes terrorist threat-related information, collected domestically 
and abroad, in order to form the most comprehensive possible threat 
picture, and disseminate such information to appropriate Federal 
Government recipients. TTIC draws on the particular expertise of its 
participating members--such as DHS' focus on homeland security and 
CIA's focus on terrorism information collected overseas--thereby 
ensuring that the terrorist analytic product takes advantage of, and 
incorporates, the specialized perspectives of relevant Federal 
agencies. TTIC provides comprehensive, all-source terrorist threat 
analysis and assessments to U.S. national leadership.
    Currently, DHS representatives are located at TTIC, working day-in-
day-out, participating in processing and analyzing terrorist threat-
related information, developing, shaping, and disseminating TTIC 
products, assessing gaps in the available information, and ensuring 
that TTIC products reach appropriate DHS Headquarters elements. Through 
DHS, the necessary information, including threat descriptions, 
suggested protective measures, and locations of additional information, 
then reaches the appropriate State, local, tribal, major city and 
private sector officials. Analysts assigned to TTIC ensure that TTIC's 
work directly supports DHS' unique mission to protect the homeland. The 
threat information integration and analysis that is the beginning, not 
the end, of DHS' protective mission, will most effectively be carried 
out, as Congressional and other reviews have recommended, when all 
terrorism threat-related activities of the U.S. Government work 
together seamlessly.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

         NATIONAL INFRASTRUCTURE SIMULATION AND ANALYSIS CENTER
    Question. Mr. Libutti, the Department of Homeland Security has 
taken ownership of the National Infrastructure Simulation and Analysis 
Center, or NISAC. NISAC was developed by Sandia and Los Alamos National 
Laboratories to simulate and analyze various events and the cascading 
effects on critical infrastructure in the United States. Following the 
September 11th terrorist attacks, NISAC took on added importance as the 
Administration and Congress focused on homeland security. The fiscal 
year 2004 Homeland Security Appropriations Act had approximately 
$23,000,000 for NISAC. Would you please give the Subcommittee the 
status of the allocation of the fiscal year 2004 funding?
    Answer. The Homeland Security Appropriations Act of 2004 did not 
contain a specific line item for services to be provided by the 
National Infrastructure Simulation and Analysis Center (NISAC). 
However, the Department has set aside $20,000,000 in October 2004 for 
NISAC programmatic efforts to be performed by Los Alamos National 
Laboratory ($10,000,000) and Sandia National Laboratory ($10,000,000). 
Some of the planned NISAC activities include chlorine industry studies, 
analyses of rail system and electric power disruptions, assessments of 
Hurricane Isabel impacts on infrastructure, port and inland waterway 
modeling, as well as urban infrastructure modeling.
    Question. How much is in the President's fiscal year 2005 budget 
request to support activities by NISAC?
    Answer. The fiscal year 2005 request for the NISAC is $27,000,000.
    Question. What are some of the activities envisioned in the fiscal 
year 2005 budget for NISAC?
    Answer. NISAC fiscal year 2005 activities are expected to include 
expansion of the Center's developing National and Regional Tools into 
additional regions and cities of the Nation. Additionally, NISAC will 
begin developing consequence analysis and decision support tools to 
support the following:
  --Expansion of the urban infrastructure suites models for 
        transportation, telecommunications, water, public health and 
        energy to additional high threat urban areas.
  --Expansion of the dynamic simulation models to selected east and 
        west coast ports.
  --Expansion of the interdependent energy infrastructure simulation 
        system.
  --Expansion and testing of the waterways asset prioritization tool in 
        concert with the U.S. Coast Guard and Army Corps of Engineers.
  --Continued expert analysis and support to short term actions for the 
        Department's primary missions using the Center's developing 
        infrastructure models.
    One of the items that transferred from the Department of Energy to 
the Department of Homeland Security with NISAC was an appropriation of 
$7,500,000 for the construction and equipping of a NISAC facility at 
Kirtland Air Force Base in Albuquerque, New Mexico, which is adjacent 
to Sandia National Lab. Those funds have not been released for their 
intended purpose.
    Question. What is the delay in moving forward on this important 
facility?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
    Question. What is the status of the $7,500,000 appropriation 
specifically for the NISAC facility? Are those funds being held for the 
intended purpose?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
    Question. When can the Subcommittee expect the Department of 
Homeland Security to break ground on the NISAC facility in New Mexico?
    Answer. IAIP continues to move forward with the plans to build the 
facility, giving full consideration to the elements of the program and 
our obligation to comply with NEPA and other Federal statutes 
applicable to Federal construction projects.
                                 ______
                                 

               Question Submitted by Senator Larry Craig

    Question. Gen. Libutti I would like to compliment you on your 
approach to working with the national laboratories. It is clear that 
your management team is committed to using the best capabilities 
available in the most efficient way. In that vein, I would like to 
invite you to visit the Idaho National Engineering and Environmental 
Laboratory to learn more about how INEEL can contribute to your 
engineering, testing, and evaluation needs. The INEEL is in the process 
of standing up its national Critical Infrastructure Protection Test 
Range. Your organization is now using some of the resources that exist 
there. I think you will find it valuable to learn first hand the 
breadth of capabilities they have to offer your organization and their 
abilities to help you accelerate the implementation of many of your 
programs.
    In the longer term, I presume that testing and evaluating 
technologies before deployment by IAIP will be an important part of 
your mission.
    How much value do you see in having a national critical 
infrastructure protection test range available to you to accomplish 
your mission?
    Answer. I see great value in a facility that gives DHS the ability 
to test and evaluate infrastructure protection Technologies. As you 
noted, the Idaho National Engineering and Environmental Laboratory 
(INEEL) provides just such a Test and Evaluation (T&E) and modeling 
capability to DHS to help guide the development of critical 
infrastructure protection systems.
    INEEL has functional electrical grids, nuclear power plants and 
chemical processing facilities on its premises. INEEL engineers have 
been using this facility to conduct vulnerability and risk assessments 
on critical infrastructure for years. Furthermore, the test range 
itself is located in a remote and isolated area, giving the INEEL staff 
the freedom to conduct real world, hands-on vulnerability assessments 
without placing a local population at risk.
    As you may know, the Protective Security Division (PSD) of IAIP 
already is working with INEEL to address the vulnerabilities of our 
Nation's critical infrastructure by developing a National SCADA Testbed 
and a Process Control Security and Vulnerability Reduction Center. This 
new and important partnership between DHS and INEEL will help protect 
the Nation's critical infrastructure systems from both inadvertent 
failures and malicious attacks.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                   CRITICAL INFRASTRUCTURE PROTECTION
    Question. The budget for remediation and protection of critical 
infrastructure includes the identification of critical infrastructure 
and assessing vulnerabilities in addition to implementing remediation 
and protection measures. For fiscal years 2004 and 2005, please 
estimate, by critical infrastructure sector, the amounts actually spent 
or planned to be spent on identifying critical infrastructure and 
assessing vulnerabilities versus the amount spent on remediation or 
protection of critical infrastructure. For protective measures, please 
distinguish between investments made for ``buffer zones'' versus 
investments made to harden security ``on site.''
    According to the Department, 85 percent of the critical 
infrastructure is owned by the private sector. In assessing the need 
for Federal investments to secure our critical infrastructure, it will 
be essential for Congress to have measurable benchmarks of private 
sector investments in such infrastructure, such as investments in 
chemical facilities, port security, and cyber-security. Please provide 
the subcommittee with any benchmarks that have been established that 
show the private sector is making the necessary investments to secure 
our critical infrastructure and key assets.
    Please explain in detail how the $19,900,000 appropriated in fiscal 
year 2004 and the $19,900,000 requested in fiscal year 2005 will be 
spent for ``Protective Security Centers.'' How many centers have been 
established or planned to date and where are they located? How much 
funding is needed for each center? What purpose does each center serve?
    Answer. As a result of a mid-year review, two Protective Security 
Centers are planned for fiscal year 2004; one is linked to NYPD and 
another to LAPD. These centers, at a total cost of $10 million, will 
assist DHS to (a) identify critical assets in metropolitan areas for 
inclusion in national databases; (b) create partnerships between the 
police departments and protective security officials in the private 
sector to focus on combined protective activities; (c) reinforce 
Federal-State-local incident management procedures; and (d) develop 
training and exercise programs focused on protection vice response. 
Additional centers may be established in fiscal year 2005 and 
strategically located across the country to best serve law enforcement 
agencies. Funds are being used for the physical build-out and 
furnishing of the Centers with required infrastructure, computers and 
other necessary equipment and supplies. The respective police 
departments will staff the Centers.

                        CHEMICAL PLANT SECURITY
    Question. The General Accounting Office recently testified that 
``despite the industry's voluntary efforts, the extent of security 
preparedness at U.S. chemical facilities is unknown.''
    Explain IAIP's role in assessing vulnerabilities and taking 
protective at chemical security plants? How much of IAIP's fiscal year 
2004 and fiscal year 2005 budget, respectively, is dedicated to 
chemical plant security. For each fiscal year, please specify the 
amount spent or planned for vulnerability assessments, the number of 
chemical plants IAIP will provide vulnerability assessments for in 
fiscal years 2004 and 2005, and provide the amount planned for 
protective actions. Please specify, in detail, the protective actions 
IAIP will take in fiscal years 2004 and 2005 to secure chemical plants. 
Provide the amount of funding that is being spent to secure the area 
surrounding chemical plants versus funding being spent to harden 
security at the chemical plants themselves.
    Due to the dynamic threat environment combined with the ongoing 
effort to identify and prioritize the Nation's critical infrastructure 
and key assets (CI/KA), IAIP budgets reflect efforts to reduce 
vulnerabilities across all sectors to maximize flexibility in 
responding to emerging threats. That said, in fiscal year 2004 over 
$38.5 million of PSD's budget was dedicated to collecting, cataloging, 
and analyzing vulnerability assessment information across all sectors. 
The President's fiscal year 2005 budget has dedicated $38.7 million 
towards these efforts, enabling us to continue to reduce the 
vulnerabilities of our Nation's CI/KA.
    DHS has conducted approximately 19 Site Assistance Visits (SAVs) 
specifically to chemical facilities to assess their common 
vulnerabilities. The data collected during these site-specific visits 
is used to produce tools to help critical infrastructure owners and 
operators bolster protective measures.
    One such tool is the Characteristics and Common Vulnerabilities 
(CCVs) report series on vulnerabilities for classes of critical 
infrastructure and key assets (CI/KA). A CCV report for chemical 
facilities and a separate CCV for chemical storage facilities have been 
produced by PSD, and both are available to owners and operators of 
these facilities.
    Answer. We also are assisting State and local authorities, as well 
as private industry, in developing Buffer Zone Protection Plans (BZPPs) 
for areas immediately adjacent to the ``fence line'' of critical 
infrastructure. The approximately 1,700 BZPPs completed by the end of 
2004, included roughly 360 chemical sites warranting special attention. 
For fiscal year 2004 we allocated up to $50,000 per CI/KA site for 
vulnerability reduction. A data call is currently underway to support 
the identification of sites for attention in fiscal year 2005 and 
Protective Security Division (PSD) is excepting to complete roughly 
2,000 BZPPs next year.
    Building upon a program initiated in fiscal year 2004 (funded at 
$3.25 million), the DHS fiscal year 2005 budget request has 
approximately $10.8 million dedicated to the acquisition of web cam 
monitors for the chemical sector. These monitors will be installed 
adjacent to designated critical chemical sites to extend their buffer 
zones and enhance protective measures. DHS' plan is to provide this 
equipment to local law enforcement agencies to install on public right 
of ways to monitor the security of these facilities.
    DHS also has established a protection, training, and planning 
program for State homeland security personnel, local law enforcement, 
chemical facility operators and site security personnel. Periodic 
drills among the protective community will be conducted to exercise 
chemical facilities' response plans in case of a terrorist attack. PSD 
will continue to work with the Office for Domestic Preparedness to 
incorporate chemical plant security into national exercises.
    We are also in the process of developing plans for and deploying 
Protective Security Advisors (PSAs). Each PSA will have responsibility 
for a specific region of the county and will maintain a close 
relationship with the chemical plant owners and operations in their 
specific area of responsibility. PSAs will facilitate information 
sharing, organize protective security training, assist in emergency 
coordination, and represent DHS in the communities in which they are 
posted. Security Augmentation Teams (SATs) are also being developed. 
SATs will consist of about 25 personnel who are drawn primarily from 
major urban SWAT units. These SATs will focus on protecting high-value 
sites, including critical chemical facilities, will develop working 
relationships with the site's permanent protective security team, and 
will become familiar with the site's specific vulnerabilities. The PSA 
and SAT programs, still in their early stages and are being actively 
pursued.
    The activities described above in fiscal year 2004 and continued in 
fiscal year 2005 will not only greatly increase chemical site security 
and across all other sectors, but will increase our Nation's general 
protective capacity.

                    INTEGRATED TERRORIST WATCH LIST
    Question. What resources, if any, are being used in fiscal year 
2004 and planned for fiscal year 2005 to integrate lists of terror 
suspects held by different agencies? What is the timeline for having a 
fully functional integrated watch list? What role will IAIP play in the 
Terrorist Screening Center?
    Answer. The Department of Homeland Security is allocating 
approximately $8,000,000 to the Terrorist Screening Center (TSC) for 
fiscal year 2004. In fiscal year 2005, DHS will not contribute funds to 
the TSC, but will provide personnel detailed from DHS to the center. 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
personnel will continue DHS' contribution to this effort by maintaining 
ongoing communication and coordination with the center. The Terrorist 
Screening Center (TSC) is fully operational now. On December 1, 2003 
the TSC began 24/7 call center operations, coordination of the U.S. 
Government response, ensuring information collected was distributed to 
the appropriate entities, and established a process for addressing 
outdated and erroneous terrorist records and misidentifications. The 
database, TSDB, is currently limited to use at the TSC and will undergo 
several enhancements between now and the end of the (calendar) year. At 
that time, agencies will be able to electronically query the TSDB 
directly and get a systematic response within seconds. Because the TSC 
now maintains the terrorist information in the multiple systems used, 
it can ensure all the information appropriate for these systems is 
included.

                             IAIP STAFFING
    Question. According to information the IAIP directorate provided to 
the subcommittee, only 263 of 729 authorized positions were on board at 
the end of February, 2004. IAIP projects that only 543 positions will 
be filled by the end of fiscal year 2004. It would appear that IAIP 
will be lapsing millions of dollars that Congress approved for 
staffing. Do you intend to send the Committee a plan for reallocating 
these funds? If so, provide a detailed plan for spending these excess 
funds in fiscal year 2004.
    Answer. A memorandum requesting reprogramming/transfer actions has 
been submitted to congressional committees. This request notifies the 
committees that IAIP will redirect $23,500,000 from salaries object 
classes to other object classes for securing space to meet IAIP 
requirements.

                           OBLIGATED FUNDING
    Question. On March 1, the IAIP directorate provided the 
subcommittee with an estimate of $426,077,292, which represented the 
amount of fiscal year 2004 appropriated funds that either have been 
obligated or committed. Please provide the amount obligated versus 
committed. In addition, provide the amount of funding planned to be 
spent via contract in fiscal years 2004 and 2005 versus in-house.
    Answer. As of March 1 (February 29 accounting report), IAIP 
obligations were $199,255,217. The remainder of $226,822,073 was 
commitments on March 1 that are not yet signed contracts. As an update 
to this answer, IAIP obligations as of March 31 were $364,419,840, and 
as of April 30 were $382,475,764.
    All of the IAIP Assessment and Evaluation funding of $711,085,630 
will be spent via contract or intergovernmental payment. In house 
salaries and expenses are in a separate Salaries and Expenses 
appropriation.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Let me thank both of you for your 
cooperation with our subcommittee and your attendance at the 
hearing this morning. We hope that we will continue to be able 
to work closely with you as we work our way through the budget 
process, and that we provide the funds you need to do your job 
and carry out your mission successfully.
    I don't think we have any more important responsibility in 
government than what we're doing here in the Department of 
Homeland Security and in this subcommittee that provides the 
funding for these activities.
    We will stand in recess until the next hearing of our 
subcommittee when we will continue our review of the 2005 
budget request. We will have a hearing on March 9, in this same 
room. Our witness at that time will be the Under Secretary for 
Border and Transportation Security, the Honorable Asa 
Hutchinson.
    Until then we stand in recess.
    [Whereupon, at 11:47 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 9.]

</pre></body></html>
